<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2004</title>
<body><pre>[Senate Hearing 108-]
[From the U.S. Government Printing Office]



 
       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2004

                              ----------                              


                         WEDNESDAY, MAY 7, 2003

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:20 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Ted Stevens (chairman) presiding.
    Present: Senators Stevens, Cochran, Domenici, Hutchison, 
Burns, Inouye, Leahy, and Dorgan.

                         DEPARTMENT OF DEFENSE

                             National Guard

STATEMENTS OF:
        LIEUTENANT GENERAL H. STEVEN BLUM, ARMY NATIONAL GUARD, CHIEF, 
            NATIONAL GUARD BUREAU
        LIEUTENANT GENERAL ROGER C. SCHULTZ, DIRECTOR, ARMY NATIONAL 
            GUARD
        LIEUTENANT GENERAL DANIEL JAMES III, DIRECTOR, AIR NATIONAL 
            GUARD

                OPENING STATEMENT OF SENATOR TED STEVENS

    Senator Stevens. We welcome you, General, all of you who 
are Generals. I'll tell you one of the reasons I'm late, I just 
had a little demonstration session up on the ninth floor with 
the Special Operations and Logistics Center. It is extremely 
interesting. They have brought to show to us here in the Senate 
a whole series of devices that were really created in demand to 
situations that developed in Iraq, and it's just a wonderful, 
wonderful demonstration of the ingenuity of American service 
people.
    They've just adapted to the need and developed even a 
device to go down into a well. They saw the problem and devised 
an answer, and produced a result in 4 hours. Now, they can look 
right down at the bottom of the wells and see if they've hidden 
anything down at the bottom--very interesting. I was on the 
phone telling other Senators to get up there and see it before 
they move it. They're not going to be there very long.
    Senator Dorgan. How long are they going to be there?
    Senator Stevens. 10:30.
    General, we welcome you to our hearing, and I thank you for 
stopping by to visit with us yesterday. We've got two panels 
scheduled today. First, we're going to hear from the National 
Guard leadership followed by the leaders of the four Reserve 
forces. On our first panel, obviously, Lieutenant General 
Steven Blum, the Chief of the National Guard Bureau, Lieutenant 
General Roger Schultz, Director of the Army National Guard, and 
Lieutenant General Daniel James, Director of the Air National 
Guard.
    General Blum, General James, we welcome you to your first 
hearing before this subcommittee and look forward to working 
with you throughout your assignments, and General Schultz, it's 
nice to have you back with us today.
    Let me yield to my friend from Hawaii, our co-chairman, and 
see if he has any comments to make.
    Senator Inouye. Mr. Chairman, I thank you very much. First 
I want to commend you on that show on the ninth floor. It's 
something that all of us should see, and I wish to join you in 
welcoming all of the Generals this morning, General Schultz, 
General Blum, and General James.
    May I request that my full statement be made part of the 
record? Unfortunately, at quarter to 11:00, Mr. Chairman, I 
will have to leave. I have to get to our favorite place, Walter 
Reed, for a function.
    [The statement follows:]

             Prepared Statement of Senator Daniel K. Inouye

    Mr. Chairman, I want to join you in welcoming our witnesses 
today, General Blum, General Schultz, and General James of the 
National Guard who will be followed by General Helmly, Admiral 
Totushek, General McCarthy, and General Sherrad of the 
Reserves.
    Since September 11th, our Guard and Reserve personnel have 
been called up at unprecedented rates. They have performed 
their service in almost every aspect of homeland security and 
the global war on terrorism. Once again, they have reinforced 
their integral role in our military.
    As a result of the increased activations and deployments, 
many concerns have arisen on the strain placed on our Guard and 
Reserve and their families. One must not forget that our Guard 
and Reserve not only leave their families in most cases but 
must take leave from their jobs as well. This can cause undo 
strain on both employers and family finances. Our Guard and 
Reserve also cover a wide professional spectrum outside the 
military, including first responders, medical specialists, and 
engineers. These professions, and many others, are crucial for 
both civilian and military and their activations create an 
additional burden on our states and localities. We hope to 
address some of those issues during today's hearing.
    We will also want to focus on the Administration's fiscal 
year 2004 Budget proposal that merges the Military Personnel 
Accounts of Active, Guard, and Reserve. As you can imagine, 
this proposal is being met with some resistance on Capitol Hill 
and I assume among yourselves as well. As I understand it, this 
is the first of many account mergers that are headed our way in 
future budget requests and we would like to begin the 
discussion today.
    This committee also continues to be concerned over the 
longstanding issues of procuring weapons and equipment for our 
Guard and Reserve.
    Mr. Chairman, I thank you for holding this hearing and look 
forward to hearing the testimony of our witnesses.

    Senator Stevens. I will be pleased to yield to you, 
Senator. Does any other Senator have an opening statement?
    Senator Cochran. Mr. Chairman, I would just like to welcome 
our witnesses with you and Senator Inouye and commend them for 
the leadership they have given in this time of real test for 
the men and women who serve in the National Guard. It's been 
very impressive. They've been involved in every respect of the 
national defense, from combat to rear guard operations, and 
they've achieved conspicuous success, and we appreciate very 
much your leadership.
    Senator Stevens. Senator, do you have any opening 
statement?
    Senator Dorgan. Mr. Chairman, just to echo your thanks to 
the Guard and Reserve. In North Dakota, over a third of the 
members of our Guard and Reserve have been deployed, and I want 
to ask some questions about that, but I'm enormously proud of 
our citizens soldiers and what they have done for this country, 
and thank you for appearing today.
    Senator Stevens. Senator Domenici. Happy birthday, Senator 
Domenici.
    Senator Domenici. Well, thank you so much.
    Senator Stevens. Senator Burns, do you have any comments to 
make?
    Senator Burns. I have a statement, Mr. Chairman. Thank you 
for this hearing, and I'll submit it and look forward to 
hearing from the witnesses.
    [The statement follows:]

               Prepared Statement of Senator Conrad Burns

    Thank you, Mr. Chairman. I would like to thank all of you 
for being here today to discuss the status of your respective 
National Guard and Reserve Components. I know you are all--as 
so many are--incredibly busy, considering the current situation 
around the world.
    The men and women of the Guard and Reserve have seen an 
increased operations tempo over the past few years and have 
been pitching in, working with the Active Component on a more 
regular basis. This increased optempo does not, however, come 
with out costs. Short lead times for call-ups, coupled with 
uncertain or lengthy periods of service can make life very 
difficult. Employers and communities and families have been 
incredibly understanding and supportive of these men and women 
in our volunteer service. However, one can only be supportive 
and understanding for so long. The difference between military 
and civilian pay can cause undue stress on families. The loss 
of one or two employees is a big deal to a small business. In 
Montana, specifically, where business is small business, some 
business owners, despite how supportive they have been, have 
been pushed to the line and are having a real difficult time 
making ends meet. I know you are all aware of this and are 
working towards solutions.
    Our Guardsmen and Reservists have performed nobly in the 
latest missions with which they have been tasked--the Global 
War on Terrorism and Operation Iraqi Freedom. Both the Guard 
and Reserve are extremely skilled, capable forces, responding 
to various missions across this nation and across the world. 
They continue to play very important, but somewhat diverse 
roles in the protecting our homeland and warfighting operations 
overseas. This further lends credence to the flexibility, 
adaptability and rapid reaction of this force.
    Ensuring that our Guard and Reserve Components have the 
proper training, equipment and facilities necessary to carry 
out their duties is essential. I pledge to do what I can to 
make sure that our Guardsmen and Reservists have the support 
they need to get the job done.
    Again, I thank all of you for being here today. I look 
forward to hearing the testimony today and listening to the 
discussion that takes place this morning.
    Thank you.

    Senator Stevens. Senator Domenici.
    Senator Domenici. I have no statement, but I do want to 
take this occasion to join with all of you in thanking the 
National Guard and the Reserve for their great service, and 
particularly those from New Mexico. New Mexico is having a 
very, very large contingency at every level. They've done a 
marvelous job, and we thank you for the leadership you provide 
for them. Thank you.
    Senator Stevens. It's a pleasure to serve in this committee 
with such a young man, Senator.
    Senator Domenici. That's correct. Am I the youngest, 
looking around? Oh, no, you must be slightly--no. No.
    Senator Stevens. General, I remarked to General Blum 
yesterday that we've just witnessed the real absolute success 
in Senator Stennis' policy with regard, which really ultimately 
led to the total force concept, but when he initiated a concept 
of trying to get the Guard and Reserve really into active duty 
formations and have their training with the active duty 
formations in Europe. I think he started something that we will 
live with for the rest of our military service people. The 
concept of total integration, as Senator Burns has said, has 
just absolutely been demonstrated in Iraq, so we welcome you, 
and we welcome your statement.
    We will put all of your statements in the record in full, 
and make such statements as you wish. General Blum.
    General Blum. Mr. Chairman, members of the committee, good 
morning. Thank you for allowing us this opportunity to address 
you this morning on what we consider to be a national treasure, 
the National Guard of the United States, and you're all very 
correct, each and every one of the States that you represent 
and every State in our Union and our four territories has 
soldiers right now in 84 countries around the world prosecuting 
the global war on terrorism and defending our homeland 
simultaneously, and we have not dropped a single mission in 
order to do that, and we still have a fairly robust capability 
available to the Governors to respond for State emergencies, as 
you have seen happening, unfortunately in the last few days.
    On a personal note, I'd like to thank each and every one of 
you for your solid strong support of my nomination. I intend to 
lead the National Guard Bureau in a manner that will fully 
justify your confidence in that nomination and the confidence 
that you have placed in me. I think the National Guard has 
assembled a superb leadership team, with Lieutenant General 
Roger Schultz and Lieutenant General Danny James who will ably 
assist me. With their vast experience and wide and varying 
backgrounds I think we have put together a leadership team that 
will deliver to this Nation the kind of defense and security 
that they have come to expect from our Army and Air National 
Guard.
    We will also fulfill our obligation as a channel of 
communications between the Secretaries and the Services in the 
several States of the United States, the Governors and their 
Adjutants General.
    We will be one National Guard Bureau. We will be unified in 
our effort. We will be agents of change. We're very proud of 
our past, but we're more interested in our future, and we need 
to make sure that the National Guard of the United States is 
ready to provide the kind of security to our Nation and its 
citizens for future generations that past generations and the 
present generation has come to accept as a standard of 
excellence, so toward that end we will have the following 
priorities.
    First and foremost, it has always been and is today and 
will always be our number one priority to defend the homeland 
of the United States of America. It is our oldest mission, but 
with today's realities and new emerging threats it takes on 
even a more significant meaning than it did only 2 years ago. 
We will at the same time support the global war on terrorism, 
which we view as an extension of homeland defense.
    We see it as an away game on defending our homeland. We 
will take the fight to the enemy anywhere in the world, and we 
would hope that we could keep that off of the homeland of the 
United States of America, and in order to do these things, 
we're going to have to change and transform the National Guard 
Bureau, the headquarters of the National Guard in the various 
several States, and some of the units and functions and 
organizations will need some rebalancing and revisiting so that 
we are not curators of the historical reenactment group but 
prepared for current threats and future threats that may face 
our Nation.

                           PREPARED STATEMENT

    Both General Schultz and General James will now offer some 
brief comments, after which we would welcome your questions, 
but I want to take this last opportunity now to thank you once 
again for the magnificent opportunity to appear before this 
committee.
    Thank you.
    [The statement follows:]

    Joint Prepared Statement of Lieutenant General H. Steven Blum, 
  Lieutenant General Roger C. Schultz, and Lieutenant General Daniel 
                               James III

    Mr. Chairman and distinguished members of the Committee, thank you 
for the opportunity to come before you today to discuss your National 
Guard. Your continued support and trust have been instrumental in 
making the National Guard what it is today--a highly capable force, 
responsive to a myriad of homeland security missions as well as 
warfighting operations overseas.
    Since the first muster of three militia regiments in Salem, 
Massachusetts, December 13th, 1636, the National Guard has protected 
America at home and abroad. Nearly every generation in American history 
can attest to the significant contribution citizen-soldiers and airmen 
have made in defense of our freedoms and way of life. Long before 
September 11th, 2001, the National Guard, both at home and abroad, had 
served this nation at unparalleled levels. In the recent past, the 
National Guard contributed substantial forces, equipment and personnel 
to critical stabilization forces in Bosnia and Kosovo; peacekeeping 
forces in the Sinai; no-fly zone enforcement in Southwest Asia; State-
to-State partnerships; domestic emergencies; humanitarian operations; 
and numerous contingency operations across the world.
    The National Guard's number 1 priority is the security and defense 
of our homeland. For the past 366 years, the National Guard has been 
actively engaged in this endeavor, which has solidified our roots. We 
lead Department of Defense efforts in providing force protection, 
critical infrastructure protection, border security, missile defense, 
intelligence, Weapons of Mass Destruction civil support, communications 
support, as well as medical, and air sovereignty capabilities to 
homeland security. The National Guard is present for duty--bringing 
great skills, talent and capabilities to bear in an increasingly 
dangerous world. Our presence in more than 2,700 communities throughout 
the United States and its territories serves to connect the American 
people to their fighting forces.
    As the Department of Defense works to define its role in providing 
homeland security, the National Guard will play a key role because of 
our inherent and unique capability to cultivate better federal/state 
relationships. In nearly every conceivable scenario, local National 
Guard units--under the control of State Governors and Adjutants 
General--will be the first military responders on the scene. The 
statutory role of the National Guard Bureau is to be the channel of 
communication between the Army and the Air Force and the National Guard 
of the several states. Recently, we have coordinated with the Combatant 
Commander of U.S. Northern Command to perform that same role between 
NORTHCOM and the states. As part of this arrangement, the National 
Guard Bureau provides situational awareness on state-commanded National 
Guard operations to General Eberhart to augment his ability to 
effectively plan for and manage his command's diverse missions. Having 
previously served as Chief of Staff to NORTHCOM and NORAD, I witnessed 
the need for and value of this relationship.
    The National Guard's second priority is to support the Global War 
on Terrrorism here and abroad. On September 11th, 2001, while already 
heavily engaged in other mission areas, numerous National Guard troops 
responded to our local, state and national needs. Citizen soldiers and 
airmen dropped everything and ran to the defense of our nation and 
communities--many were on the scene literally within minutes. Since 
then, over 131,000 others have been mobilized to support the front 
lines of the Global War on Terrorism at home and abroad. This is in 
addition to the nearly 35,000 Active Guard Reserve members whose 
already-heavy workload grew significantly as well. Today's National 
Guard deploys citizen-soldiers and airmen worldwide to dangerous and 
complex places in 84 countries to include Afghanistan and Iraq to 
conduct combat operations in the Global War on Terrorism.
    Wherever this anti-terrorist warfight goes--the National Guard will 
go with it--alongside our joint partners in the Active and other 
Reserve Components. The National Guard has the will and the fighting 
spirit, however we need sustaining resources for both our people and 
equipment. This includes simplified and standardized benefits for all 
National Guard and reserve members, regardless of the status in which 
they serve their country.
    Over the last 18 months, American leaders have come to appreciate 
fully the adaptability and ability to react quickly provided by the 
National Guard's three different duty statuses--State Active Duty as 
the state militia; the federal-funded and state-executed operations 
under Title 32 as the National Guard of the several states; and the 
federal role as the National Guard of the United States in Title 10 
status. This flexibility should be protected and well-resourced at all 
times. In addition, many discovered that while Partial Mobilization 
authority is critical at times of great need, the use of volunteerism 
in combination with the necessary Partial Mobilization authority gives 
National Guard commanders the proper tools and flexibility to ensure 
sustained and ready forces over the longer term.
    Still, many of the issues that surfaced following mobilization of 
National Guard personnel for Operations Noble Eagle and Enduring 
Freedom revolved around the disparity of benefits associated with 
different service statuses. Those mobilized under USC Title 10 could 
claim protection under the Soldiers and Sailors Civil Relief Act, while 
those serving under USC Title 32 could not.
    Many factors influence the abilities of our forces to meet today's 
increasing demands. Certainly, the level of full-time manning available 
to the Army National Guard has been a readiness factor for years. Now 
more than ever, the Air National Guard depends on its full-time force 
as well to sustain growing air sovereignty alert, force protection, and 
command and control requirements. Full-time management has always been 
a critical factor in how we deal with logistics, administration and 
training, and their impact on readiness, and includes the ability to 
support traditional forces that contribute at extraordinary rates and 
in new mission areas.
    Infrastructure and facilities are increasingly important. Many 
National Guard facilities are well past their useful life. Inadequate 
facilities impact both the training and quality of life of soldiers and 
airmen, as well as drain valuable resources. Our facilities have to be 
able to support the developing roles and missions of increased National 
Guard participation in both homeland security and global contingencies. 
Infrastructure also includes the tremendous information technology 
capabilities distributed across the 54 states and territories. This 
technology is both a current and future warfare enabler--both at home 
and abroad.
    America insists on a relevant, reliable and ready force that is 
transformed for the 21st Century. Consequently, Transformation, the 
National Guard's third priority, is necessary to achieve our first two 
objectives. National leaders have consistently gone on record stating 
that America cannot go to war without the National Guard. History 
demonstrates repeatedly, the sage wisdom, and indeed democratic 
necessity, of including the National Guard in America's warfighting 
efforts. The National Guard, like no other military entity, ensures the 
American will and support for military action.
    ``When you call up the National Guard, you call up all of 
America.'' The future in this regard will not be different. National 
Guard members must be prepared to fight in new combat environments that 
include high-technology equipment and complex weapon systems. As major 
contributors to the force structure and capability of the U.S. Army and 
U.S. Air Force, the National Guard must not be left behind. From the 
outset and throughout the process, we must be a full and integral part 
of any plan to transform our military Services.
    Now, more than ever, the Army and Air National Guard are critical 
components of the Total Force and employed in a much different manner 
than just 15 years ago. Current Operational Tempos are placing wear and 
tear on our equipment at a much greater pace than planned. Legacy 
systems that cannot be replaced must be recapitalized to preserve 
combat capability and retain mission relevance. Life extension 
programs, re-engining, and modern targeting systems are a few examples 
of the improvements that continue to be needed to maintain our superior 
force. It is necessary that the National Guard be a full partner within 
all Services' modernization plans. This will allow the National Guard 
to provide the modern joint forces needed by the Combatant Commanders 
to fight and win America's wars.
    The National Guard is strong, our personnel ready, and our missions 
crucial for the security of America, her interests and her people. 
Around the world, both Army and Air National Guard commanders have 
stepped up to the challenge, accepting leadership positions which have 
allowed them to interact not only with other Service components, but 
the international community as well. Having commanded multi-national 
peacekeeping coalition forces in Bosnia, I can personally attest to the 
full spectrum capabilities National Guard forces bring to a theater. As 
Chief of Staff to NORTHCOM and NORAD, I saw firsthand that both of 
these commands cannot perform their missions without the National 
Guard. Our troops have contributed to and learned from the 
``jointness'' of these environments. This experience will allow 
National Guardsmen in the future to further leverage their unique core 
competencies when fighting alongside other Services and our allies.
    Whether at home or abroad, securing the safety of Americans through 
homeland security functions or fighting the Global War on Terrorism are 
inherent responsibilities of the National Guard. With proper resourcing 
of both people and equipment, the Guard will always be there when the 
nation calls. As Former Congressman Sonny Montgomery has repeatedly 
said, ``This nation would be nearly paralyzed by various crises if the 
Guard did not exist.'' Thankfully the Guard does exist and will be even 
better prepared to respond to future threats with the proper support 
and direction. National security is a team effort. We are proud to be 
part of that team. Together we must lead our National Guard forward 
with determination and vision. We must orchestrate a future for the 
National Guard that combines modern and effective resources, relevant 
and comparable mission profiles, an enthusiasm to adapt to changing 
environments, and the unique spirit and patriotism of the National 
Guard citizen-soldier and airman.

Army National Guard
    We have a non-negotiable contract with the American people to win 
our nation's wars and are entrusted with their most precious assets, 
America's sons and daughters. These sons and daughters are proud and 
patriotic members of the Army National Guard family.
    The Army National Guard plays a crucial role in providing security 
to the nation, the nation's citizens, and the interests of the country 
overseas. We fulfill our role in the National Military Strategy by 
supporting combatant commanders and conducting exercises around the 
world. Within our borders, Guard soldiers continue to provide 
assistance to victims of disaster and protection from our enemies. Our 
soldiers always stand ready to support the United States and its 
citizens whenever and wherever they are needed.
    From September 2001 to September 2002, the Army National Guard 
alerted and mobilized more than 32,000 soldiers throughout the country 
and around the world, fighting the Global War on Terrorism and 
defending freedom with our engagement in numerous operations. Operation 
Noble Eagle has mobilized in excess of 16,000 soldiers from 36 States 
and Territories to provide force protection at various Department of 
Defense facilities and at our nation's borders. Operation Enduring 
Freedom has mobilized about 16,100 soldiers from 29 States and 
Territories to support the Global War on Terrorism in Southwest Asia 
through the U.S. Central Command area of operations. Army National 
Guard soldiers are also involved in other peacekeeping operations 
throughout the world. The Global War on Terrorism, homeland security, 
and Peacekeeping are expensive undertakings for the country. It is 
critical that the U.S. armed forces receive the required funding and 
intelligently utilize those resources throughout what is expected to be 
a protracted war.
    Beyond the war effort, the Army Guard is fully integrated in the 
Army's transformation. The Objective Force for 2015 will incorporate 
the Army National Guard as part of a seamless joint, interagency, and 
multi-national team in support of rapid deployment and operations 
against a range of threats, including homeland security and the 
maintenance of a strategic reserve for extended campaigns and multiple 
engagements.
    The nation asks a great deal of the Army National Guard soldiers, 
and it is our responsibility to ensure that these citizen-soldiers are 
equipped with the best possible training, the most current aircraft and 
vehicles, and the most lethal weapon systems.
    Army National Guard soldiers, most of whom have successful civilian 
careers, sacrifice their normal lifestyle in an effort to preserve 
democracy and freedom in the nation and the world. Family members of 
our troops provide us with great support and thus help us maintain unit 
readiness and strength. Employers of these patriotic soldiers are now 
being asked to sustain a much greater level of employee absence due to 
an increased rate of deployment. Our nation owes a debt of gratitude to 
the soldiers themselves, but no less gratitude is due our families and 
our employers who allow us to accomplish our missions. Our ability to 
be ready when called upon by the American people is, and will always 
be, our top priority and our bottom line.

Readiness
            Full-Time Support
    Recent events, including fighting the Global War on Terrorism, 
underscore the vital role Full-Time Support personnel have in preparing 
Army National Guard units for a multitude of missions both in the 
homeland and abroad. Full-Time Support is a critical component for 
achieving unit-level readiness during this period in the nation's 
history. To meet readiness requirements, the Chief, National Guard 
Bureau, in concert with the State Adjutants General, has placed 
increasing Full-Time Support authorizations as the number-one priority 
for the Army National Guard. Those full-time Guard members are 
responsible for organizing, administering, instructing, training, and 
recruiting new personnel, as well as the maintenance of supplies, 
equipment, and aircraft. Full-Time Support personnel are critical links 
to the integration of the Army's components.
    The Department of the Army validated total and minimum Full-Time 
Support levels for the Reserve Components in fiscal year 2000 and 
determined the minimum level should be attained as quickly as possible. 
The Army, Army National Guard, and United States Army Reserve 
cooperatively developed an incremental ramping method for achieving 
minimum Reserve Component Full-Time Support levels by fiscal year 2012. 
The Army National Guard minimum support level end-state is reflected in 
the ``DA High-Risk Requirement''. The Full-Time Support end-state 
provides 71 percent of the resources required. Congress has supported 
increases in authorizations and funding in fiscal years 2001, 2002, and 
2003. The Army National Guard received 794 additional Active Guard and 
Reserve authorizations and 487 Military Technician authorizations above 
the fiscal year 2003 President's Budget; these increases were funded in 
fiscal year 2003.
    While recent developments represent progress, the increase in 
missions for the Army National Guard has emerged, missions including 
the Global War on Terrorism and Homeland security that require a 
further increase in Full-Time Support personnel.

            Recruiting and Retention
    The United States cannot undertake any worldwide military 
contingency or operational effort without the National Guard. The 
events of September 11, 2001 have placed increased demands on the Army 
National Guard to recruit and retain a quality force of 350,000 
soldiers. This force of officer and enlisted soldiers is vital to 
integrating sufficiently trained and equipped personnel and units for 
response to State or federal missions.
    There is a correlation between the frequency of military 
deployments and the retention rates of Guard soldiers. This attrition 
of trained personnel, combined with the soft recruiting market, present 
new challenges for the Guard to sustain readiness levels.
    Although the Army Guard historically recruits and retains a 
sufficient number of enlisted soldiers to achieve strength objectives, 
it is currently experiencing a shortage of junior officers. Incentive 
programs will continue to assist the Army National Guard in keeping 
readiness levels high in this time of war.

            Accelerated Officer Candidate School Program
    The Army National Guard initiated a very successful accelerated 
Officer Candidate School Program in 1996. This accelerated program cuts 
11 months off the traditional course duration (eight weeks of full-time 
versus 13 months of part-time training). This is particularly 
beneficial to States experiencing large company-grade officer 
vacancies. Class sizes were increased to 200 students in 2001 and to 
400 students in fiscal year 2002 to meet the forecasted training 
requirements submitted by the States. Moreover, an additional class was 
conducted beginning in January 2003 to support the current war effort. 
The Army National Guard will continue to grow the program to address 
the shortage of company-grade officers.

            Initial Entry Training Management
    The Chief of Staff of the Army has provided guidance to the Reserve 
Component to have at least 85 percent of assigned soldiers qualified in 
their duty specialties by fiscal year 2005. The Army National Guard 
fully intends to meet or exceed this goal. In the past, the Army 
National Guard has had difficulty getting the proper Initial Entry 
Training quotas to meet the demands of the force. As a result, the Army 
National Guard has been lacking in qualified personnel in certain 
occupational specialties. These shortages affect its ability to 
mobilize and/or deploy.
    In order to meet the quota goal, the Army National Guard has taken 
input from the Adjutants General and has developed a new Initial Entry 
Training management system. This system has refined the Army National 
Guard's ability to accurately forecast Initial Entry Training 
requirements. These forecasts will more closely match that necessary to 
meet Army National Guard readiness goals than previous methods.

            The Army School System and Qualifying Army National Guard 
                    Soldiers
    The Army School System is a multi-component organization of the 
United States Army Training and Doctrine Command, the Army National 
Guard, and the U.S. Army Reserve that has been organized to deliver 
Military Occupation Skills Qualification Reclassification, 
Noncommissioned Officer Education System, Officer Education System, and 
functional military courses. This system provides the National Guard 
with the means to train and retain quality soldiers and leaders who are 
so essential to rapidly and effectively responding to the federal 
mission or to missions of homeland security.
    The Army National Guard has developed an In-Unit Training program 
that has enhanced the ability to produce a larger number of soldiers 
who have achieved Duty Military Occupational Skill Qualification. The 
Army National Guard has also provided Mobile Training Teams overseas to 
sustain the training of its soldiers who are deployed around the world. 
The Army Guard and Reserve instructional, training development, and 
budget management staffs are combining efforts to build a future United 
States Army Training and Doctrine Command that can deliver seamless 
training to standards as part of the institutional training within the 
Army.
    The Army National Guard supports the initiative by the Army Deputy 
Chief of Staff for Personnel to hold selective retention boards that 
will allow selected captains and majors to be retained so that they may 
reach 20 years of active service. The Army National Guard also supports 
the Deputy Chief's initiative to select captains for promotion who do 
not possess a baccalaureate degree or military education certification. 
The actual promotion to the next higher grade will become effective 
once the individual completes the required civilian or military 
education.

            Distributed Battle Simulation Program
    The Army National Guard has structured the Distributed Battle 
Simulation Program to satisfy congressionally mandated requirements. 
Concerned with readiness and training issues, these mandates explore 
the processes of integrating training aids, devices, simulations, and 
simulators into live, virtual, and constructive training environments. 
The program focuses training on individual and crew qualification, 
platoon maneuver, and leader development/battle staff training at the 
level of organization. It provides technical support personnel and 
advisors to commanders at various levels to recommend ``best practice'' 
strategies and methodologies to provide objective feedback, continuity, 
and technical support. With the proper training, simulations, 
simulators, and advanced training technologies increase opportunities 
for soldiers and units to minimize post-mobilization training time 
required for combat units.
    The challenge for the Army National Guard is to make maximum use of 
advanced technologies and simulations so as to develop mechanisms and 
processes that efficiently and effectively integrate and synchronize 
individual and collective training requirements.
    Empirical data reveals that soldiers who have practiced on various 
gunnery and maneuver simulators have much higher gunnery qualification 
rates and conduct maneuvers at higher levels of readiness than soldiers 
who are not exposed to simulators. Further, after action reviews from 
both the National Training Center and war-fighter exercises reflect 
that the Armory Based Battle Staff Training units have increased 
synchronization and raised the competencies of commanders and staff at 
brigade and battalion levels.
    The continued support for this successful program will ensure the 
readiness of the Guard in meeting future missions; live, virtual, and 
constructive training infrastructure; and training modernization.

            Combat Training Centers
    In fiscal year 2002, over 35,000 Guardsmen in 25 Army National 
Guard Combat units, including two Enhanced Separate Brigades and a host 
of support units, conducted war-fighting training at the National 
Training Center, Joint Readiness Training Center, and Battle Command 
Training Center. The training contributed to enhanced unit readiness by 
allowing these units to execute their wartime combat, combat support, 
and combat service support missions in realistic wartime scenario.

Mobilization Issues
            Mobilizing Active Guard Reserve Soldiers under Title 32
    The Active Guard Reserve program is designed to ensure that the 
training and readiness of Army National Guard soldiers are maintained 
at a high level. These codes have very specific limits on how the Army 
or the States and Territories can utilize their Active Guard Reserve 
force in times of need.
    The events of September 11, 2001 brought these limitations to the 
forefront. Under Title 32, Active Guard Reserve soldiers are not 
authorized to support State missions after 72 hours unless specific 
criteria are met, such as the imminent loss of life. The inability of 
State Governors and Adjutants General to utilize all of their full-time 
soldiers caused some significant organizational and leadership problems 
within affected formations.
    Active Guard Reserve members are critical assets to the force, 
enabling units to rapidly respond to State emergencies and homeland 
security efforts.

            Medical and Dental Readiness
    Individual medical readiness of Army Guard soldiers has become a 
heightened priority since September 11, 2001. Individual medical 
readiness requirements include immunizations, dental, and medical 
screenings. The speed at which units deploy today places significant 
time constraints on the Guard to properly identify or correct medical 
or dental deficiencies at mobilization stations.
    In October 2001, the Army National Guard initiated the Medical 
Protection System, an automated tracking system for medical and dental 
records. This system also tracks Physical Exam readiness data, as well 
as HIV and DNA readiness data on file at the Army and Department of 
Defense repositories; it is used at mobilization stations to verify 
Individual Medical readiness in the Mobilization Level Application 
Software. When fully implemented, the system will allow commanders and 
human resource managers to monitor individual medical readiness of 
their soldiers. Resources can then be directed where needed, and early 
decisions can be made regarding the readiness of individuals and units 
to be deployed.
    It is important to understand that with very few exceptions, Army 
National Guard soldiers are not entitled to medical or dental care for 
pre-existing disorders, only for injury or illness incurred in the line 
of duty. Dental readiness is particularly problematic. Both Congress 
and Department of Defense have attempted to positively influence dental 
readiness, but the remedy is not yet available. Units are still 
arriving at mobilization stations with soldiers in need of dental care 
to bring them to deployment standards.
    If the nation continues to utilize the Army National Guard and Army 
Reserve in support of the Global War on Terrorism, it must ensure that 
these Reserve Components maintain the same high level of medical 
readiness as the active component.

Current Operations
            Force Protection
    In fiscal year 2002, the Army National Guard provided soldiers for 
deployments in the continental United States and overseas. Almost 
20,000 soldiers worked 1,490,000 mandays conducting force protection 
missions and executing border security missions at 83 sites owned by 
the Army Materiel Command; U.S. Army Training and Doctrine Command; 
U.S. Army Forces Command; Immigration and Naturalization Service; and 
U.S. Customs Service. The National Guard supported homeland security 
missions by guarding airports, nuclear power plants, domestic water 
supplies, bridges, and tunnels in support of the State Governors.

            Contingency Operations
    The Army National Guard has assumed the lead as the stabilizing 
force in the Balkans and in Southwest Asia. Six Army National Guard 
brigades and numerous battalions participated in rotations as part of 
the Multinational Force Observers in the Sinai, and in Southwest Asia, 
providing support to the Air Defense Artillery units in Kuwait and 
Saudi Arabia. The Army National Guard is scheduled to provide Division 
Headquarters and maneuver units to four of the next six rotations to 
Bosnia.

            Partial Mobilization
    During fiscal year 2002, the Army National Guard contributed tens 
of thousands of soldiers to support the Global War on Terrorism. By 
September 2002, over 20,000 soldiers were mobilized from within the 
Army Guard's ranks, and those numbers are expected to continue to 
increase. These fine citizen-soldiers were deployed with very little 
post-mobilization training, yet stand ready to enforce the will of the 
United States.

            Military Support to Civilian Authorities
    Since September 11, 2001, Army National Guard soldiers have 
responded to 263 requests for emergency support for a total of 645,419 
mandays. These soldiers provided security, logistics support, 
transportation, and family care centers. They worked in support of 
World Trade Center relief, the Winter Olympics, and security at 
American icons such as Mount Rushmore, the Boston Marathon, and the 
Super Bowl in Louisiana. Major wildfires involving 21 States and 
consuming over 6.6 million acres required 47,519 mandays of support. 
The Army National Guard provided aviation support with water-bucket 
drops, security, and command and control as needed. The Guard's 
soldiers supported flood recovery operations in Kentucky, West 
Virginia, Tennessee, and Texas for a total of 23,882 mandays.

            Modern Infrastructure and Facilities
    Army National Guard facilities are vital for the operations, 
preparation, and execution of emergency assistance and the Global War 
On Terrorism missions. Readiness centers, maintenance facilities, and 
training centers provide the citizen-soldier a base from which to 
train, maintain equipment, and mobilize at a moment's notice.
    Most of the Army National Guard's existing infrastructure was built 
prior to 1990, with a very significant number being more than 50 years 
old. The Army National Guard has refined the method used to validate 
requirements for its aging facilities. This refinement has given the 
Army National Guard a much more accurate analysis of what is needed to 
maintain and improve the Guard's facilities. The validated requirement 
in fiscal year 2004 is approximately $1.18 billion.

            Military Construction
    The Army National Guard's Military Construction, Sustainment, 
Restoration and Modernization and Facilities Base Operations programs 
support construction, maintenance and operations of Army National Guard 
facilities.
    The programs provide facilities for Guard units and personnel to 
operate, prepare for, and execute required missions. The priority is to 
afford units with readiness, maintenance, and training facilities that 
enhance unit capability to effectively mobilize and deploy when called.
    Military Construction funding in 2004 supports general facilities 
revitalization, the Army National Guard Division Redesign Study, 
planning and design for Range and Training Lands Program, Aviation 
Transformation, and the Stryker Brigade Combat Team. General facilities 
revitalization consists of restoration and modernization based on 67-
year recapitalization of existing facilities for current missions and 
building out facilities to support existing missions. The Army 
Facilities Strategy is a component of Facilities Revitalization. The 
program supports readiness by providing standard facilities to support 
training of personnel and maintenance of equipment for existing and new 
missions.
    The existing infrastructure is outdated and inadequate with many 
facilities unable to support current unit training or operational 
requirements. The ranges do not meet current standards and without 
adequate facilities, units cannot meet war fighting or homeland 
security readiness. At present, newly fielded vehicles are unable to 
fit into existing maintenance bays, and there is insufficient space to 
store equipment properly to ensure adequate operation.
    The increased requirements for these programs have been staggering. 
Funding for Military Construction is on the increase, though not at the 
same level as requirements. The requirement increases 62 percent in 
fiscal year 2004 and reaches almost 107 percent for fiscal year 2009. 
The funding of Military Construction increases over 5 percent in fiscal 
year 2004 and reaches an increase of about 38 percent in fiscal year 
2009.
    The Military Construction funding ramp increases considerably over 
the next five years to address the Army National Guard's facilities 
shortfalls in quality and quantity. A significant portion of this ramp 
addresses the 56th Stryker Brigade Combat Team, Aviation 
Transformation, Army Range and Training Lands program, and Army 
National Guard Division Redesign. These transformational programs 
address the facilities needs of our transforming force structure. A 
full two-thirds of the Military Construction program addresses 
facilities revitalization from fiscal years 2007 through 2009.
    The refinement of the Army National Guard real property inventory 
has increased the validated requirements for sustainment by an average 
of $4 million per year for fiscal years 2004 through 2009. Funding for 
sustainment in fiscal year 2004 is approximately 93 percent of 
validated requirements as generated by the Department of Defense 
Facilities Sustainment Model. Base Operations, requirements have 
increased significantly; however, funding has not increased at the same 
rate.

            Environmental Programs
    The Army National Guard Environmental Program is a world-class 
environmental management program; its core competency is ``ensuring the 
sustainable use of Army National Guard training lands and facilities to 
enable essential training and support functions critical to operational 
mission accomplishment.'' Through National Guard pollution prevention, 
conservation, and restoration activities, the Army National Guard 
maintains compliance with environmental laws and regulations. The Army 
Guard also practices sound stewardship and promotes innovative ways to 
ensure compatible use of sustainable natural resources in its charge 
and military training lands to support national defense.
    Within the past year, the Army National Guard has met statutory 
requirements to develop and begin implementation of Integrated Natural 
Resource Management Plans for 90 of the Army Guard's installations. The 
Army National Guard is aggressively continuing development of 
Integrated Cultural Resource Management Plans in a similar fashion, in 
addition to completing many precursor planning-level surveys, such as 
wetlands and forest inventories that fed the above major environmental 
management plans. The Army Guard's Environmental Compliance Assessment 
System program has innovative technology solutions to maintain the 
Guard's leadership role in this program.
    There are approximately 42 listed threatened and endangered species 
on 36 Army National Guard training sites, and the Army National Guard 
has proven it can maintain compatible use. The Army National Guard has 
taken the lead in developing a comprehensive computer-based tool that 
will provide near real-time data on environmental resource sustainment 
factors at training centers. These facilities are critical to realistic 
unit and weapons training. The new electronic tool will be used to 
assess environmental vulnerabilities to ensure ranges and maneuver 
lands are available for training. This capability has great potential 
for pre-emptive rather than reactive environmental management.

Homeland Security
            Ground-Based Midcourse Defense Program
    The National Guard is playing a significant role in the defense 
against ballistic missile threat by organizing, manning, and deploying 
Ground-Based Midcourse Defense Units. The Army National Guard received 
approval to activate a Missile Defense Brigade, based on the results of 
the Total Army Analysis 2009. The Brigade Headquarters will be located 
in Colorado and the first Battalion will be located in Alaska. These 
organizations will serve as the cornerstone for the Ground-Based 
Midcourse Defense program.
    The Missile Defense Agency, Ground-Based Midcourse Defense-Joint 
Program Office has agreed to provide pay and allowance for initial 
personnel required for this program in preparation for Initial 
Defensive Operations beginning in fiscal year 2004.
    As critical as this mission component is to the national defense, 
it requires adequate full-time manning to achieve full operational 
capability. By offering the needed manpower to the Army Space Command 
and the Space and Missile Defense Command, the Army Guard will provide 
this primary land-based homeland security system.

            Anti-Terrorism Force Protection
    The Army National Guard's Anti-Terrorism Force Protection and 
physical security programs provide for security and protection of 
facilities, personnel, and equipment, as well as the monitoring and 
maintenance of intrusion detection systems that detect and assess 
threats at 397 critical sites. Intrusion systems, closed circuit 
television, and access control systems decrease the number of personnel 
needed to guard facilities as well as prevent personnel from exposure 
to potentially harmful situations. The security systems save on 
personnel costs: Fewer soldiers are needed to guard Department of 
Defense facilities, equipment, and property and are channeled instead 
into mission deployment or crisis management.

            Guard Knowledge Management
    The Guard Knowledge Management initiative and the Distributive 
Training Technology Project support the Army National Guard's ability 
to maintain and improve individual and unit readiness, the ability to 
mobilize, and quick, efficient deployment. Through the effective 
integration of information technology programs and implementation of 
Knowledge Management initiatives, the Army Guard is enhancing its 
capability to identify, distribute, and access critical information 
that directly impacts the Army Guard's ability to meet readiness goals 
and mission objectives.
    For example, the Army National Guard saves money and resources and 
heightens readiness by providing increased foreign language sustainment 
and enhancement training using distance-learning technologies. 
Courseware is being developed at several sites throughout the United 
States, including Iowa, Pennsylvania, Arizona, Arkansas, and New 
Jersey. In addition, the Vermont Army National Guard has been 
conducting Information Operations training since February 1999 for all 
components of the Army. The Army National Guard made full use of its 
Knowledge Management capabilities to conduct extensive pre-deployment 
training for the 29th Infantry Division (Light) Headquarters for their 
peacekeeping rotation in Bosnia.
    The Army Guard has also partnered with the National Air and Space 
Administration to deliver a wide array of educational content to young 
people to stimulate interest in science, math, and technology. The Army 
National Guard is building on these and other success stories to help 
increase readiness through a vigorous implementation of Knowledge 
Management principles.

Transformation
            Legacy Force Sustainment
    While still experiencing critical modernization challenges in High-
Mobility Multi-Purpose Wheeled Vehicles, Single-Channel Ground and 
Airborne Radios, chemical and biological detection equipment, and Night 
Vision Devices, the Army National Guard continues to improve its 
overall readiness posture. The redistribution of assets will continue 
to be a part of the remedy to a variety of shortfalls throughout the 
Army National Guard's force. As the Army National Guard completes its 
Division Redesign, some equipment will be made available for use in 
other formations. Similarly, as the 56th Brigade in Pennsylvania 
transforms, equipment will be redistributed.
    Over the last decade, the Army National Guard has made significant 
progress in modernizing the heavy force with the M1A1 Abrams, M2A2 
Bradley, M109A6 Paladin, and M270 Multiple Launch Rocket System. It is 
the Army National Guard's plan to continue efforts to transform 
equipment and technologies to ensure interoperability and readiness 
levels.

            Interim Force
    The Army National Guard modernization strategy provides for a 
compatible and fully networked force. A key component of the 
transformation strategy is the activation of the 56th Brigade of 
Pennsylvania that is expected to become the first Army National Guard 
Stryker Brigade prior to 2008. Overall, the six Army-wide Stryker 
Brigade Combat Teams' mission is to be a rapid deployment force that 
can be deployed anywhere in the world in 96 hours.
    The Army National Guard's highest priority remains maintaining war-
fighting readiness. In support of this imperative, the organization is 
pursuing a modernization strategy that will provide the nation with 
compatible, interoperable, and strategically viable forces well into 
the future. The transformation campaign plan articulates the strategy 
of how to achieve the Army vision of an objective force that is more 
responsive, deployable, agile, versatile, lethal, and sustainable in 
times of crisis. Current forces will continue to be viable long into 
the future and will provide the margin of security that allows the Army 
to undertake transformation. The Army will maintain the combat 
overmatch capabilities of the current force through selective 
modernization, technology insertion, and recapitalization. The Army's 
plan is to have all of Pennsylvania's Stryker Brigade Combat Team's 
facility construction and other infrastructure requirements started by 
fiscal year 2006.

            Objective Force
    The Army National Guard Division Redesign Study is a four-phase 
transformation project. Phases I and II of this study will involve the 
conversion of six brigades along with a portion of two divisions. The 
purpose is to address a long-standing U.S. Army concern regarding a 
lack of combat support and combat service support in the force 
structure.
    Military construction is required to meet this critical change, and 
with the assistance of 24 participating States, the Army National Guard 
is in the process of planning the modification and rebuilding of older 
facilities to accommodate this new mission. Phases III and IV are under 
revision, and the pending Army Guard Restructuring Initiative will most 
likely impact these later stages of restructuring; funding for this 
initiative is in excess of $370 million.

            Restructuring Initiative
    On September 8, 2002, Secretary of the Army Thomas E. White 
introduced the Army National Guard Restructuring Initiative at the 2002 
National Guard Association of the United States annual conference. Mr. 
White stated that ``in light of our new plan for national defense [we] 
are now undertaking a new initiative which we will call the Army 
National Guard Restructuring Initiative. Whereas the original 
initiative Army Division Redesign Study converts combat formations to 
support structure, the new initiative restructures a sizeable portion 
of the National Guard combat formations to better support our combatant 
commanders' requirements.''
    The concept is to convert existing heavy and light combat structure 
to new designs that better support Combatant Commanders (including the 
new Northern Command) under the new defense strategy. Tentatively 
called Multi-Functional Divisions and Mobile Light Brigades, these new 
organizations will be first and foremost war-fighting organizations 
prepared for full-spectrum operations. The first unit could begin 
conversion as early as fiscal year 2005.
    The conversion to these new organizations, combined with efforts 
already under way as part of the Army National Guard Division Redesign 
Study effort, will result in a 30 percent decrease in the current 
number of tracked vehicles in Army Guard Combat Divisions and Brigades. 
Although this constitutes a reduction of heavy assets, the National 
Guard is determined to ensure that the Army Guard does not maintain 
obsolete systems that are inconsistent with future Army operational 
concepts including unit design, support and sustainment.

            Aviation Transformation
    Army National Guard aviation is one of the nation's highest value 
assets for both wartime and peacetime missions. In wartime, these Army 
National Guard aviation units provide the sustaining and reinforcing 
power required for successful execution of the National Military 
Strategy, as well as the most readily available Army aviation assets 
for homeland security. In peacetime, these critical aviation assets are 
equally important for the widest possible range of missions at both the 
State and Regional levels. These peacetime missions range from Air 
Ambulance, Search and Rescue, and Counterdrug support in areas having 
no such civilian capacity, to wide-scale and timely response to both 
natural and man-made disasters.
    The Army National Guard's aviation units continue to contribute 
almost half of the Army's aviation structure, including Counterdrug 
Reconnaissance and Aerial Interdiction Detachments in 37 States and 
Territories, which use specially modified OH-58 observation aircraft to 
support federal, State, and local law enforcement agencies with 
counterdrug efforts in the United States. These units are also postured 
to support homeland security efforts. Six of these units were deployed 
along the Northern Border supporting the U.S. Border Patrol and 
Operation Noble Eagle during fiscal year 2002.
    Since fiscal year 2002, the Army's Aviation Transformation effort, 
coupled with other aviation modernization and recapitalization 
improvements, has not only significantly improved the readiness and 
capabilities of Guard aviation units, but also has reduced the overall 
aviation footprint. While significant quantities of modern series UH-
60, CH-47, and AH-64 aircraft have been cascaded from active Army units 
to Army Guard units, the associated equipment (tool set, tool kits, 
test equipment, and parts) critical for the successful support of these 
aircraft has not kept pace. Current Army procurement levels will leave 
the Army Guard permanently short of its required number of aircraft. In 
addition, many of the remaining allocated aircraft are not scheduled 
for upgrade to the most current standard configurations:
  --AH-64 ``Apache''.--Army National Guard will receive 254 of 296 
        required (42 short). Of the 254 AH-64s to be provided, only 63 
        will be the most modern AH-64D model.
  --CH-47 ``Chinook''.--Army National Guard will receive 136 of 150 
        required (14 short). Of the 136 CH-47s to be provided, only 93 
        will be the most modern CH-47F model.
  --UH-60 ``Blackhawk''.--Army National Guard will receive 687 of 775 
        required (88 short). All 687 are scheduled for eventual upgrade 
        to most modern UH-60M model.
  --Homeland Security/RAID Aircraft.--The OH-58A/C aircraft currently 
        used for this mission are nearing the end of their useful life 
        span.

            Personnel Transformation
    The Army Guard's Permanent Electronic Records Management System is 
a web-based system utilizing digital imagery to store and retrieve 
personnel records. The importance of the Permanent Electronic Records 
Management System lies in its seamless records management capability 
throughout the Army, enhancing both mobilization and personnel 
readiness.
    By consolidating the administrative operations of human resources 
in one place, the Permanent Electronic Records Management System allows 
personnel records to follow a soldier regardless of component. In the 
past, the system was slow and labor-intensive, resulting in pay 
problems, promotion delays, difficulties in making new assignments, and 
low personnel morale. Fixing the problem involves the conversion of 
paper files to electronic files; and is a practice currently used by 
the Department of the Army for all of its personnel actions. At present 
the Army National Guard is the only military component that lacks 
electronic records storage capability.
    Under the Department of Defense's vision for a ``paperless 
environment,'' the Army National Guard will be required to provide 
electronic capabilities for personnel records in the 50 States, three 
Territories, and the District of Columbia.
    The Army National Guard will adopt an Automated Selection Board 
System to support and improve the process under which information and 
votes regarding personnel actions are processed by military personnel 
boards.
    Departing from an obsolete ``paper'' system to a digital system 
that views data and images from the Permanent Electronic Records 
Management System and the Department of the Army Photo Management 
Information System is a time-consuming process. However, once the 
Automated Selection Board System is adopted, it will save the Army 
National Guard more than $150,000 per year in microfiche production and 
postage costs.
    This system is essential to achieve and fully support Personnel 
Transformation. The Army National Guard must remain interoperable with 
the Army and the Army Reserve by adopting this system. The conduct of 
boards at the State level will become extremely cumbersome due to 
unavailability of routine printed information. By failing to adopt the 
Automated Selection Board System, the Army National Guard will be 
required to download paper copies of an automated viewing and storing 
system.

            Strategic Readiness System
    The Army National Guard's Strategic Readiness System was developed 
pursuant to the Chief of Staff of the Army's guidance for a more 
holistic assessment of readiness information. The Strategic Readiness 
System is an integrated strategic management and measurement system 
that ensures that all levels of the Army, including the National Guard 
Bureau and the Army National Guard, recognize and align their 
operations to the vision, objectives, and initiatives of the Army Plan. 
The system also measures each element's success in achieving these 
goals.
    The Army Scorecard is the tool used to measure progress toward 
stated goals and objectives. This tool will enable the Army National 
Guard leadership to see the resource and readiness linkages throughout 
the system and better predict a modeling capability that improves the 
allocation of resources to achieve the highest degree of readiness.

Conclusion
    The Army National Guard comprises diverse individuals from all 
walks of life united by the desire to keep the American people safe and 
secure. Many soldiers in the Guard leave behind promising career tracks 
and loving families to serve their country without compromise or 
hesitation. These soldiers lead dual lives; their sacrifices are 
overwhelming and should not be forgotten or discounted.
    Army National Guard soldiers have accomplished much work ``behind 
the scenes'' in the past fiscal year, providing relief to victims of 
catastrophes, security at numerous vulnerable locations, and 
mobilization to various military operations world-wide. The Army 
National Guard, the crucial foundation of the Army, reinforces and 
augments the efforts of fellow soldiers to ensure that objectives are 
achieved and initiatives are met.
    While it has succeeded on many fronts, certain challenges still 
face the Army National Guard. The issues of recruitment, retention, and 
subsequent development of junior officers continue to be areas of 
discussion. Dental and medical care remain sub par or lacking for many 
soldiers in the Guard. Furthermore, the dearth of cutting-edge, state-
of-the-art facilities and equipment hampers the efforts of the Army 
National Guard to perform at an optimum level.
    The Army National Guard is a stalwart entity that is ever ready to 
protect and defend the United States with zeal and determination. With 
proper and judicious funding over the coming years, its continued 
transformation will ensure brighter prospects for the Army itself and 
the American people.

Air National Guard
    The year 2002 will be marked by the volunteer spirit and dedication 
of Air National Guard men and women spanning the globe: the War on 
Terrorism at home, the War on Terrorism abroad, and ``routine'' 
deployments as full partners in the Air and Space Expeditionary Force. 
Since September 11, 2001, we've been busier than ever before. We've 
been flying fighter combat air patrols over cities keeping our country 
safe. We've been seeking out terrorists where they live. We've been 
gathering and interpreting data supporting the warfighters and securing 
airports, bridges, and military installations. We've maintained our 
aircraft and communications infrastructure so the mission can be 
accomplished. We've done this with volunteers and mobilized personnel, 
most of whom left their families and jobs to serve. We've done this as 
proud members of the Total Force even while we continued to train for 
what lies ahead.
    During his campaign in Tunisia, General Eisenhower said, ``It is 
not the man who is so brilliant who delivers in time of stress and 
strain, but rather the man who can keep on going.'' The Air National 
Guard not only delivered in a time of stress and strain but also kept 
on going. In this past year we've gone from a surge force to a 
sustaining force. At the peak of operations in February 2002, almost 
15,000 people were mobilized and almost 8,000 were volunteers. 
Throughout the summer both the volunteers and mobilization numbers came 
down as the War on Terrorism reached a lower tempo. Often times we were 
employed as a ``just in case'' force rather than a ``just in time'' 
force, mobilizing personnel in case they were needed rather than when 
needed to fulfill immediate requirements. On many occasions Air 
National Guard members were mobilized to backfill deploying active duty 
troops. Employers understand better, as do families, when Guard men and 
women deploy overseas rather than backfill. Whatever the call, we were 
there.
    We've been a solid team player in Operation Enduring Freedom and 
the Air and Space Expeditionary Force. As fiscal year 2002 came to a 
close, we had flown 25 percent of the fighter sorties, 31 percent of 
the tanker sorties, and 27 percent of the airlift sorties. Through 
innovative management techniques such as ``rainbowing'' units, we've 
been a seamless part of the Total Force. We will continue to prosecute 
the War on Terrorism on all fronts.
    Combat operations couldn't happen without the exceptional support 
capabilities provided by maintainers and logisticians; civil engineers 
and security police; communicators and intelligence analysts. These 
myriad support skills are brought to bear to make operations 
successful. Many of these specialties are ``stressed'' but the troops 
keep on giving.
    Air National Guard citizen-airmen are the backbone of Operation 
Noble Eagle. By the end of fiscal year 2002 we had flown 74 percent of 
the fighter sorties, 62 percent of the tanker sorties, and 36 percent 
of the airlift sorties. We maintained almost 100 percent of the alert 
sites. The Air National Guard is extremely proud of its ability to 
execute the homeland security mission. Through smart management of 
resources and capabilities, we can continue to participate in the 
homeland security mission as a by-product of our wartime tasking. 
Continued Air National Guard participation in the Air and Space 
Expeditionary Force is vital to our wartime readiness. Any unique 
homeland security missions should be appropriately resourced.
    As the War on Terrorism continues, our people and systems will be 
employed at above-average rates. Through utilization of civilian skills 
and innovation, Air National Guard professionals are keeping our aging 
systems up and running. But in the face of fiscal and manpower 
constraints the nation will not be able to afford the high costs 
associated with maintaining legacy systems; therefore, the Air National 
Guard will need to be transformed across the full spectrum of missions 
with our active brethren. Through transformation to future high-tech 
systems such as information operations, space-based capabilities, 
Unmanned Aerial Vehicles, C-17, and F-22 and Joint Strike Fighter, we 
will be able to continue to leverage our civilian skills to make the 
most of these systems' capabilities.
    Technology, however, is only one part of transformation. Other 
parts include concepts of operations and organizational structures. The 
Air National Guard stands ready to explore and implement new concepts 
of operations and organizations. We've done so already with the 116th 
Air Control Wing at Robins AFB, Georgia. Together with the active force 
we've established a Total Force unit that will highlight the 
capabilities of both components and have broken down barriers that 
would have otherwise precluded this structure. This is the right kind 
of unit for the right mission. Not all future total force units should 
look like this but should be reviewed on a case-by-case basis. 
Additionally, we should consider ``Reverse Associate'' units where 
active duty members are associate to an Air National Guard unit. This 
will take advantage of the operational infrastructure savings 
associated with Air National Guard installations while broadening 
assignment opportunities and experiences for active members.
    Since the entire force cannot be transformed at once, some part of 
the force will need to be modernized to include the latest 
capabilities. Areas that are best suited for modernization include 
facilities, precision-guided munitions, communications systems, air 
refueling platforms and engines. These systems are necessary to provide 
the required capabilities to fly and fight in today's battlefields. 
Today, the Air National Guard is a vital part of this great nation's 
security. We will proactively face the challenges ahead to remain a 
ready, reliable, and relevant force.
    Ready speaks to being sufficiently manned with trained personnel 
capable of doing the global mission on short notice. Ready means 
jumping into an aircraft and launching in minimum time should we be 
attacked. Ready means support troops who can build and sustain support 
facilities at austere airfields anywhere in the world when called upon. 
Ready is being able to deploy in support of the Air and Space 
Expeditionary Force to Turkey, Bosnia, or Iceland. Ready is the ability 
to patrol airports or deliver food and supplies to those affected by 
natural disasters. We are ready!
    Reliable means that we can be accessed when we are needed. Reliable 
means that whether through volunteerism or mobilization we have the 
required people ready to go when and where needed. Reliable means we 
can respond to the Governor of a state when in state duty or to a 
Combatant Commander when federalized. Reliable means we'll be there, 
and we will be!
    Relevant means we are modernized and transformed to carry out 
missions that are important to support the national security strategy. 
Relevant means we've got targeting pods and the latest radar and 
protective gear. Relevant means we're part of the F/A-22, Space, C-17, 
ISR, and information operations. It means we are an important part of 
our nations defense, and right now, we are.
    This is our biggest challenge.
    As the War on Terrorism continues, as does operations in other 
critical regions of the world, the Air National Guard will be there. We 
will continue the militia heritage of defending freedom as we did over 
366 years ago. Our citizen-airmen will respond to the nations call to 
put on their uniforms to fight for our nation's interests. While they 
answer our call, we must answer theirs as we provide them with the 
tools to accomplish the mission. We must give them what they need to be 
Ready, Reliable, Relevant. Air National Guard. Now More Than Ever!

Air National Guard Infrastructure
    The Air National Guard Infrastructure provides the Department of 
Defense enhanced operational capacity with its presence at 176 
locations throughout the country. As a recurring problem, the Air 
National Guard has experienced significant difficulties in absorbing 
new mission projects without adversely affecting restoration and 
modernization efforts to support current weapon systems.
    Air National Guard facilities continue to deteriorate due to 
inadequate funding levels. Many facilities are in ``forced use'' 
condition, which requires unit personnel to endure substandard 
facilities. Lack of safe, efficient and modern facilities is impacting 
Air National Guard ``Quality of Life'', recruiting and retention. The 
condition of the facilities directly impacts how effectively units are 
able to respond to training, staffing, and other wartime needs.
    With respect to homeland defense, we are concerned about the 
attention to the operational needs of alert aircraft at Andrews Air 
Force Base, Maryland; Buckley Air Force Base, Colorado; Truax Field, 
Wisconsin; and other sites either standing alert with fighters and 
tankers. After September 11, 2001, interim facilities were quickly 
provided, however little progress has been made since the initial surge 
to address permanent facilities alert missions at existing and 
potential sites. The Air National Guard is also concerned about the 
level of anti-terrorism and force protection funding to protect our 
personnel and equipment. Terrorism in the homeland has forced us to 
rethink and reprioritize how we secure our bases and sites.
    Our fiscal year 2004 funding request allows us to achieve a 
recapitalization rate of 170 years, meaning that we renovate or replace 
our facilities an average of every 170 years. Our goal remains a 67-
year recapitalization rate, and our current program would achieve that 
level in 2000?. Between now and then we plan to follow a smooth glide 
path down to that level.

            Readiness (Full-Time Manning)
    As an integral partner in the Total Force, fully imbedded into a 
formalized Air Expeditionary Force construct, the Air National Guard 
will routinely provide force structure for day-to-day operations, 
contingencies and the Global War on Terrorism. Historically, as a 
``force in reserve'' the Air National Guard was funded with limited 
full-time manpower to operate and maintain facilities, repair aircraft 
and equipment, and train the drilling force. Today's operational tempo, 
combined with aging aircraft, weapon systems and ever increasing 
support requirements, the Air National Guard must be adequately 
resourced to ensure these weapon systems are available for training and 
deployment.
    We recently accomplished a complete review of both our full-time 
and traditional manpower requirements. Our review identified areas 
where we need to realign our manpower and validated increased 
requirements. Our fiscal year 2004 budget supports and reflects our 
realignment and provides some increased full-time funding and end 
strength. This is just the first step in getting our manpower resources 
right. Emerging homeland security tasking and mission readiness needs 
will drive additional manpower requirements and further realignments.
    As demonstrated in Operations Noble Eagle and Enduring Freedom, the 
Air Force could not go to war without the Air National Guard and the 
Air Force Reserve. Additionally, the Air Force would be severely 
hampered in conducting peacetime operations without its reserve 
components.
    The National Guard and Reserve Operations Tempo currently provide 
25 percent of the aviation and almost 30 percent of the combat support 
elements for steady, peacetime deployments of the Air and Space 
Expeditionary Forces. They also provide more than 65 percent of the Air 
Force's tactical airlift capability, 35 percent of the strategic 
airlift, 60 percent of the air refueling, 38 percent of the fighters, 
20 percent of combat rescue and make significant contributions to 
bomber, and combat support missions.

            Information Operations and Management
    The Air National Guard is fully involved in the defensive elements 
of information supporting the nation's homeland security efforts. The 
civilian sector is heavily dependent on the national information 
infrastructure, and the military relies upon the Air National Guard to 
carry out its missions at home and overseas.
    In addition to preparing for conventional combat, the Air National 
Guard must now provide the most up-to-date protection against what has 
become known as information or cyberspace' wars. Participation in this 
mission area requires an investment in infrastructure to allow for the 
Air National Guard to connect with classified network systems that have 
sufficient bandwidth and capacity to store, process, and transmit 
unprecedented amounts of data.
    By using advanced technology information weapons systems, the Air 
National Guard directly supports the Department of Defense's vision of 
transformation. A new age of warfare includes information that consists 
of a wide variety of operations and activities, such as psychological 
operations, electronic warfare, military deception, physical attack, 
computer network attack, defense, and exploitation, public affairs 
operations, counter deception, counterintelligence, and 
counterpropaganda operations.

            Annual Dental Examinations Program
    Currently, the Air National Guard is required to accomplish a 
dental examination every five years. The Office of the Assistant 
Secretary of Defense for Health Affairs has mandated that this exam be 
accomplished annually beginning February 2004. Air National Guard 
Medical Squadrons are only authorized two dentists and two dental 
technicians; however, many units may only have one or no dentists 
assigned to accomplish these dental requirements. Air National Guard 
Medical Squadrons are struggling to accomplish the current 400-500 
dental exam requirements along with their mandated training. This 
mandate will increase their workload to 1,100-1,300 dental exams each 
year.

            Mobilization
    In today's Air Force, the Air National Guard is central to the 
Total Force, and plays an ever-increasing role as a partner in the 
Global War on Terrorism. Now, more than ever, the Guard is needed by 
the nation to perform the mission they have been trained to do. Most 
Air National Guard members have served in support of Operations Noble 
Eagle and Enduring Freedom, and many more will continue to deploy to 
fill Air and Space Expeditionary Force steady state requirements around 
the globe. Their service is not without sacrifice and their sacrifice 
is not without meaning.
    Numerous personnel issues have surfaced around the disparity of 
benefits associated with different status of service following 
mobilization. Of notable importance, protection under the Soldiers' and 
Sailors' Civil Relief Act applies only to a member mobilized under the 
provisions of Title 10 U.S.C., and was not afforded to our citizen-
airmen serving in airport security.
    Current policies and laws are now under scrutiny to alleviate 
issues of disparity such as per diem limitations, down-time 
restrictions, Basic Allowance for Housing I vs. II, income pay 
protection, leave issues, and a myriad of entitlements and benefits 
that are affected by either status or length of active duty tours. The 
Air National Guard, as a full partner in the Total Force, will continue 
its advocacy for parity in pay, entitlements and benefits. In its role 
as a force provider, the Air National Guard will honor the commitment 
to provide the right person, at the right place, at the right time.

            Chemical Warfare Defense Equipment Program
    The Air National Guard's Chemical Warfare Defense Equipment program 
plans to be strategically positioned to provide individual equipment 
protection, including individual chemical suits, gas masks, filter 
canisters, hoods, boots, and gloves, to protect each member against 
chemical or biological attack.
    The Air National Guard identified a $66.8 million Chemical Weapons 
Defense Ensemble Mobility Bag requirement to provide initial protection 
for all members and to fund the replacement of Mobility Bag shelf-life 
assets.

            Depot Purchased Equipment Maintenance
    The Air National Guard's Depot Purchased Equipment Maintenance 
Account pays for depot level maintenance of all aircraft, aircraft 
engines, special purpose vehicles, and other major items of equipment 
(e.g., ground radar/radio sets). The major goal of the program is to 
decrease the levels of deferred depot maintenance.
    The Air National Guard is concerned about the spiraling costs for 
organic and contract programmed depot maintenance and the impact on our 
aging aircraft fleet. Increasing costs and under funded budget 
requirements have resulted in an Air National Guard's Depot Purchased 
Equipment Maintenance program that approximates an 80 percent funded 
level.
    Based on fiscal year 2003 projected budgets, funding shortfalls may 
result in eight KC-135, three F-15 and one C-5 aircraft not being 
inducted into the Depot Maintenance Program at the appropriately 
scheduled time frame. We are concerned about what impact this 
continuing annual funding shortfall has upon the current and future 
readiness of the Air National Guard.

            Vehicle Priority Buy Program
    The Air National Guard Vehicle Priority Buy program is struggling 
to keep pace with mission requirements associated with homeland 
security, new Alert sites, Security Force protection, medical 
evacuation teams and new aircraft conversions.
    At the present time, 43 percent of the Air National Guard vehicle 
fleet is due for replacement, at a cost of approximately $315 million. 
Our budget includes $40 million, or roughly 13 percent of this 
requirement, to replace vehicles in the inventory in fiscal year 2004.
    The Air National Guard vehicle fleet will continue to age and 
become more costly to maintain. This underscores the need to replace 
vehicles. While we plan to replace the rest of the aging vehicles over 
time, the rate at which we are currently replacing them, coupled with 
additional requirements to support newly emerging homeland security 
needs, could severely impact our near-term vehicle readiness.

            Nationwide Information Technology Network
    The Air National Guard is in the process of modernizing its 
nationwide information technology network that serves a vital role in 
homeland security and national defense. Reliable, available and secure 
information technology is essential to Air National Guard, Air Force, 
Department of Defense, and state authorities in their ability to 
exercise control and command of information resources impacting their 
various constituencies.
    The Air National Guard Information Technology Network is critical 
to the successful transmission of information within a unit, between 
units, and among the various states. Without a healthy and robust 
Information Technology network most other Air National Guard missions 
will not be able to function. No Air National Guard function can stand 
alone without interface and interaction with several other functions 
and the network is the link that provides the medium to share 
information at all levels.
    The Air National Guard has made significant progress in procuring 
network hardware and personal computer and server software that 
decreases complexity and increases network communication with Air Force 
and Department of Defense partners. Striving to accomplish a nationwide 
reduction of network servers by consolidating core network services to 
regional operations centers, the Air National Guard must first upgrade 
its own communications and network infrastructure, technologies, and 
facilities.
    Continuing to fund the Air National Guard Enterprise Network at 
last decades level will continue to give us last decade's capabilities. 
The rapidly changing hardware and software requirements of our 
warfighting and combat support functions come with a significant cost 
to upgrade and maintain a fully capable Information Technology network. 
The Air National Guard network is funded and maintained at the same 
level it was during the 1990's. Without a significant infusion of new 
technology, all other Air National Guard mission areas will be less 
than fully capable of prosecuting their missions. One time cost 
estimates to bring the Air National Guard Enterprise Network up to a 
fully capable and robust condition are approximately $80 million, 
coupled with a significant increase in sustainment and refreshment 
funding to maintain and upgrade the Information Technology Enterprise 
to fully support all other mission areas in the continuing war on 
terrorism and homeland security. This modernization initiative will 
certainly enhance the Air National Guard's interoperability with other 
federal and state agencies.

            Capabilities Based Military Force
    The Air National Guard is a solid partner with the Air Force, the 
Air Force Reserve, and all collective units of the Department of 
Defense designed to protect national security and maintain 
international peace. The Defense Department priority is Transformation 
and therefore the priority of the active services and the reserve 
components.
    Transformation as ``relevancy'' is dependent on the Air National 
Guard readiness, in both state and federal missions, being able to 
support service apportioned and Joint Chiefs validated Combatant 
Commander required ``capabilities.'' Becoming a ``capabilities based'' 
military force translates into the Air National Guard's need to acquire 
new technology and equipment to maintain a state of readiness and 
relevancy now and in the future. The Air National Guard must embrace 
the process of transformation and intelligent risk-taking to provide a 
fully trained, equipped and ready force to defend the nation at home 
and overseas.
    The Air Force is pursuing innovative organizational constructs and 
personnel policies to meld the various components into a single, 
unified force. Future Total Force integration will create efficiencies, 
cut costs, ensure stability, retain invaluable human capital, and, 
above all, increase our combat capabilities. Another transformation 
effort is to ``blend,'' where sensible, units from two or more 
components into a single wing with a single commander. Active, Guard, 
and Reserve personnel share the same facilities and equipment, and 
together, execute the same mission. This is a level of integration 
unprecedented in any of the Services.
    Potential future missions might include Unmanned Aerial Vehicles 
and their training programs, combining the Unmanned Aerial Vehicle 
squadrons with their manned fighter counterparts; integrated fighter 
squadrons realizing the benefits of highly trained personnel flying 
legacy systems during the transition period to newer fighter aircraft 
like the Joint Strike Fighter. The Air National Guard has been steadily 
increasing its participation in space operations over the years and 
already plays a vital role in missile warning, satellite command and 
control, and launch operations. These contributions will be key during 
conflicts envisioned in the future.
    These changes confirm and continue the trend in which air and space 
forces carry a heavier share of the burden in the nation's wars. The 
new strategy and force-sizing standard point to an increase, not a 
decrease, in aerospace power.
    Since September 11, 2001, Air Force components have flown most of 
the subsequent air defense sorties in Operation Noble Eagle, with the 
Air National Guard flying 74 percent of the total missions. The Air 
National Guard must be resourced in order to sustain our nation's fight 
against the war on terrorism in defense of the homeland. This new 
theatre of operations paves the way to transform the experience of the 
Air National Guard to effectively respond to homeland security missions 
in an expeditionary role.
    The Air National Guard will continue on its Total Force journey 
hand-in-hand with the Air Force, the Air Force Reserve and, indeed, all 
of the Department of Defense away from a threat based force toward the 
``capabilities based'' force that will be required into the future. The 
Air National Guard will always provide a ready, reliable, and relevant 
force that America can count on now, and, through Transformation, 
solidly into the future.

            Intelligence Surveillance and Reconnaissance
    As a strong defense, Air National Guard eyes in the skies' approach 
to surveillance and reconnaissance provides the nation with protection 
from hostile air or land attacks. To increase its intelligence 
surveillance and reconnaissance capabilities, the Air National Guard 
seeks to expand our capabilities to intelligence imagery with 
deployable commercial imagery downlink and exploitation system (Eagle 
Vision), and modernize and increase the capability of the Air National 
Guard's signals intelligence. This system will be very beneficial to 
homeland security missions across the broad spectrum from natural 
disasters to terrorism assessments.
    In much the same way that National Guard assets have been 
effectively employed in the war on drugs, the mission of the global war 
on terrorism plays a large role in how the Air National Guard is 
directing its focus and personnel. New intelligence, surveillance, and 
reconnaissance capabilities will be particularly useful in conducting 
domestic missions dealing with natural disasters in which the Air 
National Guard can assist states with relief efforts caused by 
tornadoes, floods, and hurricanes.

            Air National Guard Space Operations Program
    For the Air National Guard, Space Operations provide a critical 
communications link to communities throughout the nation in the form of 
satellite support for everyday uses (television, computers, wireless 
phones), but also serve as an important military deterrence from 
external threats. Recently, two Air National Guard units in Wyoming and 
California have come out of conversion to provide operational command 
control support to Northern Command and to provide round-the-clock 
support to the Milstar satellite constellation.
    Additionally, the 114th Range Flight in Florida is partnered with 
an active Air Force unit performing the Launch Range safety mission. 
There are future plans by the Air Force to transition additional space 
program assets to Air National Guard control.

            Logistics Information Technology Program
    The National Guard Logistics Information Technology Modernization 
programs will enable the Air National Guard to operate seamlessly with 
active and reserve counterparts in support of combat operations or 
other contingencies in all operational theaters.
    This Air National Guard initiative ensures that the organization 
maintains interoperability with common worldwide contingency systems. 
This involves plans to modernize logistical information technology 
systems, including Digital Technical Data, Joint Computer-Aided 
Acquisition and Logistics Support, Wireless Local Area Network, Tool 
Accountability Systems, and Integrated Maintenance Data Systems. The 
Air National Guard effort to sustain these modernization programs and 
initiatives has been estimated to cost $314 million.

            Expeditionary Medical Support (EMEDS) Transformation
    The Air National Guard's Expeditionary Medical Support response 
platform is a comprehensive medical system that is designed to provide 
for homeland security consistent with meeting the requirements of major 
theater warfare or peacetime disaster response support. Like an 
airborne portable hospital, this is truly the lightest, leanest, and 
most capable deployable medical platform available to the Air National 
Guard today.
    The Air National Guard Air Surgeon's Office has established 
personnel packages that will be able to support 15 Expeditionary 
Medical Support packages (two on-call) for each Aerospace Expeditionary 
Force deployment and 13 available for homeland security if deployed 
through state-to-state compacts or the national-level Emergency 
Management Assistance Compact. The personnel packages were placed in 
each Air National Guard unit, effective with the publication of the 
unit manpower and planning documents. Once the equipment sets have been 
acquired, they will be strategically pre-positioned throughout the 
continental United States and will provide the flexibility of 
responding to any disaster within several hours from activation. The 
equipment and personnel packages will be positioned to provide both a 
distinct wartime capability and military support to civil authorities 
in each Federal Emergency Management Agency region. Each region will 
have an Expeditionary Medical Support +25 or Expeditionary Medical 
Support +50 capability, with the ability to provide multiple medical 
response teams configured for support of the first responders. Our 
objective is to obtain two Expeditionary Medical Support equipment 
sets, one to be placed on each coast.
    With Operation Iraqi Freedom, our transformed ANG Medical Service 
deployed for the first time ever these revolutionary medical wartime 
platforms. In several cases, our ANG medical personnel were deploying 
with this new capability at the same time many active duty units 
deployed. A remarkable point to be made is that this capability, added 
to the Guard in January 2003, is currently being deployed to serve our 
fighting forces in Iraq. Though we are currently recruiting to fill 
full teams, we have identified 39 teams of critical care physicians, 
nurses, and technicians, across the ANG, volunteering to go forward. 
The Air Mobility Command Surgeon General, who is responsible, as the 
force provider, for these critical care teams, could not have 
accomplished this mission without the critical day-to-day clinical 
expertise of our guard members. We are clearly postured medically for 
the future.

            Modernization
    The Air National Guard Modernization program is a comprehensive 
effort to leverage programs from the Air Force with appropriated 
funding to keep the Air National Guard ready, reliable and relevant for 
today and tomorrow's operational theaters. The Modernization Program is 
segmented into three time frames: short-term (the current and next 
year's Defense budget), medium-term (out to 2010), and long-term (out 
to 2015).
    The Air National Guard Modernization Program directly supports the 
Global War on Terrorism by providing weapon systems engaged in combat 
operations overseas, domestic surveillance and combat air patrols. As 
upgrades are made to the various systems, it is incumbent on the Air 
National Guard to provide reliable systems, as well as effective 
training, to ensure the highest state of readiness for forces 
participating in the on-going combat operations. The arrival of the 
Block 25/30/32 F-16s into the Afghan theater, with their Litening II 
precision targeting pods, provided the Special Forces engaging Taliban 
and Al Qaeda forces on the ground with a unique, laser-spot-tracking 
capability. With our forces closely engaged with a tenacious enemy in 
very rough terrain, the Block 25/30/32 F-16s were the number one choice 
of the ground troops when requesting close air support. Air National 
Guard forces were an integral part of Operation Enduring Freedom from 
the beginning to the end because the Modernization Program that 
provided a ready, reliable and relevant force.
    The Air National Guard Modernization Program directly supports 
homeland security, most obviously through the combat air patrols flown 
during Operation Noble Eagle. Well versed in the air sovereignty 
mission, the Air National Guard responded within minutes to the attack 
on the World Trade Center, and were immediately patrolling the airspace 
across the United States. Many American citizens expressed comfort at 
seeing armed fighter aircraft flying above them while unanimously 
stating they never thought they would live to see the day American 
military air power would be used in combat operations so close to home. 
These continuing operations since September 11th, 2001 highlight the 
atrophy of the command and control systems associated with our Air 
Defense network due to decades of neglect. As Northern Command 
clarifies the air sovereignty mission, this modernization program will 
be crucial to ensuring the evolving mission needs correspond with the 
capability of the assigned forces and that any required improvements 
are adequately resourced.
    Besides Operation Noble Eagle, the enhanced defense of the airspace 
above the United States, the Air National Guard supports Operation 
Enduring Freedom, the global counter-terrorism campaign. We also 
continue to support other on-going operations through the Air and Space 
Expeditionary Force commitments. These commitments include regular 
deployments to Operation Southern Watch, Operation Northern Watch, and 
the air defense alert commitment in Iceland. The domestic missions 
include continued counter-drug flights, fire fighting missions, 
disaster relief airlifts, and civilian rescue missions.
    The key to transforming Air National Guard assets to the future 
force structure is ensuring that systems are ready, reliable, and 
relevant. This program begins with a national conference of war 
fighters from all of the major weapon systems. Given the missions they 
expect to fight over the next ten years, the war fighters then outline 
what is needed to keep their platforms relevant. From these requests, 
the Air National Guard reviews the Air Force modernization program, 
calculates any resulting shortages, and finds a way to obtain at least 
an equivalent capability so the Air National Guard can bring a relevant 
capability to the mission. As OPSTEMPO increases and contingencies 
multiply, there is an increasing focus on short-term capabilities, 
restricting funding available for long-term investment. The 
Modernization Program is a comprehensive effort affecting all aspects 
of the Air National Guard.
    One of the premier accomplishments in the past year is the very 
short-term identification, development and fielding of the Transparent 
Multi-Platform Gateway integrated into the Joint Range Extension 
gateway providing interoperability and connectivity between the 
Situation Awareness Data Link and Enhanced Position Reporting System 
network and Link 16. The Modernization Program funded the groundwork 
required for this capability. By leveraging the on-going Air Force 
Joint Ranger Extension program, the Block 25/30/32 F-16s were 
successfully networked into the command centers, providing a major 
increase in theater-wide situational awareness. One system is already 
in operation overseas while follow-on systems are now being acquired to 
ensure increased flexibility. Additionally, the North American Air 
Defense Contingency Suite was fielded giving North American Air Defense 
Command the ability to track targets within the United States and 
integrate the Federal Aviation Administration tracks into the military 
transponder network in support of Operation Noble Eagle.
    The A-10 continued its role as the venerable attack aircraft 
supporting operations from both Kuwait and Bagram AB, Afghanistan. The 
key modernization program for this aircraft is called Precision 
Engagement. Precision Engagement will ensure the A-10's continued 
relevance on tomorrow's battlefields. This cost-efficient program will 
transform the current A-10 cockpit into a 21st century cockpit, greatly 
reducing pilot workload and providing additional combat capability in 
the form of precision guided munitions. Associated with Precision 
Engagement was a watershed decision to install the new Joint Tactical 
Radio System on the A-10 making it the first aircraft to be equipped 
with this future data link and communication suite. During the past 
year, the A-10 experienced an aircraft modification to improve the 
personal locator system and consolidate countermeasures equipment. 
Other modernization efforts include further research into an adequate, 
engine replacement, an AN/ALR 69 Radar Warning Receiver antenna 
replacement, and continued COMET infrared countermeasures pod testing.
    During the last year, the Air National Guard F-16's provided 
crucial combat capabilities in both Operation Noble Eagle and Operation 
Enduring Freedom using Litening targeting pods for precision-guided 
munitions funded by the Modernization Program. The Commercial Central 
Interface Unit, and the AN/ALR-69 Radar Warning Receiver Antenna 
Optimization kits, are all part of our modernization effort over the 
past year. Initial funding for the Advanced Identify/Friend/Foe upgrade 
was secured along with funding for 25 more engine upgrade kits for our 
F-16 Block 42 aircraft. The Theater Airborne Reconnaissance System 
continued its spiral development and Night Vision Imaging System 
lighting for the A and B models to support Operation Noble Eagle was 
installed.
    The HC-130 began installation of the Forward Looking Infrared 
system. Also, installation of aircraft night vision imaging systems and 
acquisition of rapid onload/offload ``canary ramps'' for austere 
locations increase our capability to provide critical combat support 
day or night.
    The HH-60 program started integration of the new M3M .50 caliber 
defensive weapon, installed an improved insertion extraction system for 
deploying personnel and bought skis for the Alaska aircraft to 
facilitate Arctic operations. The Pararescue/Special Tactics program 
replaced personal equipment for the pararescue jumpers and combat 
controllers with state-of-the-art weapons and technologies.
    The Operational Support Aircraft Modernization Program leased two 
737 Boeing Business Jet aircraft and secured funding for a C-40C in 
fiscal year 2004. The existing Boeing Business Jets will also get 
upgraded to the C-40C configuration as part of the lease program.
    Three new C-130 Js will be delivered in fiscal year 2004. These 
aircraft will be a welcome addition to our tactical airlift inventory 
as we move toward an Initial Operational Capability milestone.
    The modernization of the Air National Guard training and simulation 
systems includes partial fielding of the Full Combat Mission Trainer 
for our A-10 units. Half of these units have received the advanced 
trainer system and additional funds are required to complete the 
beddown at the remaining units. The F-16 Block 30 distributed mission 
training capable flight simulators are in engineering development while 
funding was secured for two F-15 advanced flight simulators at our 
flying training unit at Kingsley Field, Oregon. The Iowa Air National 
Guard's 132nd Fighter Wing has been officially designated as the site 
of the ANG's Distributed Training Operations Center making it a major 
hub of Air Force-wide distributed training. The ANG's four Combat 
Readiness Training Centers and fourteen Ranges are ideal assets for the 
Joint National Training Capability. The increased use of Precision 
Guided and Stand Off weapons will drive changes in the airspace and 
range requirements to properly and safely train. Evolving training 
requirements, such as ``lights out'' operations in special use 
airspace, create unique challenges for operating in the National 
Airspace System. The potential contentiousness and length of time it 
can take to establish new or modified airspace makes it essential to 
identify requirements as early as possible.
    The modernization of the F-15 included the initial acquisition of 
the BOL Infrared countermeasures improvements system, continued 
installation of the Multi-functional Information Distribution System 
Fighter Data Link, and the purchase of the first 25 engine upgrade 
kits.
    The C-130 modernization program purchased more aircraft armor; and 
continued acquisition of the AN/APN-241 Low Power Color Radar, the 
installation of the Night Vision Imaging System, the Air National 
Guard-driven development of Scathe View to include various 
technological spin-offs having application in a myriad of civilian and 
military efforts; and supported Air Force's development of the AN/AAQ-
24 (V) Large Aircraft Infrared Countermeasures system. We also 
completed final design review and testing of the new advanced Airborne 
Fire Fighting System to bolster the fire and protection capabilities 
nationwide. The Air National Guard is supporting a Joint Program, along 
with the Navy and Marine Corps, to test and qualify an Electronic 
Propeller Control System for the C-130.
    The Air National Guard fully supports the Air Force plan to acquire 
the new 767 tanker aircraft and the plan to move more KC-135Rs to the 
Air National Guard.
    Modernization of complex weapons systems is a continuous process, 
not a goal. Traditionally the Air National Guard gets legacy systems 
through the equipment that is trickled-down from the active duty 
forces. With the exception of the Block 50 F-16s and the C-17, these 
legacy systems do not have the funding to upgrade their capabilities to 
make them equivalent to the active Air Force. The Air National Guard 
requires an aggressive program to meet the combat capabilities required 
for the missions assigned to the Air and Space Expeditionary Forces 
built, in part, with Air National Guard forces. To keep the 
Modernization Program focused and to maximize combat capability per 
dollar, we use the Combat Quadrangle to summate the fundamental combat 
capabilities required to meet assigned missions. The Combat Quadrangle, 
derived from the Air Force's core competencies, consists of enhanced 
survivability, 24-hour operations, combat identification, and precision 
strike. The Air National Guard includes all aircraft, ground command 
and control systems, training and simulation systems in the 
modernization effort. The requirements definitions required to focus 
this effort must be grounded in clearly defined combat capabilities and 
missions. The foundation of future efforts is relevance with 
reliability and readiness. It is increasingly difficult to keep the Air 
National Guard legacy systems relevant given the transformation of the 
Air Force to better, more effective technologies. Systems funding will 
be a continuous and serious challenge since funding levels continue to 
fall short of mission requirements. Over the foreseeable future, the 
military services, specifically the Air Force, will be stretched to 
simultaneously fund current operations, modernization and future 
Research and Development projects.
    The Air National Guard Modernization Program is the key to fielding 
and supporting a relevant combat capability to meet any emerging 
challenges for the next 10-15 years. We must sustain an open and honest 
dialogue from the warfighter through to the President and the Congress 
in order to maximize the investment of precious tax dollars. The 
Modernization Program works as seen in the examples above. The Air 
National Guard Modernization Program will continue to provide success 
stories as the United States Air Force transforms to meet the future.
    We in the Air National Guard are proud to serve this great nation 
as Citizen-Airmen. Building the strongest possible Air National Guard 
is our most important objective. Our people, readiness modernization 
programs and infrastructure supported through your Congressional 
actions are necessary to help maintain the Air National Guard as the 
best reserve force. With your continued support, we are confident that 
the men and women of the Air National Guard will meet the challenges 
set before us.

Joint Programs
            National Guard State Partnership Program
    The National Guard State Partnership program is constituted to 
encourage and build long-standing institutional affiliations and 
interpersonal relationships with those nations that are striving to 
establish democratic military organizations. Our citizen-soldiers 
provide military leaders in partner nations an opportunity to witness 
our highly trained and capable soldiers at work. National Guard members 
who serve as role models become a compelling argument for the ideals of 
democracy, professionalism, and deference to civilian authority. Our 
personnel gain valuable experience interfacing with people of diverse 
cultures, as they will encounter when activated and deployed overseas 
during a federal mission. This also provides the United States with the 
opportunity to demonstrate the necessity and economy of reserve 
component personnel who are trained and equipped to respond immediately 
to civil or military emergency. The program also supports homeland 
security by helping to develop dependable and collaborative partners 
for the United States. It supports Secretary of Defense Rumsfeld's New 
Concepts of Global Engagement and has the capacity to link states with 
partner nations for the purpose of improving bilateral relations.
    The National Guard State's Partnership Program supports missions in 
which troops prepare to depart their partnership countries for 
cooperative events, mobilization skills are refined, and National Guard 
personnel interface with diverse cultures, helping to prepare them for 
active deployment overseas during potentially hostile activities. The 
State partners actively participate in a host of engagement activities 
ranging from bilateral familiarization and training events, exercises, 
fellowship-style internships, and civic leader visits.

            National Guard Family Programs
    As the role of the National Guard becomes focused on the dual 
missions of Global War on Terrorism and homeland security, units will 
continue to maintain a high level of readiness for overseas and 
homeland operations. An integral part of service member readiness is 
family readiness. The National Guard Family Program Office was 
established to provide policy, guidance, and resources for developing 
the Family Program quality of life and family readiness infrastructure 
to the Adjutants General of all 54 States and Territories, the Chief of 
the National Guard Bureau, and the Directors of the Army and Air 
National Guard.
    The National Guard Family Program office implements Department of 
Defense directive to ensure service members and their families are 
provided a quality of life that reflects the high standards and pride 
of the Nation they defend, and that this policy be achieved by working 
in partnership with Department of Defense personnel and their families, 
recognizing their role in the readiness of the Total Force.
    If family members are not prepared for deployments, a service 
member's readiness, morale, and eventually retention are affected. 
Family programs are currently in place to assist families during the 
challenging stages of deployment: pre-mobilization, mobilization, and 
reunion. The Family Program office provides support to the family 
program coordinators through information, training, volunteer 
management, workshops, newsletters, family events, youth development 
programs, and other such programs. The primary challenge lies in 
awareness and communication. Consistent feedback indicates many family 
members are unaware of the various resources available to them. The 
goal is to increase the level of awareness and participation in 
existing family resources to improve overall mission readiness and 
retention.

            National Guard Youth ChalleNGe Program
    The award-winning National Guard Youth ChalleNGe program is a 
community-based program that leads, trains and mentors at-risk youth at 
31 sites to become productive citizens in America's future. As the 
second largest mentoring program in the nation, the ChalleNGe program 
is coeducational and consists of a five-month ``quasi-military'' 
residential phase and a one-year post-residential phase. Corps members 
must be volunteers, between 16 and 18 years of age, not in trouble with 
the law, drug free, unemployed, and high school dropouts.
    As a national model, since its inception, the 31 National Guard 
Youth ChalleNGe program sites have graduated over 42,000 young men and 
women who leave the program equipped with the values, skills, education 
and self-discipline necessary to succeed as adults in society. 
Significantly, although many ChalleNGe candidates are from at-risk 
populations, over two-thirds of ChalleNGe graduates have attained 
either a General Equivalency Diploma or high school diploma. 
Furthermore, approximately 30 percent of all graduates choose to enter 
military service upon graduation. Although the program graduation rate 
is above 90 percent, and the general equivalency diploma attainment is 
over 66 percent, the National Guard seeks to increase output in both of 
these areas.
    The National Guard is ``Hometown America'' with deep roots in every 
community. Its strong community ties makes the National Guard a highly 
visible and effective entity in many towns and communities across the 
United States. Involved are men and women who, in their civilian lives, 
are influential across the spectrum of business, education, and 
government. National Guard units across the country have traditionally 
been involved in youth programs designed to help young people become 
positive and productive members of their community.

            Homeland Security
    As we begin the 21st century, homeland security is the most 
important issue facing the United States. For the first time in almost 
200 years, the continental United States was attacked with the 
prospects of future attacks high. To better defend the United States, 
the government has mobilized its resources and has undertaken a major 
reorganization to more effectively meet the challenge. While the 
National Guard performed superbly in response to the attacks of 
September 11th, 2001, we have begun to make changes to better respond 
to future attacks.
    The National Guard has a significant role in homeland security. 
Just as the active force is the first to deploy in support of U.S. 
operations abroad, the National Guard is the first military force to 
deploy in support of most homeland security requirements. The National 
Guard is a unique dual status, citizen-soldier force that can be 
activated by the Governor in support of state emergencies and also can 
be federalized to support national contingency requirements. The 
Governor can employ the National Guard under state active duty (state 
commanded, state financed) and Title 32 (state commanded, federally 
financed), or the National Guard can be federalized under the 
provisions of Title 10 (federally commanded, federally financed). Its 
dual state-federal status makes the National Guard a cost effective, 
flexible force that can be deployed in a variety of circumstances. Like 
the Guard units in the states, the National Guard Bureau (a Title 10 
entity) has dual roles. We communicate policy, requirements and 
situational awareness information in both directions through the 
federal-to-state channel. Further, because most of the state Adjutants 
General are also the emergency manager for their state, and because 
many are also their state's Homeland Security Director, we are involved 
in intergovernmental issues, as well as federal military and 
interagency ones. This dual-mission multi-faceted capability of the 
Guard was demonstrated in the aftermath of September 11th.
    Immediately after the attack on September 11th, the National Guard 
responded. National Guard air assets took to the skies to secure our 
airspace and other forces were quickly sent to the World Trade Center 
and the Pentagon to assist with security and recovery efforts. Soon 
after, the President asked the Governors to secure critical U.S. 
airports and they responded by deploying Guardsmen in Title 32 status 
at airports in a matter of hours. In addition, many of the states' 
governors ordered their Guardsmen, in State Active Duty Status, to 
secure critical infrastructure facilities, such as bridges, nuclear 
power plants, and federal buildings, throughout their states and many 
of those missions continue today. Other National Guard units and 
personnel were activated under Title 10 to augment security at the U.S. 
borders. Their mission was to support the Department of Justice and the 
Department of Treasury in ensuring that commerce continued to flow 
while our vital interests were protected. These homeland security 
missions and others were conducted, and some have continued to be 
conducted, while Army and Air National Guard forces have been deployed 
for peacekeeping and stabilization actions in the Balkans and 
elsewhere, and as a critical part of the war in Southwest Asia. The 
Guard has also been mobilized to perform force protection missions in 
the United States in support of our war efforts. As expected, the 
National Guard has conducted and continues to conduct all missions in 
an exceptional manner.
    As we move forward, it is apparent that the National Guard will be 
increasingly involved in all aspects of the homeland security mission. 
The areas we focus on include:
  --Combating terrorism
  --Military Assistance to Civilian Authorities
  --Responding to chemical, biological, radiological, nuclear and high-
        yield explosives incidents
  --Missile Defense
  --Critical Infrastructure Protection
  --Information Operations
  --Force Protection
  --Protecting the Nation's Sovereignty.
    In addition to these mission areas, the National Guard Bureau's 
recently-established Office of Homeland Defense will facilitate 
military support to civil authorities by the Army and Air National 
Guard. Military support to civil authorities includes domestic disaster 
relief operations that occur during fires, hurricanes, floods, and 
earthquakes. Our support also includes counter-drug operations and 
incident management assistance, such as would occur after a terrorist 
event employing a weapon of mass destruction. The National Guard 
Bureau, in addition to our statutory role as the channel of 
communication between the Army and the Air Force and the National Guard 
of the several states, has coordinated with the Combatant Commander of 
U.S. Northern Command to perform that same role. As part of this, the 
National Guard Bureau provides situational awareness on state-commanded 
National Guard operations to the Commander of U.S. Northern Command to 
augment his ability to effectively plan for and manage the overall role 
of his command.
    The fight against terrorism and the protection of our homeland is 
expected to be a protracted endeavor much like the Cold War. To that 
end, many policy experts, reports, and studies have advocated an 
expanded role for the National Guard in homeland security. While some 
have suggested that the National Guard should be reoriented, re-
equipped, and retrained for the homeland security mission, the reality 
is that the National Guard is an integral part of the Army and Air 
Force Total Force mission capability and that role is vital to the 
survival of the nation. In the past the resources, personnel, equipment 
and training provided for the war-time mission was sufficient to allow 
the National Guard to also fulfill its local and state support role by 
responding to local disasters and military support to civilian 
authorities. Times have changed, however. The threat posed by well-
financed, sophisticated and determined international terrorist groups 
has raised the bar as to what the National Guard must be able to do. 
While the National Guard will continue to maintain a high state of 
readiness for overseas operations, it must also better prepare itself 
to respond to the homeland security mission within the United States, 
the District of Columbia, Puerto Rico, and the U.S. possessions and 
territories. To that end, we are working hard to find ways to meet the 
increased demands of the homeland security mission while still 
maintaining our ability to execute our Total Force requirements.
    The increased threat and global proliferation of ballistic missiles 
poses a significant threat to the United States, our deployed forces, 
and our allies. In response to this threat, in December 2002 the 
Department of Defense directed the deployment of an effective missile 
defense system capable of defending the territory of the United States 
against limited ballistic missile attack. The Army National Guard 
accepted the mission to man the Army portion of the Ground-based 
Midcourse Defense (GMD) system, including both operational and security 
force elements. The GMD segment is the cornerstone of the Ballistic 
Missile Defense System Test Bed, and will have an Initial Defensive 
Operations (ID)) capability by September 2004. This high-visibility 
program, which will provide protection against limited ballistic 
missile attack, is an example of the evolving role of the National 
Guard in Homeland Defense.
    Over the next year, and as much longer as it takes, the National 
Guard Bureau will take the lead in improving the posture of the 
National Guard for its homeland security mission. The National Guard 
Bureau will work with the States as they perform a mission area 
analysis to determine what additional capabilities are needed to 
accomplish the homeland security mission and will utilize a systematic 
programmed approach designed to build our homeland security posture for 
the future. These are the features of that program:
  --Consolidate the National Guard homeland security requirements of 
        the 50 States, territories and the District of Columbia. 
        (States know the actual operational requirements better than 
        anyone.)
  --Validate these requirements at the National Guard Bureau level and 
        craft them into packages for submission to the appropriate 
        Combatant Commanders, to the Army and Air Force as requirements 
        that can be built into programs for funding, and to the 
        Assistant Secretary of Defense for Homeland Security.
  --Use our developed requirements to advise and educate agencies, 
        offices, commands, and leaders that have an interest in 
        supporting homeland security.
  --From valid requirements we will build funded programs that ensure 
        the success of homeland security by using a systematic long-
        term approach. We believe that a long-term approach is needed 
        to ensure a sustained, comprehensive protective posture for our 
        nation.
    The road ahead also includes a transformation of National Guard 
Counter Drug efforts into an integrated Counter Narcotics/Homeland 
Defense Counter Terrorism program. These mission areas employ many of 
the same tactics, techniques and procedures, as well as equipment, 
training and skills. Therefore, a great deal of cross-skill transfer 
will begin immediately once the change is effected, and a quick, 
effective, seamless transition between and across mission sets will 
allow Guard troops to readily take their places on the front lines of 
the war against terrorism at home and abroad.
    Our government has initiated a massive reorganization to better 
respond to the homeland security challenge. Northern Command has been 
activated, the new Department of Homeland Security is in the process of 
being organized, and the Department of Defense has created a position 
of Assistant Secretary of Defense for Homeland Defense. The National 
Guard Bureau will work with the Assistant Secretary for Homeland 
Defense and Northern Command to insure that National Guard missions and 
capabilities are fully integrated into the overall plan for homeland 
security. Specifically, it will assist Northern Command as that command 
moves from an initial operating capability to a full operating 
capability by:
  --Providing situational awareness of activities within the 50 states 
        and territories.
  --Integrating and synchronizing existing plans.
  --Coordinating National Guard resource and training requirements.
  --Facilitating communication between Northern Command and the State 
        Area Commands.
    Northern Command will undergo a critical year as it transitions 
from an initial operating capability to a full operating capability by 
October 2003. During the coming year, the National Guard will be 
providing personnel to Northern Command in order to fill critical 
personnel requirements. Additionally, the National Guard is working to 
develop situational awareness for Northern Command as to the activities 
that affect homeland security within the 50 states and territories. 
Although most activities of incident management at the federal level 
will fall under the control of the Department of Homeland Security, a 
constant monitoring of state-level activities and interests is needed 
by Northern Command in order to support the lead federal agency when 
needed. The National Guard, through the National Guard Bureau, is the 
natural conduit for DOD elements to the states and territories on 
military-related matters. The majority of the states use the Adjutant 
General of that state as the state emergency manager. The National 
Guard is intimately involved in all activities of homeland security at 
the state level. The National Guard Bureau is actively pursuing 
discussions and several initiatives within the Department of Defense 
which will likely result in better exploitation by all segments of the 
Department of Defense of the Bureau's capability as a two-way channel 
of communication to the National Guard of the several states. We are 
excited about assisting Northern Command in its emerging role and look 
forward to facilitating federally funded support of state activities.
    In addition, the National Guard Bureau will work, through the 
Assistant Secretary of Defense for Homeland Defense, with the new 
Department of Homeland Security to ensure that the National Guard's 
capabilities and requirements are fully integrated in the overall 
homeland security plan. The new Department of Homeland Security will be 
greatly assisted by the National Guard plans that are already in effect 
in all of the states and territories. Since the vast majority of 
homeland security activities come under state and municipal or other 
local control, the National Guard planning and activities under State 
Active Duty (state controlled and funded) and under Title 32 (state 
controlled, federally funded) will be an integral part of the processes 
being crafted by the new Department. National Guard Training Centers 
are existing assets that can be economically expanded to support 
realistic training and exercises with first responders, law enforcement 
agencies, and all levels of government integrating National Guard 
capabilities in homeland security roles. Several states have initiated 
pilot programs for this effort with federal support at the request of 
Congress. The National Guard is taking an open supportive approach to 
intradepartmental, interagency and intergovernmental cooperation for 
the defense of our Homeland. We each must succeed for all to succeed.
    The Army National Guard and the Air National Guard bring several 
inherent strengths to the homeland security environment. Aside from a 
capable, trained and organized force, there is also an in-place 
information technology infrastructure that has the potential to provide 
an efficient, reliable, interoperable, and user-friendly channel of 
communications for the Office of the Secretary of Defense and Northern 
Command through the National Guard Bureau to the Army and Air Guard. 
The present information technology infrastructure provides a robust 
reach-down capability to Army and Air Guard units in the states. 
However, to meet the emerging needs of homeland security missions, 
enhancements in network reliability and security will have to be 
incorporated. Additionally, the new requirements pose new challenges in 
areas such as wireless technology that will allow direct command, 
control and communications with on-site responders. The National Guard 
Bureau is uniquely positioned to provide this coordinated, controlled 
capability, consistent with the statutory requirements of Title 10.
    The National Guard supports any overseas fight primarily by 
supporting Army and Air Force initiatives. Most programmatic and force 
structure actions, therefore, are Service specific, supporting either 
the Air War or the Ground War through the respective Services. Examples 
of initiatives underway in this area include the Army National Guard 
Restructuring Initiative, an initiative to replace a portion of the 
existing heavy and light combat structure with Mobile Light Brigades 
prepared for full spectrum operations in support of the new defense 
strategy This will meet the Army's evolving needs for expeditionary 
warfare, as well as giving us more Guard forces well-suited to homeland 
security tasks in support of U.S. Northern Command and U.S. Pacific 
Command. In the Air National Guard, a Transformation Initiative will 
result in capabilities-based forces with improved Intelligence, 
Surveillance and Reconnaissance, Information Technology, Medical 
Service and operational aircraft with the ability to make strong 
contributions to both aspects of the Guard's dual federal-state 
mission. As we render homeland security support to the Lead Federal 
Agencies, however, we must change our approach and support them as a 
Joint Force--not two separate Services. The lead agencies need and want 
to deal with a single entity within the National Guard and this year we 
are prepared to provide that in a seamless manner. A Joint Staff 
approach out of the National Guard Bureau will present a single flow of 
information and will strive for a single funding line to support 
operations. In addition, the State Area Command will become a true 
joint state headquarters with enhanced capabilities. In this way, our 
team is coming together to support our communities and homeland 
institutions with expanded capabilities and improved linkages to 
national command and control mechanisms. In addition, the National 
Guard will continue to participate in the planning and execution of 
interagency exercises with local, state and federal agencies thereby 
building relationships that may prove useful during future contingency 
operations.
    The ability of the National Guard Bureau to maintain awareness, 
conduct coordination, provide guidance and resources to the National 
Guard must be strong to meet the growing needs of homeland security. To 
that end, the National Guard Bureau's Office of Homeland Defense has 
evolved as the focal point for that effort. It has assumed 
responsibility for these initiatives. To further ensure continuity and 
centralized management of all homeland security activities, our Office 
of Homeland Defense recently incorporated the civil support function 
under its control. The NGB Office of Homeland Defense will work with 
the States to determine their requirements to accomplish the homeland 
security mission. It will be this entity within the National Guard 
Bureau that will coordinate with the States, The Joint Staff, U.S. 
Northern Command, U.S. Pacific Command, and, through the Office of the 
Secretary of Defense, with other federal government agencies to manage 
all homeland security efforts.
    For the past two years the National Guard has had a very tangible 
asset to offer in support of the civilian and emergency first responder 
communities in the area of homeland security--its Civil Support Teams. 
The Guard has continued to strengthen the Civil Support Program, under 
which these teams fall. The teams provide rapid support to local, state 
and federal authorities in dealing with the consequences of chemical, 
biological, radiological, nuclear or high yield explosive events. Of 
the 32 Civil Support Teams that have been established, the Secretary of 
Defense has operationally certified all 32 teams. An additional 23 
teams have been authorized by the Congress, and DOD is developing a 
plan to field them as expeditiously as possible.
    Several of the certified teams were integrally involved in response 
efforts to the September 11th terrorist attack and to the anthrax 
attacks and hoaxes that were perpetrated throughout the nation in the 
ensuing months. The Civil Support Teams have been increasingly 
integrated into the planning, training and operations at every level of 
emergency response ever since. In fact, during the year following the 
September 11th attacks, the 27 certified teams collectively performed 
nearly 800 missions at the request of the agencies they support.
    These teams provide state and local authorities specialized 
expertise and technical assistance to the incident commander to:
  --Identify chemical, biological, radiological, nuclear or high yield 
        explosive substances or agents.
  --Assess the situation; determine the type of weapon used and the 
        likely consequences.
  --Advise the incident commander on potential courses of action.
  --Assist the local incident commander's response strategy with 
        cutting edge technology and expertise.
    Operationally, these teams are under the command and control of the 
governors through their respective Adjutants General in a USC Title 32 
status. Should it be required, a team can be federalized and called to 
serve in a USC Title 10 capacity. The National Guard Bureau provides 
logistical support, standardized operational procedures and operational 
coordination to facilitate the employment of these teams and to provide 
depth and backup capability to states currently without a full-time 
Civil Support Team.
    In order to be the best resource possible to those entities they 
assist, it is crucial that the teams continue to be interoperable with 
all of the federal, state and local organizations with whom they work. 
This means that they must continue to be equipped with and trained on 
the state of the art technologies, requiring that they remain a high 
priority for resourcing at all levels within the Department of Defense.
    Issues of importance that are being addressed at many levels in 
support of improving this program include the following: coordination 
with Transportation Command and other commands to formalize the 
processes of requesting airlift for these units. This is required to 
minimize response times to remote and/or hard to access incident sites 
and thereby optimizing their utility to incident commanders. Intensive 
recruiting, special pay and acquisition issues are being worked by 
staff at the National Guard Bureau's Homeland Defense Office to address 
some of the more challenging issues the program faces in remaining a 
value-added capability to their civilian counterparts.
    Our adversaries will not rest--``the clock is ticking''--so our 
preparation must be immediate, exact and effective. The National Guard 
gives this nation a tremendous capability in that its members live, 
work and play within the communities they defend. Many of them are 
first responders--the Guardsmen know their home turf. The people trust 
their National Guard and always feel comforted by their presence during 
a crisis. During the next year, we will take that trust and solid 
experience to build the National Guard into a proactive, 
technologically superior team that is trained and ready to deal with 
any and all threats to our homeland. To further that end, the National 
Guard will continue to cooperate with all local, state and federal 
agencies in an effort to improve response capabilities. In its dual 
State and Federal roles, the National Guard will continue to support 
other government agencies when asked, and will take the lead, when 
appropriate, in the defense of our homeland.

            The National Guard Drug Interdiction and Counterdrug 
                    Activities
    The National Guard Drug Interdiction and Counterdrug Activities 
provides airborne support to the domestic counterdrug effort through 
the Counterdrug Reconnaissance and Interdiction Detachment Program and 
the Counterdrug Program. These special programs employ specially 
modified helicopters and C-26 aircraft to detect and track counterdrug 
targets identified by local, state or federal drug law enforcement 
agencies. Currently eleven states have counterdrug C-26 units and 37 
states have the interdiction units.
    The National Guard supports counterdrug operations by providing 
support that helps law enforcement to stop illegal drugs from being 
imported, manufactured or distributed; and by supporting community-
based drug demand reduction programs. There are six general counterdrug 
mission categories under current program regulations: program 
management; technical support; general support; counterdrug-related 
training; reconnaissance/observation; and demand reduction support.
    The National Guard is a partner in a variety of demand reduction 
activities ranging from educational programs in schools, summer camps 
and with community anti-drug coalitions. The National Guard operates 
four counterdrug training academies across the country that specialize 
in supply and demand reduction curriculum. The courses are available to 
civilian and military personnel at no cost.

            Information Technology Infrastructure
    The National Guard has a dual role, the National Guard of the 
United States (federal mission) and the National Guard of the Several 
States (state mission). Under Title 10 of the United States Code, the 
purpose of the National Guard Bureau is to be the channel of 
communications on all matters pertaining to the National Guard, the 
Army National Guard of the United States and the Air National Guard of 
the United States and the Departments of the Army and Air Force. This 
is a core competency of the Bureau, and its success is dependent on a 
strong information technology infrastructure under the management of 
the Chief of the National Guard Bureau. With the creation of the 
Department of Homeland Security, there is a potential requirement for 
the National Guard to integrate its communication network with that 
agency. The National Guard must be empowered to plan, program, and 
budget its information management program. Additionally, it should 
control, manage, and operate an information technology infrastructure 
that meets the requirements of both the federal mission of the National 
Guard of the United States, and the state missions that include 
homeland security.
    The National Guard network should provide an efficient, reliable, 
interoperable, and user-friendly information technology channel of 
communications for the Department of the Army, Department of the Air 
Force, U.S. Northern Command, Department of Homeland Security, and 
others. There is also a need for a channel of communications to be 
established by the states through the National Guard Bureau with the 
Department of Homeland Security. This is a proper role for the Bureau, 
and the Bureau's mission should be expanded to include that it serve as 
a channel of communications to the Department of Homeland Security. In 
this new role, the Chief Information Office would manage the 
information technology requirements for the homeland security mission. 
The Chief Information Office would also provide leadership for 
establishing National Guard information technology strategy, policy, 
standards, and infrastructure to support National Guard forces 
performing their federal and state missions. In addition to federal 
funds for information technology to support the National Guard of the 
United States, the National Guard Bureau Chief would plan and 
administer federal funds that are appropriated for information 
technology support for states under the homeland security mission. The 
Chief Information Office would work with the Army, Air Force, U.S. 
Northern Command, and Department of Homeland Security Chief Information 
Offices to assure that our information technology network is integrated 
and standardized with each other as well as other partners.

    Senator Stevens. General, if I may, before hearing from 
General Schultz and General James I'd like to yield to Senator 
Inouye for any questions he might have. He's going to leave 
here at 10:45 to go to an important meeting, and I thought 
perhaps he might have some comments or questions to make before 
he left. Sir.
    Senator Inouye. General Blum, the strain on Reserve forces 
may also depend on the skills needed for duty in Iraq compared 
to the number of active duty forces with these skills. What are 
the top skill groups for those who have been mobilized to Iraq 
thus far?

                            FORCE PROTECTION

    And the other question I have is that I understand that the 
Guard will be providing personnel to help the Air Force 
increase force protection; while in the fiscal year 2004 
budget, the Army itself will be experiencing a 53 percent 
increase in force protection requirements. Do you have enough 
to take care of your force protection, in addition to the Air 
Force?
    General Blum. Sir, let me answer those questions in turn if 
I may. General Schultz, you can come in there any time, and 
General James, you can come in any time you think it would be 
helpful.
    Sir, the skill sets, if I understood the question 
correctly, you wanted to know what skill sets were required in 
Iraq. It is across the full spectrum, everything from special 
operations, the kind of innovation that you just saw up on the 
ninth floor and the unconventional approach to dealing with the 
combat in Iraq. We have significant special operations forces 
over there, both in Special Forces psychological operations as 
the United States Army Reserve and Civil Affairs, but in 
addition, we have infantry on the ground over there, combat 
support units and combat service supports of every stripe and 
color, so there's nothing specific. It is full spectrum across-
the-board combat formations that were called upon by the 
combatant commander that we provided from the National Guard.
    Back here at home, it's a little bit different. They've 
mostly been security forces for critical infrastructure 
protection, and the amazing work that the civil support teams 
were able to provide almost on a daily basis to keep the 
populations calm, that we were not under an attack by any 
chemical or biological agent from a foreign nation.
    The very fact that they were able to test and sample and 
verify that these samplings were not something lethal or 
threatening to our population has helped, a very calming 
influence, and I think the soldiers and airmen that we have had 
doing our critical infrastructure protection in nearly every 
State in this Nation has served as a significant deterrent, and 
have probably prevented any disruption of our mobilization 
process, our ability to project forces abroad, and to attack 
our citizenry or our ability to provide good Government here at 
home.
    I hope that addresses your question. If not, please press 
me a bit. Roger.
    General Schultz. Senator, if I could help with a piece of 
that answer from the Army Guard point of view. We have 24,000 
soldiers from the Army Guard in Central Command duty today. 
Primary duty is going to be, obviously, in support-related 
fields, military police (MP), perhaps chemical, perhaps 
medical, perhaps engineer. That's kind of the skills that are 
going to be required more so, even now, as the mission changes 
in theater.
    We're working today with the leadership in the Central 
Command land component command to figure out what kind of 
units, how long they need to stay, and do we have the right 
mix.
    Now, specifically to your point, we're short military 
police in the Army, in the Guard, and we're going through the 
acquisition process of acquiring more. We can use more military 
police here in the homeland as well, so today in the homeland 
we have over 16,000 soldiers securing critical facilities; 
8,100 of those members are securing Air Force bases, and the 
money, in the case of the Army Guard, is coming by way of the 
Air Force, so that's an Air Force budget line item. We think 
that will be a 2-year mission, so we're in the first year of 
that mission, standing by for a second.
    So security police in the Air Force, military police in the 
Army. We're short those kinds of forces today.
    Senator Inouye. What are you doing about that?
    General Schultz. We're actually going through the process 
of finding units, turning in units, buying more military police 
units, if I could explain it that way. We're going through the 
acquisition process right now, today, acquiring more MP units 
in the Guard.
    Senator Inouye. Thank you. Thank you very much, Mr. 
Chairman.
    Senator Stevens. Thank you. General Schultz.
    General Schultz. Thanks, Mr. Chairman, the distinguished 
committee members. We say thanks for allowing us to be here 
today, and for your ongoing support for our first priority, our 
soldiers.
    I would like, Mr. Chairman, to introduce Command Sergeant 
Major Frank Lever. He's senior enlisted soldier in the Army 
National Guard. He's the person, with me, that has the honor of 
looking after our members across this Nation.
    Mr. Chairman, our members have met and satisfied every 
mission asked, from the homeland through the deployed theaters, 
and it's an accomplishment that we are most proud of. If you 
think about the Guard today, we have over 78,000 soldiers 
deployed, and obviously we talk about the strength of who we 
are, our first priority would be the members in our formations. 
Now, today in a special way that also means our families.
    And then as you think about our mission since September 11, 
2001, just a couple of years ago, we obviously have had 
tremendous support from our employers, and it's that team that 
makes what we're doing today possible.
    Mr. Chairman, we say to you, for your ongoing support, 
thanks.
    Senator Stevens. General James.
    General James. Mr. Chairman, members of the committee, I 
also would like to add my thanks, as my colleagues have, for 
the support of this committee and the opportunity to speak to 
you today on behalf of our Air National Guard.
    Like our Army counterparts, our Air National Guard has been 
very, very busy around the world and here at home. We have 
approximately 22,000 airmen mobilized at this time, with 
another 1,100 volunteers added to that figure. Some have been 
mobilized for almost 2 years. Currently, 55 percent of the Air 
National Guard is performing some type of full-time duty when 
you add in the full-time force.

                         OPERATION NOBLE EAGLE

    In Operation Noble Eagle which is the defense of the 
homeland, an air sovereignty mission was applying 75 percent of 
the fighter force, and half of the tanker sorties this past 
fiscal year.

                       OPERATION ENDURING FREEDOM

    As you have noted, though, the Air National Guard is not a 
stay-at-home force. We, too, have been deployed around the 
globe. As of the end of March, we flew 64 percent of the 
fighter sorties supporting the Aerospace Expeditionary Force 
(AEF), 48 percent of the airlift sorties, and during that same 
time we flew almost one-quarter of both fighter and tanker 
sorties for Operation Enduring Freedom.

                        OPERATION IRAQI FREEDOM

    We've had significant contributions to Operation Iraqi 
Freedom, and to answer part of your question from the air side, 
Senator Inouye, we experienced some high frequency/low density 
specialties in firefighters and also in security forces, but we 
are in fact total force partners with our great reserve 
counterparts and our active duty. The National Guard flew 43 
percent of the fighter sorties, and an amazing 86 percent of 
the tanker sorties in Operation Iraqi Freedom.
    This committee is directly responsible for our ability to 
participate in these operations and do our mission, because you 
have provided the resources for us in areas like targeting pods 
and funds for our miscellaneous National Guard and Reserve 
Equipment Appropriation (NGREA) account. You've helped make us 
a part, a very relevant and important part of the total force, 
and Mr. Chairman and members of the committee, we're very 
grateful for that support.
    In closing, I would just like to say that in the future we 
too are looking to transform. I've developed a concept called 
Vanguard that will enable us to transform the Air National 
Guard into a force of the future. We also are looking forward 
to participating in new weapons systems such as the C-17 and 
the F/A-22, the joint strike fighter, and hopefully the KC-767. 
We do strongly support the lease of this aircraft. It will 
allow us to replace our aging K-135E models with R models, and 
maybe even participate in KC-767 aircraft in some selected 
Guard units.
    Again, thank you for the opportunity.

                   MERGING GUARD AND RESERVE ACCOUNTS

    Senator Stevens. General, we're grateful to you for those 
statements and, as you've said, each of you, this committee has 
been very supportive, but we're getting questions at home now, 
and I wonder if we're getting to the point where we're burning 
the candle at both ends.
    Before we went into Iraq, we already had 50,000 reservists 
called up and mobilized for the global war on terrorism. We 
mobilized more during the war and, as you said, General James, 
some of them have been mobilized for the best part of 2 years 
now. That gets beyond the role of citizen soldier that's there 
in the event of emergency, and I'd like to have your comments 
on where we're going. You add that to the Department's request 
that we merge your accounts into a single account now, and we 
wonder what's happening as far as the future of the identity of 
the Army Guard, the Air Force Guard, and the Reserves as 
separate entities.
    Would you comment on those situations, General Blum?
    General Blum. Yes, Mr. Chairman.
    First, on the identities, the Constitution will guarantee--
unless we change the Constitution we will not lose the identity 
of the National Guard of the United States because of their 
dual mission status, unique among the other reserve components.
    As far as the operational tempo and the overuse of our 
National Guard citizen soldiers, I think it's a little too 
early to tell just yet on what those trends will bring in the 
long term. Certainly, there are anecdotal episodes or evidences 
that all of us can quote where it is less than a desirable 
condition, where there are great hardships on families and 
significant interruptions, particularly the small businesses, 
when you pull key people out, or key people in a community that 
are responsible for either law enforcement or emergency 
services, but what we have done is set up procedures whereby 
the Adjutants General of each State can make corrections and 
modifications and substitutions so that we don't do something 
that does not pass the common sense test when it's closely 
examined the next day on mobilizing guardsmen.
    The information so far that we've received is relatively 
positive. In spite of this increased use, the propensity to 
serve in these young men and women is extraordinary. Remember, 
they volunteered to serve their Nation. They volunteered to be 
members of the Army and Air National Guard, and they are proud 
to respond when their Nation needs them.
    I think what we need to do now is pay very close attention 
to the process that we follow when we demobilize these young 
men and women and return them back to their civilian jobs and 
their families. That will play an important part. How they do 
that will be very important to whether they make a decision to 
stay with us long term.

                          LIMITS ON DEPLOYMENT

    Senator Stevens. Well, should Congress consider putting a 
limitation on the amount of time that a guardsman, a person in 
the Guard or Reserve can be compelled to serve in any 1 year? 
We have situations where we have all been contacted--I'm 
certain I have--by small business people, by persons who ran 
support facilities for clinics in terms of medical supply 
units, and they have been called up and, as you say, they're 
ready to serve, and they did volunteer, but I'm not sure they 
volunteered to become a regular member of the service to be--
they are compelled to stay, once they're called up, for as long 
as the Commander-in-Chief wants them to stay, and I think there 
ought to be some sort of a contract with these citizen soldiers 
that they will not be called up more than a certain amount of 
time in any 1 year unless there's a declaration of war.
    And we've gone through a series of situations now in the 
last 20 years where we've had these problems, more than 20 
years, really, without a declaration of war, all the way back 
to Korea, and when you think of the number of people that have 
been called up and their lives have just been completely 
changed, I think it's time for us to take a look at it. It may 
not be this committee.
    But we do have before us, however, the thing that bothers 
me, and that is this concept of the consolidation of personnel 
accounts into a single active personnel appropriations for each 
service. In other words, you won't be getting money for the 
Guard directly. You'll be getting money as part of the Army's 
appropriation and the Air Force appropriation, and eventually 
that will lead to less control for the Commanding General of 
the National Guard.
    I don't think I'm going to embarrass you by asking you what 
you think of that, because you're in uniform and you must 
respond to the direction of the civilian authorities and your 
Departments, but this direction worries me as a Senator, and I 
don't know about others, what they think, but I believe we 
should do everything we can to encourage an enormous number of 
young men and women to join the Guard and Reserve, particularly 
those who have had any service before, and they're Ready 
Reserve. They're really a magnificent force in the total force 
concept, but I think we have offended against some of them now 
and changed their lives and put some of them into bankruptcy, 
and we've got a job to do to try and straighten that out, in my 
opinion.
    I don't know if you want to make any comments about it, as 
I said. It's not right, General. It's not right that someone 
joins the Guard and Reserve and thinks they'll be called up in 
the event of real war, to be called up on a semi-permanent 
basis.
    Have you got any orders yet to release any of these people?
    General Blum. Well, sir, Mr. Chairman, you've thrown a 
couple of questions at me at once here.
    Senator Stevens. Several, yes. I'm sorry about that.
    General Blum. Let me try to sort these out. First, are we 
abusing the soldiers in how often and how long they're called 
up for? Again I say there are anecdotal evidences that each one 
of your constituents can articulate where that was probably the 
case.
    What I would argue for here, or urge the committee to do, 
is to give the leadership of the Guard the maximum flexibility 
to manage the force. If we are given the flexibility, we have a 
robust capability. Over 50 percent--even with all of the things 
that we've talked about here today, we still have a pretty 
robust capability remaining on the shelf that we can dip into 
and substitute and plug in place, so to speak, capabilities and 
special skill sets that are needed so that we don't have to 
abuse the same citizen soldier over and over, but we must 
retain that flexibility to do that, and I would urge this 
committee to make sure that the leadership that's represented 
here in all of the seven, reserve components have the authority 
to have some flexibility in that process.
    If we do that, I think we can mitigate much of what you're 
talking about, but as I stated earlier, it is still too soon 
for me to tell you definitively. We don't have any real trend 
evidence that says that this is going to cause us a long-term 
retention problem or a long-term recruiting problem, and so far 
it's been quite the opposite in terms of satisfaction, and the 
feeling that they did something worthwhile for their country 
when they came back off of service, and in most cases they have 
assimilated back into their civilian jobs and their families 
quite well.
    On the other issue about the consolidation of pay accounts, 
you're quite right, I can't comment on that for really two 
reasons. One is the Department of Defense (DOD) policy, and 
that I would support the policy, but however, I can't even tell 
you that today, because I have not seen the implementing 
instructions for that consolidation, so as you well know, the 
devil may well be in the details of that, and we have not seen 
those yet, so I don't know enough about that consolidation 
initiative to tell you whether that's a good thing or a bad 
thing for us here today.
    Senator Leahy. Mr. Chairman, could I just mention 
something? Senator Bond and I are the co-chairs of the National 
Guard Caucus, and we have sent a letter actually signed by a 
number of members of this committee to Senator Warner, Senator 
Levin and yourselves, Senator Inouye, expressing the same 
concerns that you've just raised.
    Senator Bond and I made sure it was a very bipartisan 
letter, but it is coming your way and expresses the same 
concerns you've just expressed.
    Senator Stevens. Good. Thank you very much.
    Senator Burns was first under the early bird rule. He went 
upstairs, I understand, to see the exhibit, so we'll count that 
as being present.
    Senator Burns. I've already been up there. We're really 
getting a little late down here.
    I guess the chairman raised a very important question here, 
and what we hear out in my State of Montana, not only are we 
getting some pressure from the employers, but we're also 
getting some pressure from the self-employed. If you take my 
State, it has an agricultural base, you've got a young man 
that's probably had previous active duty, wants to maintain his 
edge, wants to serve, and also does it in a sort of a way that 
he makes a little extra money on the side, and doesn't mind 
that at all, and will spend the extra time in training, but 
there also are times when the crop's got to go in and when it's 
got to come out. He's also charged with paying for that farm, 
and that's a tough enough thing nowadays all by itself, so I'm 
going to follow this issue very closely.
    And also we recruited some people into the Guard that had 
some special talents, education, skills to fill some of our 
needs, and I will tell you that all you had to do was go up to 
902 and take a look at the new toys that we've got now that 
have worked very well in the range of high tech. So the people 
that we're recruiting are really highly skilled people in the 
private sector, but there again they've got a responsibility 
there, and I would say most of them want to stay trained.
    General James, I thank you very much for the support of our 
Air Guard in Montana. We're very proud of our Air Guard up 
there. We've upgraded now to Block 30s, as you well know, and 
they performed very well, and we're very proud of them, and we 
appreciate your leadership, and all of you understanding these 
problems, but as the chairman says, we've got to start 
somewhere in coming up with a master plan on how we're going to 
help these people either survive in the private sector and 
still rely upon their skills and their talents in time of an 
emergency.
    I think when they joined the Guard they didn't mind a short 
deployment to hone their skills, or to even go and be away 
forever on a declared war in the defense of this country, 
because they're motivated in that direction. They're highly 
motivated people, we find, but nonetheless--and that's a 
different circumstance, and we all understand that, but I am 
going to follow this issue very closely, but I think somebody 
has got to come up with a plan, a plan B so to speak, in the 
event that we get into a situation as we face today.
    And by the way, I want to iterate that in the Iraqi 
operation our warriors, all kidding aside, were the best 
ambassadors we had on the ground over there, and the way they 
performed, not only in their skills but also in their mission, 
but also that extra little bit it takes to establish a 
relationship with the people of Iraq, and that was truly a very 
sensitive area, and it was also noticed by a lot of folks in 
this country as being gentlemen and gentleladies of a very 
special force, so we appreciate that very much.
    Thank you, Mr. Chairman.
    Senator Stevens. Senator Dorgan.
    Senator Dorgan. Mr. Chairman, thank you. Let me say that I 
agree with all of the expressions by the chairman. I may be 
wrong, but I think there could be recruitment and retention 
issues in the future unless we address this issue. The men and 
women who serve don't complain, do so willingly, and are 
enormously proud of doing so, but let me just give you an 
example.
    Part of the 142nd Engineers Battalion from Wahpeton, North 
Dakota, was deployed to Kosovo in January 2000. They spent 7 
months in Kosovo, came back for about 2 years, and now deployed 
to Kuwait. In all, 700 members of the 142nd were alerted on 
January 20, mobilized on the 24th, 4 days later, and 2 days 
after that they began moving their trucks from North Dakota to 
Fort Carson.
    I know normally there's a 30- to 60-day warning before 
deployment. That's what the Army would like to do, but in this 
case it was just a matter of a couple of days, so I think these 
issues are important, and as I say, these are not complainers, 
they're proud to serve their country, but I think we should 
address the issues the chairman mentioned.
    I'd like to ask more specifically a question I don't think, 
General Blum, you answered when the chairman asked it. Tell me 
about demobilization. If there are not now specific plans for 
beginning to demobilize, who will make those plans, and when 
will they make them, and I ask that I think on behalf of the 
families and employers and others. What do you expect with 
respect to the demobilization of those units that have been 
sent overseas at this point?
    General Blum. Senator, there are, in fact, plans being 
formulated as we speak for the demobilization of National Guard 
soldiers and airmen that were called up for duty. I wish I 
could give you a simple rule of thumb as to how they're doing 
that, last in, last out, first in, first out. It unfortunately 
doesn't work that way, as nice as we'd like, because they did 
not follow the normal troop sequencing procedure in the way 
they called up our units.
    We are in an extraordinary time, as you are aware, 9/11, 
and no one foresaw we were going to prosecute a war in 
Afghanistan and then very quickly prosecute a war in Iraq. We 
provide military capability when called upon, and we did not 
make those plans. We respond to those plans.
    The demobilization will--here are our concerns, that we get 
people off of active duty as quickly as they are not absolutely 
needed there. These people, these great Americans that you have 
all talked about, do not mind for the most part interrupting 
their lives to serve their Nation, but they want to do 
something meaningful. There are many people right now that are 
in various stages in the pipeline of going and coming out of 
there, and we are trying to sort that out so that we don't 
abuse this precious resource, our citizen soldiers, in that 
process.

                             DEMOBILIZATION

    Senator Dorgan. But how much notice might you give for 
demobilization, and when can families and employees, employers 
and others expect some basic notion of whether this unit will 
continue to be mobilized for 6 months or 1 year, or whether 
perhaps within 3 months that mobilization will be over?
    General Blum. We are hoping to sort this out in short 
order. As soon as we have that information we share that 
immediately with the local commander, in this case the Adjutant 
General of the State, and then it immediately goes to the 
family support group and employers within a matter of hours and 
days.
    So we understand the angst that it causes. The uncertainty 
really creates some frustration and some tensions in employer 
support and with the family support piece. We are very 
concerned about this. I hope you didn't take my answer to mean 
that we are not concerned about the issues the chairman brought 
up. We are watching this very carefully, and we are advocating 
for the soldiers. Unfortunately, the General Officers 
represented here today do not control that process.

                             COMMUNICATIONS

    Senator Dorgan. Let me mention one other thing and then ask 
General James a question. I met with a large group of families 
recently. They had two big concerns. One is mail, and the 
second is telephone contact. I'm sure you're working hard to 
try to resolve those issues, but it is critical to the 
families. To be able to communicate is just a critical 
connection.
    The families are very proud of their loved ones serving. 
They weren't complaining to me. They were just asking for the 
opportunity to have the Defense Department provide better 
communications, better movement of mail, and I know in staging 
areas sometimes that's very hard, but I just wanted to pass 
that on to you. That was their concern.

                             AGING AIRCRAFT

    General James, you know the Happy Hooligans, the Air 
National Guard in Fargo, North Dakota have three times won the 
William Tell Award, the award for the best fighter pilots in 
the world. Yet they are flying the oldest fighters in the Air 
Force, which is incongruous to me. You and I have talked about 
this at great length. They fly the Block 15s. They're the only 
operational unit in the country still flying them. This needs 
to be remedied. Are we any closer to a solution to that?
    General James. Not currently. The hold that was put on the 
decision that I had to make about upgrading Fargo was generated 
by the fact that on relook the active component who supplies us 
with our equipment, our aircraft, are relooking the need for 
any more offensive counterair or air sovereignty resources 
going to the Guard in the F-15.
    As you know, as we talked before, the F-15, one squadron 
was identified. The Guard was approached about taking that 
squadron, and that squadron was to be activated and put either 
in Fresno or Fargo, so in either case it would have generated 
an upgrade in your equipment.
    The decision was put on hold. We're still looking at some 
possible alternatives. I've asked my staff to look at even the 
possibility of looking at other alternatives, and right now we 
don't have anything. I cannot give you a positive answer on 
that.
    Senator Dorgan. Mr. Chairman, on 9/11, when the Pentagon 
was hit, the first jet fighters flying air cover over the 
Nation's capital were the F-16s of the Happy Hooligans flying 
out of Langley Air Force Base.
    As I indicated, these are people who run drugstores and 
family farms, and mechanics, and the fact is they've gone out 
three times and won the William Tell Award against the best 
pilots and the best equipment in the world, beating all of the 
Air Force and everybody else, and the fact is, they've been 
shortchanged here with respect to these planes. They're flying 
F-16s that are out of time, and they do it, but the cost to 
maintain them is incredibly high.
    And I've heard the same answer about these issues for the 
last 3 or 4 years, and General, we've got to try to resolve the 
issue with these planes. You and I need to meet again, and I 
guess we need to meet with the Air Force Chief of Staff as 
well, but year after year after year we get the same answer 
with respect to these old A-model aircraft.
    I mean, we've a lot of wonderful people, a lot of missions, 
a lot of great units around the country, but this one begs for 
a solution and it hasn't been forthcoming, and I hope I can 
count on you to do what we ought to do for one of the best 
units in this country.
    General James. We're trying to come up with some solution, 
because it's unconscionable to have a unit that good flying 
airplanes that old and still tout ourselves as an important 
member of the total force, and this is one of my top 
priorities, Senator, and we'll talk about it more.
    I have an out-of-the-box kind of solution that I have had 
my folks put their pencil to and try to see if it's feasible. I 
don't know that it's going to be acceptable to the Air Force, 
but we're going to look at something that's quite different in 
the way of getting some new airplanes.
    Senator Dorgan. General, I like out-of-the-box solutions. 
As long as they're solutions, I like them.
    General James. Okay.
    Senator Dorgan. So this begs for a solution. I appreciate 
your willingness to put it at the top of your list.
    Mr. Chairman, thank you.
    Senator Stevens. Senator Cochran.
    Senator Cochran. Mr. Chairman, thank you. Thank you, 
members of our panel for being here today and helping us 
understand the implications of the budget request that's being 
submitted on behalf of the National Guard. We appreciate very 
much, as I said in my opening statement, the leadership you 
have provided in the mobilization as a part of Iraqi Freedom, 
but it comes on the heels of other mobilizations for Noble 
Eagle and Enduring Freedom. There's been a very heavy 
concentration of activity in the National Guard units around 
the country.

                               RETENTION

    I was impressed with the comments of the Senator from North 
Dakota about the fact that very little notice has been given 
for some of these activations. Usually it was a 30-day notice. 
That's been a tradition or a guideline. Do you worry, as I do, 
that this may have implications of people not looking with 
favor on reenlisting in the National Guard, or depletion of our 
forces? Have you seen any evidence of that? I know it may be 
anecdotal at this point. What is your reaction to the effect 
that that may have on our ability to attract men and women to 
serve in the National Guard in the future?
    General Blum. Senator, I think you're right to highlight 
that as an issue. All of the airmen and soldiers that this 
leadership team have talked to over the last past year have 
expressed their concern and desire for predictability, for 
knowing in advance what is required of them as far as possible 
for knowing when they will be needed and when they will be 
released. Employers, families, and the service members seem to 
do much better when we can give them a predictable time line of 
when they'll be called, how long they'll serve, and when they 
will return home.
    This is not just a service member here. The National Guard 
is a three-legged stool. The three legs are the airmen and the 
soldiers, the citizen soldiers and airmen, but their families 
are equally important, and their employers are as equal 
partners with the citizen soldiers and airmen and their 
families for the defense of this Nation. If either of those 
three legs gets out of balance, we threaten the integrity of 
the stool, so we are watching this very, very carefully, and 
the predictability would be highly welcomed by the three 
General Officers sitting before you today, and I'll let the 
others speak when they come up here, but any reserve component 
soldier really would love to have what you're suggesting.
    Unfortunately, with some of the realities that have 
happened, some of these campaigns, the global war on terrorism, 
ongoing commitments around the world that we were already 
supporting, the war in Afghanistan and then the follow-on war 
in Iraq, and then what may follow on as our involvement in 
phase 4 of Iraq has yet to be determined, so the predictability 
puzzle has not yet been solved for all of those events.
    Senator Cochran. General James, do you have any comments on 
that issue?
    General James. Yes, Senator. I agree predictability is the 
key. The Air Force has realized this, and that's why they 
established the AEF concept, the Aerospace Expeditionary Force, 
to give predictability to the airmen and the families so that 
they would know when they were eligible to be deployed, and 
they used this concept in Iraq, in Iraqi Freedom. They actually 
used the people that were due to rotate into theater, and they 
also kept some people that were in theater because of the AEF.
    Unfortunately, the predictability part for the reserve 
component is not as good as it is for the active component. We 
have to be part of our active team. We have to be engaged in 
these AEFs and activities and contingencies around the world to 
remain a relevant member of the team, so the predictability is 
very important.
    I would say also that these airmen are very proud to be a 
part of that, and they're proud to serve, but we don't know 
exactly what their breaking point is. When is it going to 
impact on our retention, and one of the things we did in the 
Air Guard is, we surveyed at the end of the first year and we 
looked at the results, and I'm pleased to say that they really 
were more positive than we thought. However, we're going to 
have to do it again at the end of the second year, and we're 
going to have to do it again another year or so down the road, 
because our operations tempo will continue to maintain a pretty 
high pace.
    Normally we lose--we turn over, excuse me, 10 percent of 
our force. The survey showed us that we'll probably turn over 
13, at the very most 15 percent of our force, so it's not going 
to be an issue that will beg--excuse me, would cause us much 
concern right now, but again we'll have to relook that, but in 
doing so we still do have those stress career fields in 
security forces and in firefighters and in support personnel 
and in red horses, we call them, people who build these bases.
    The Chief of Staff said this morning the most stressed 
career field in the Air Force right now is--the most limited 
capability is tents, because we've built over 30 bases around 
the world just in Operation Iraqi Freedom--not around the 
world, but to support Iraqi Freedom, and as such we have some 
stresses in areas we didn't anticipate in our standard Air 
Force, so we're looking very carefully at that predictability 
piece, at continuing to be part of the AEF and yet surveying 
our people to find out what their needs are.
    One of the things we do in the Air Guard is, we have 
contracted family support representatives. My predecessor, 
General Weaver, started this. We have at least one full-time 
person at every Air National Guard installation and separated 
unit for support of the families. Just as General Blum 
mentioned, the support of the families is very important, and 
if we can keep the family happy we'll keep the airman happy and 
they'll stay with us.

                            EMPLOYER SUPPORT

    The second part of that is the employers, the employers' 
support. By and large, our employers don't have, quote, 
anything for them. They don't have the predictability that we 
talked about earlier. They don't have any type of a tax 
incentive, anything, an incentive on the books that allows them 
to feel good about, other than being patriotic about having 
their folks be involved, so we need to get some way to give 
something back to the employers, and we are working very hard 
with our Employer Support of the Guard and Reserve (ESGR) 
people to keep them in the loop, to keep them in the 
communication loop and feeling good about what they do. The 
problems we've had have been really very small in terms of the 
scope of the operation.
    Thank you.
    Senator Cochran. Thank you. General Schultz.
    General Schultz. Senator Cochran, the issue is very serious 
with us. Overly concerned, I would not describe it quite that 
way, but we are most interested in the impacts of a schedule 
that drastically changed in the case of an employer or a 
soldier or a family on short notice as we put together the 
plans for an ever-changing war concept.
    But for the outstanding leadership across our States we 
couldn't have pulled this off. But for the outstanding 
soldiers, we couldn't have pulled this off, and some really 
understanding employers here, so we took plans and greatly 
moved the line to the left, as we say, and so instead of 30 
days, many of our units were actually alerted and mobilized in 
less than 7, some 1-, some 2-, some 3-day notices, and so I 
don't know that we've begun to realize the full implication of 
that activity set here, and of course our Nation's at war. 
That's why we're, across this country, willing to respond the 
way we do, and yet we understand there must be some discipline 
in the schedule over time. I mean, today we have plans that 
take our unit schedules out 3 and 4 years. You go to this 
theater, you'll deploy for this period, here's your major 
training event, and all of that turned upside down as we put 
together the final plan for Operation Iraqi Freedom, and of 
course the Guard units were involved in a number of those 
changes, and we've responded to everybody's credit across this 
country, but there are second and third order county 
implications.
    Now, what do we think long term? The Army Guard will meet 
our end strength this year. We're off our program target just a 
little bit. Retention is actually higher overall than we had 
planned. The active component has a stop loss policy in place, 
and about half of our members in the Army Guard come from 
active duty, so that's 30,000 soldiers that come into our ranks 
every year from active duty, so when the stop loss rules are 
all in place, consider those candidates not available to join 
the Guard, so we're off just a little bit in terms of our prior 
service accessions.
    Senator, we'll get through all of this, but the question 
you ask we take very seriously, and that is long-term outcomes, 
the implications, effect of how we handle this mission set, and 
our soldiers without a doubt will respond to the way we treat 
them.
    Senator Cochran. I had a chance just recently to visit the 
Mississippi National Guard Training Center. It's a regional, 
counterdrug training facility. It's located on the property of 
Naval Air Station Meridian, Mississippi, and I want to ask you 
to answer for the record, if you could, questions about the 
future possibilities for expanding the activities there to 
include homeland security and other law enforcement challenges 
that we have as a result of the war on terror and the threats 
we have against our country.

           C-17 FLEET AT JACKSON AIR NATIONAL GUARD FACILITY

    And I also have a question for General James for the record 
relating to the conversion to the C-17 fleet at the Jackson Air 
National Guard facility. We've talked about that before, and it 
would be good if you could bring us up to date and let us know 
how those plans are proceeding, and when we can expect to see 
that as a fully integrated part of the Air Force 
responsibility.
    General James. Senator, we have kept in touch with that. As 
you know, I visited the unit. You had your staffers there. We 
had briefings on the unit, and I'm pleased to tell you things 
are going quite well. We're on track. We're a little behind on 
one of the facilities in the construction, but I think there 
are some work-arounds that are going to bring that up to 
timetable pretty soon.
    The actual aircraft delivery was 2004, I think January, 
February 2004. It's been moved up 60 days. The first airplane 
should arrive this fall, in December, and right now we did have 
some discussion about the Block airplanes that you're getting. 
You're still getting the Block 14 airplanes and the Block 15, 
two other Block 15 airplanes later. There may be some dialogue 
about making them all the same blocks. As long as they're 
fairly new airplanes, and having the Air Force take the Block 
15s and two more, as I said, low time or new Block 14s so you'd 
have a homogenous fleet. That's the only thing that's come up 
lately, and I'm talking with General Handy and General Lipscomb 
to decide if that's what they want to do. Other than that, it's 
really a good new story. Things are working, progressing very 
well.
    Senator Cochran. Thank you. We appreciate your leadership 
on that issue. Thank you.
    Thanks, Mr. Chairman.
    Senator Stevens. Thank you very much. Senator Domenici.

                             BORDER PATROL

    Senator Domenici. Thank you very much, Mr. Chairman. First, 
by way of a matter that I have some criticism, there's a major 
story in New Mexico today. It's styled, critics blast border 
plan, and essentially, General Blum, what it's talking about is 
that an area on our border, the National Guard provides some 
valuable support to the Customs department and border 
inspection operations, and hundreds of guardsmen around the 
country have become experienced inspectors in inspecting cargo 
at our borders, seaports, and mail facilities. As a result, 
Customs inspectors are better able to focus on inspecting 
terrorists, intercepting terrorists who try to infiltrate our 
borders.
    This work is very important to New Mexico on our border 
with Mexico. In all, there are approximately 52 guardsmen along 
the New Mexico border supporting a total of 90-plus Customs and 
immigration and agricultural inspectors. In addition to these 
inspections, the Guard is performing an effective 
counternarcotics surveillance as well.
    Recently, it has come to my attention that the Department 
of Defense plans to divest the National Guard of its inspection 
support duties. The rationale is that the inspection mission is 
not, and I quote, militarily unique.
    General, given the heightened state of alert that we have 
assumed since the terrorist attacks on our country, do you 
believe that now is an appropriate time to remove experienced 
guardsmen from our borders, and how does the DOD plan to effect 
the National Guard counternarcotics mission?
    General Blum. Senator, I have an office call and a meeting 
set up with the Deputy Assistant Secretary of Defense that is 
in charge of that particular operation, Andre Hollis. Mr. 
Hollis and I have had discussions on this when I was in a 
different job----
    Senator Domenici. All right.
    General Blum [continuing]. As the Chief of Staff of 
Northern Command. There is a four-star Air Force General named 
General Eberhardt who is deeply concerned about what moves 
across the Mexican border, both ways.
    Senator Domenici. Right.
    General Blum. The immigration and the narcotics, once 
viewed as a problem in itself, is an even greater problem when 
you consider the counternarcoterrorist nexus that can be 
connected to that, and the goodness in protecting our borders 
from hostile people, or hostile weapons systems, chem, bio, or 
nuclear, or high yield explosives coming across, or shoulder-
fired missiles----
    Senator Domenici. Right.
    General Blum [continuing]. That could be used against our 
civilian aircraft coming across the border. We intend to engage 
with Mr. Hollis and present the National Guard's position in 
support of a combatant commander concern, so we do this in a 
unified effort, to reexamine the counternarcotics and 
immigration issue not as narcotics and immigration issues but 
national security issues, which may change the way the 
Department of Defense views that activity.
    I am not sure they totally understand the full value and 
the implications of what's being considered, but this is too 
early to tell you how that's going to work out, but at least 
you know what our concerns and interests are on that.
    Senator Domenici. General, you know what my concerns are. 
You've expressed it exactly right, and when the Attorney 
General and U.S. Attorney there expressed their concerns saying 
that they're not quite sure we're going to be able to handle it 
without this component, it does send signals to me that I have 
to get in touch with people like you and ask you how come this 
will happen.
    Now, on the positive side I want to say that New Mexico has 
a number, like other States we have a number of areas where 
weapons of mass destruction civil support teams have been put 
together. These teams have been trained and certified to 
respond to biological, chemical and nuclear incidents on key 
military installations and national laboratories.
    General, I applaud the quick action of the Guard, recognize 
the importance of the national laboratories, recognizing those 
in a proactive way. You have that going on in our State at Los 
Alamos National Laboratory, White Sands Missile Range, and the 
Air Force Research Laboratory installation right in the middle 
of Albuquerque. We compliment you on that and thank you for it.
    Mr. Chairman, for the record, as part of the discussion 
that has just taken place for the last hour with reference to 
how are we going to react in the future and what have we 
learned with reference to the Reserve and National Guard in 
this last couple of years, it seems to me, Mr. Chairman, that 
this is an opportune time for us to get information from our 
Reserve and National Guard units precisely as to how, how we 
can help them by changing rules and regulations on our end so 
that the Reserves and National Guard can serve us, as a people, 
better.
    It's obvious to me that we can't treat them in a willy-
nilly way, that they just respond and if they're needed, 
they're needed, and if they're not needed, they're not needed. 
I think we have to have more objective standards and rules and 
regulations, because at the heightened time of everybody being 
excited about being in a war and wanting to serve, that's one 
thing, but the aftermath, when that's all settled down, then 
you have to measure what's really happened, what's happening to 
the attitude of the workers, the employers, and the parents, 
the families, and I would hope that you would be expressing 
concern in behalf of those that you represent so that you are 
not just used by the rest of the military to fill in and say, 
whatever's needed you all are going to have to do, regardless 
of the ramifications, and we'll take care of it later. I think 
that would be bad.
    And secondly, we have had to change what we pay to our 
military people and what we do in terms of helping their 
families during this war, during this war effort. I hope that 
if there are things we should be doing, whether--where we are 
paying more, remunerating better, offering better compensation 
and the like, and even some tax relief if necessary, I hope you 
are looking for those to recommend to us with reference to the 
Guard and the Reserve, because we have been surely looking for 
instances where we could be more fair, more equitable in that 
regard.

                   REDUCING SIZE OF GUARD AND RESERVE

    Thank you very much. Thank you, Mr. Chairman.
    Senator Stevens. Senator, thank you for the comments. I'll 
have some comments later, but I think the Department's answer 
so far that we've seen, I'll send you the issues study, is that 
we should enlarge the strength of the active units and reduce 
the size of the Guard and Reserve. I think a few Governors are 
going to have some comments about that, and besides that, I 
wonder--if you don't mind, Pat, if I just ask one question--
what are we doing at the time of all these tornadoes? Every one 
of those States, the first responders should have been the 
National Guard, and many of those units are in Iraq or off on 
terrorism duty. Have you got any complaints yet about that?
    General Blum. Sir, we have not received any complaints 
about that because General Schultz and General James, to the 
degree that they were allowed, were very, very careful to not 
strip any Governor of their total capability to do State 
mission and anticipate the typical bad weather patterns and the 
normal Mother Nature-type catastrophes that happen, or leave 
them a response force in the State if they were to be attacked, 
particularly during the prosecution of the war in Iraq, by some 
agents or surrogates of the Iraqi, or sympathizer of the Iraqi 
people, so we were very careful to leave in every State and 
territory as much of a robust capability to respond as 
possible.
    Incidentally, in Missouri with the latest tragic events, 
the unit that responded to that tornado had been activated for 
war in Southwest Asia. They were at Fort Leonard Wood, 
Missouri, at the mobilization station. The unit heard its home 
town had been hit and devastated, and the unit marched back to 
their home town and responded to their own neighbors and 
families and friends. Even though they were on active duty, 
ready to go to war, they interrupted that process to come home 
to take care of the homeland, and then when that's done they'll 
go back to Fort Leonard Wood and prepare to go, so the short 
answer to your question is, we are watching that 
extraordinarily close.
    We want to make sure no Governor is left uncovered, no 
community is left without a National Guard, and as you may or 
may not know, the States have interstate agreements where they 
can mutually support one another now, which they did not have 
in years past.
    Senator Stevens. Senator Leahy.
    Senator Leahy. Thank you, Mr. Chairman. In the last 
Congress I commissioned a General Accounting Office (GAO) study 
and asked them to look at health insurance requirements of the 
Guard and Reserve. The report found over 20 percent of our 
reservists, people who were ready to be deployed across the 
globe at a moment's notice, currently don't possess adequate 
health insurance. The report shows that this not only threatens 
readiness but it certainly raises questions on recruiting, and 
definite questions on retention. I've introduced S. 852, the 
National Guard and Reserve Comprehensive Health Insurance Act. 
It makes reservists eligible for TRICARE on a cost-share basis. 
The bill would open up TRICARE to help alleviate some of the 
problems on both readiness and retention.
    General Blum. Senator, any help in that area would be 
greatly appreciated. We at this table do not view that as an 
entitlements program. We view that as a readiness issue. The 
health and dental care of our soldiers and airmen is absolutely 
vital for them to be able to perform their mission when called 
upon. If you extend those kinds of benefits to our citizen 
soldiers and airmen, it also makes them very attractive for 
employers if they have health care, as you well know, because 
that gives them an advantage when they're competing for a job, 
and it may help mitigate some of the downside that an employer 
may view of hiring a citizen soldier or a reservist.
    Senator Leahy. Thank you. General James, General Schultz, 
do you agree with that?
    General Schultz. I agree with that, Senator.
    General James. Yes, sir.
    Senator Leahy. Thank you.

                        CALL-UPS OF GUARD FORCES

    Now, the National Guard has always been America's homeland 
security force, and the events of September 11, the war in 
Iraq, demonstrated the Guard's ready to deploy abroad or at 
home to defend the country. The Green Mountain Boys from 
Vermont were flying their aged F-16s over New York City almost 
immediately after the tragedy there.
    Actually, I was pretty impressed. I went there and watched 
some of the operations and you see these mechanics working 
literally around the clock to keep the planes flying and then 
the pilots doing the same thing. They weren't carrying dummy 
missiles, obviously, at that time.
    When the Guard is carrying out missions at home, it's 
usually most effective when it serves under the command and 
control of the Nation's Governors. They know their communities, 
and if there's a question of the Guard cooperating with local 
law enforcement or State law enforcement they know best how to 
do it. I'm concerned that the Department of Defense has not 
sufficiently supported callups under the title 32 status. How 
do you feel, General Blum? Do you support call-ups of Guard 
forces under the title 32?
    General Blum. Senator, yes, I do. It goes back to the issue 
of flexibility and responsiveness. To me, you should leave in 
the hands of whoever is responsible for responding to an event 
the most flexibility to respond to that event as possible. The 
unique dual status of the National Guard should not be 
discarded, it should be embraced. It actually is value-added in 
most instances.
    Senator Leahy. General James, do you agree with that?
    General James. I do agree with that. I think he's right on 
the mark on that, and as a former the Adjutant General (TAG) I 
will tell you that it's very important that the Governor and 
the Adjutant General of that State have the flexibility to 
utilize and maintain command and control of those forces under 
title 32 status as opposed to title 10. There are some cases 
where title 10 status has its benefits, but overall I believe 
title 32 would be the first choice of the Governor and the 
Adjutant General.
    Senator Leahy. And General Schultz?
    General Schultz. I agree with that, Senator, and if title 
32 would bring along a certain set of definitions, meaning it's 
a training status, perhaps it's time for another status that 
gets at the realities of post-September 11 attacks on this 
Nation, where a Governor still would control those first 
responses in a status, and then maybe the Federal force, the 
title 10 forces follow on at some logical point in an emergency 
mission, so I think we've got some work on this, but I do 
support what's been outlined by our chief here.
    Senator Leahy. As you all know, this committee has, or 
subcommittee has made the Guard and Reserve equipment account a 
high priority over the past several years, not that any 
parochial questions ever arise from this committee, but I----

                  NATIONAL GUARD AND RESERVE EQUIPMENT

    You have gotten out of me my comments about the F-16s and 
the 158th Fighter Wing, the oldest such equipment. They fly 
more hours than any other F-16s in the Air Force inventory, and 
are doing it well. How do we keep the Guard's equipment as 
modern as possible? We've got the Guard and Reserve equipment 
account, but should we be doing more? I mean, how do we do 
this, and if that's not an open-ended softball you're never 
going to get one in your life.
    General Blum. Senator, let me thank this committee for what 
they've done in providing for us in the past in the most 
generous fashion. The bottom line of that National Guard 
Reserve equipment account is that it allows the local 
commander, those charged with responsibility for ensuring 
readiness, the flexibility they need to manage our readiness, 
and I think the results are proven. This is a very, very good 
program, and it's much appreciated by us. Not to be open-ended, 
but since we are using this equipment at a much-increased rate 
than we projected even a year and a half ago, the wear-out rate 
would tend to lean toward, we would like to see this program 
continued, and if you wish to expand it, that would be most 
welcome.
    Senator Leahy. Mr. Chairman, the reason I raise that, as we 
all know, we have to come up with a lot of money for the 
Department of Defense. We all understand that. Just replacing 
the munitions expended in Iraq will be very considerable, but 
it's been a strain on all the equipment, all the way through, 
but I just don't want anybody to forget the Guard's equipment 
was strained, too.
    Mr. Chairman, I thank you for your courtesy. Gentlemen, 
it's good to see all of you, and thank you.
    General James. Thank you, Senator, and thank you for your 
support of the LITENING. If it had not been for the LITENING 
pods and the monies that were spent from the National Guard 
equipment account, we would not have been able to participate 
in the last contingency, very simple. LITENING gave us the 
precision-guided munitions capability that we needed, it kept 
us relevant, it put us in the fight. Thank you.
    Senator Leahy. Well, General, you made it very clear to me 
how important those were and I appreciate it.
    Thank you.
    Senator Stevens. Senator Hutchison.

                      OVERUSE OF GUARD AND RESERVE

    Senator Hutchison. Thank you, Mr. Chairman. Let me say 
first that the Easter of 2000 was probably the best Easter I've 
ever spent. It was with General James in Bosnia with our Guard 
unit. He was the head of the Texas Guard at the time, and we 
went over there. It was the first time we had a Guard unit in 
command and control. It was kind of the test case, and our 
Texans did so well that many have followed since, and it was a 
wonderful opportunity to go to that sunrise service and visit 
with our troops.
    I won't belabor it, because my staff tells me that others 
before me have made the same comments and questions about 
overusing the Guard and Reserves, and I have great concerns in 
this area as well. I talked to a lot of those young men and 
women in Bosnia, and have since, about the strains that occur 
when they are deployed so much, and talked with Senator Stevens 
on a trip that we took to Saudi Arabia, where we had Air Guard 
units that had been over there three times over a 2-year 
period, and they were pretty worn out, so I am concerned about 
that, and I just will look forward to working with the 
Department of Defense on the issues that relate to what is our 
troop strength in active duty, and what can we realistically 
expect from the Guard, and do we have the right troop strength 
there as well, but I won't ask the question because I 
understand you have thoroughly gone through that.
    There is, though, one question that I do have, and it was 
in the base tour that I took 2 weeks ago, and I found a woman 
near Diaz and Goodfellow whose husband had gone out with a 
Guard unit out of Collin, out of Fort Hood, and she was having 
trouble getting the access that we know our families of 
deployed have, and it turns out that we don't have a clear 
mechanism for deployed Guard and Reserve units to be able to go 
to the nearest base to their home if it's not close to where 
they're actually deployed from, so I am working on legislation 
right now that would require that contact to be made to the 
nearest base for a deployed reserve personnel, and that that 
person, the next of kin would have the contact at the base, 
that there would be someone at the base who would be in charge 
of dealing with the reserve families who are left behind, but 
I'm going to just ask you if you are aware of this, and if it's 
something that you could work on before I hopefully pass my 
bill.
    General Blum. I think that would be most welcome. As you 
know, the active duty bases are not really ideally located 
against population centers. Our membership mostly comes from 
population centers, so anything you could do to make that 
easier on families and make their access more eased would be 
most appreciated. Thank you.
    Senator Hutchison. Well, I will introduce the bill and then 
either get it in the authorization bill or offered as an 
amendment, and I don't think there'll be a problem with it, but 
I don't even think it should be a big problem for you. I think 
it's just having that little communication mechanism so that--I 
mean, these people are under a lot of stress, because they're 
not active duty, so in many instances they don't have the same 
family support and infrastructure, so I want to give them that 
to the greatest extent possible.
    Senator Hutchison. Thank you, Mr. Chairman.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Stevens. We want to thank you very much, gentlemen, 
for your testimony. We look forward to working with you on 
these difficult issues. The subjects that we discussed may 
primarily be in the province of the Armed Services Committee, 
although several of them are in the budget transmittal to us, 
which would require us to act on them, too, so we will be back 
in touch on some of those issues before we're through. Thank 
you very much.
    General Blum. Thank you, Mr. Chairman and members of the 
committee.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

        Questions Submitted to Lieutenant General H. Steven Blum
           Questions Submitted by Senator Christopher S. Bond

                          SEAMLESS ENVIRONMENT

    Question. What measures are you taking to ensure National Guard 
soldiers and airmen can operate seamlessly in the Joint Environment and 
Combined Environment?
    Answer. The National Guard is increasingly being called upon to 
participate in joint and combined operations. The peacekeeping task 
force in Bosnia is just one of those examples. At the same time, we are 
undertaking several measures to ensure that Guardsmen can more 
effectively operate in the full spectrum of operations. These formal 
and informal opportunities will be evolving as the National Guard's 
transformation process takes shape over the coming months.
    The National Guard is rapidly moving toward a joint configuration 
and joint operations. The National Guard Bureau is being reorganized 
into a true joint organization with an effective date of July 1, 2003. 
Headquarters in the 50 states, 3 territories and the District of 
Columbia are being reorganized into Joint Force Headquarters effective 
October 1, 2003. Once formed, these headquarters will better align and 
mirror our Combative Commands, Joint Staff, and Reserve Component 
forces within each state.
    The transformation of the Guard will be a dynamic and ongoing 
process. The National Guard Bureau and the National Guard of the 
Several States will operate in a joint environment on a day-to-day 
basis. We will undertake joint professional military training for our 
officers and enlisted personnel; train and groom our future leaders for 
joint operations; seek joint and combined assignment opportunities for 
our best leaders; and continue to embrace and expand upon our 
successful current joint operations, such as Bosnia, Sinai, Iraq, 
Afghanistan and the numerous National Guard State Partnership programs.
    Our soldiers and airmen are being actively encouraged to take 
advantage of increasing opportunities to serve on Joint Staffs. We have 
aggressively provided National Guardsmen to serve at U.S. Northern 
Command. Another set of opportunities will soon exist as U.S. Northern 
Command stands up its National Guard Augmentation Unit. We continue to 
monitor with interest the efforts at Joint Forces Command to launch 
Joint Professional Military Education for Reserve Component members.
    The best preparation is experience. WMD Civil Support Team (CST) 
operations and counter-drug operations involve Army and Air National 
Guard assets working together. As we stand-up more CSTs, this 
experience base will expand. Our successful airport security mission 
involved both Army and Air National Guard members. By virtue of these 
and other experiences, as well as the planned changes, current and 
future generations of Guardsmen will be able to operate seamlessly and 
successfully in all types of joint and combined operations they will be 
called upon to support at home and abroad.

                    IMPROVED WMD RESPONSE CAPABILITY

    Question. How is the National Guard preparing to improve the 
capability to better respond to WMD events?
    Answer. The National Guard Bureau and the National Guard are 
engaged in a myriad of initiatives designed to enhance the scope and 
timeliness of a National Guard response to a WMD incident.
    Congress authorized and resourced the current 32 WMD Civil Support 
Teams (CST) and the National Guard fielded those units on or ahead of 
schedule. The CSTs have made major contributions to our national 
readiness and they are responding to civilian authorities on a daily 
basis. The National Guard Bureau is constantly monitoring new 
technology that might enhance their capabilities in the future and uses 
every opportunity to expand and strengthen the skills of CST members as 
well.
    The National Guard Bureau, with Congressional support, developed 
the Comprehensive Review and Report of September 11th outlining actions 
taken throughout the emergency management and response communities in 
the minutes and days following the 9/11 incident. The report's purpose 
was to make available to the civilian and military communities an 
overview of actions taken, so that all could be aware of the challenges 
faced, areas of need and opportunities to further refine response and 
support capabilities.
    The report led to the Automated Exercise and Assessment System 
(AEAS), funded by the Congress and initially fielded in April 2003. The 
AEAS' primary objective was to create a fully automated and integrated 
electronic tabletop exercise tool that allows Emergency Responders and 
Emergency Managers to prepare and assess their communities' readiness 
to respond to incidents concerning WMD. AEAS thoroughly exercises the 
emergency response community and assists the National Guard in 
identifying potential mission support requirements by individual 
jurisdiction.
    Critical Incident Stress Management (CISM) training for the Guard 
was funded by the Congress and conducted during the past year. The 
National Guard trained 500 personnel as Certified CISM trainers, 
doubling the number of internationally certified and recognized 
trainers in the world. These CISM-qualified personnel are available to 
assist communities as well as their military organizations in time of 
need.
    We have been in close coordination with the Department of Defense 
to prepare an effective fielding plan to stand up the additional 23 WMD 
Civil Support Teams per Section 1403 of the fiscal year 2003 National 
Defense Authorization Act.
    I announced as part of my ``Transforming the Guard'' initiative, 
that the National Guard would organize itself as a truly joint 
organization beginning at the National Guard Bureau on July 1, 2003 and 
in the various states on October 1, 2003. It is the right thing to do 
for America and it is critical for the National Guard to ensure that we 
are fully capable of operating across the full spectrum--from the 
combat war fight, through Homeland Defense and Security, to responding 
to the governors in times of natural disaster or civil disturbance. 
Furthermore, this initiative will allow the National Guard to quickly 
and efficiently respond to the requirements of U.S. Northern Command 
either as the force provider and/or as the Joint Force Headquarters 
coordinating a follow-on federal military response.
    The second element of the transformation initiative is to leverage 
our existing war fight capabilities. We must leverage our existing 
structure and capabilities to ensure our forces are never late to need. 
We will task-organize 10 National Guard Chemical, Biological Incident 
Response Forces (NGCBIRF). The task forces will consist of a National 
Guard CST, an enhanced division medical company with 150 person per 
hour decontamination/treatment capability, an enhanced engineer company 
with specialized search and rescue equipment, and task-trained combat 
units capable of supporting law enforcement. These task forces will 
meet a previously identified NORTHCOM request for capabilities that are 
currently limited.
    We will expand National Guard involvement in Ground-based Mid-
course Missile Defense by including both the Army and Air Guard. We 
will build on the Nike Hercules Guard model and intend to include 
Traditional Guard members and M-day units. We will create National 
Guard Reaction Forces through dual missioning and training existing 
units. These units will be immediately available to state and federal 
governments, and for Homeland Security purposes are already forwarded 
deployed throughout the United States. The units will retain full war 
fight and homeland security capabilities. These forces will also meet a 
previously identified NORTHCOM request for available forces.

                      IMPROVED EFFICIENCIES AT NGB

    Question. What effort, if any, are you making to improve 
efficiencies at the National Guard Bureau to reduce redundancies and 
improve the response time in routine and crisis operations between 
State National Guard HQ's, OSD, Northern Command, and civil 
authorities?
    Answer. The transformation of the National Guard Bureau and the 
headquarters of each State National Guard to joint configuration is the 
first step to increasing efficiencies and reducing response times to 
the full spectrum of National Guard response requirements.
    The National Guard Bureau is currently increasing its ability to 
communicate directly with the Department of Defense, U.S. Northern 
Command, the State National Guard Headquarters, and the civil 
authorities at all levels.
    This is being achieved in two ways. We are reorganizing our 
communication and information systems to provide more timely, relevant 
information to those officials who have an immediate ``need to know''. 
This can range from the on-scene incident commanders to regional 
combatant commanders. Critical to the information flow is the soon to 
be formed Joint Force Headquarters-State, which will be able to rapidly 
facilitate information passing to and from first responders and other 
civil authorities within their states. This is a top priority at the 
National Guard Bureau and will be implemented in the coming months.
    Joint Forces Headquarters at the state level will provide NORTHCOM 
and other federal entities with capabilities that are currently not 
available. The Joint Force Headquarters will provide a seamless 
transition and escalation from the almost immediate response by 
National Guard forces to the later arrival of federal forces. This will 
provide for continuity of operations and full integration of federal 
military support in response to, and in support of, the emergency 
management, emergency response, and elected officials communities.

                            CHAIN OF COMMAND

    Question. Are you satisfied with the current reporting chain of 
command that requires you to report through the Air Force and Army 
Service Chiefs when raising an issue that requires the attention of the 
Secretary of Defense or the Chairman of the Joint Chiefs?
    Answer. The present Channel of Communications is an efficient and 
effective means of dealing with Service-specific issues. This has 
effectively produced a highly ready Army and Air National Guard force 
that has proven itself over and over again. However, since September 
11, 2001, the various National Guard in the states have become 
increasingly engaged in homeland security operations under the command 
and control of state governors. At the National Guard Bureau, we 
monitor these operations and facilitate access to equipment within and 
between states.
    The Commander U.S. Northern Command has expressed interest in being 
situationally aware of state operations and capabilities. The National 
Guard Bureau is working to help provide NORTHCOM with that awareness 
and to serve as a communication channel to the states as needed. Our 
on-going re-organization to a more fully joint staff reflects the 
National Guard's requirement to more effectively operate in the joint 
environment.
    There may be merit in studying the possible expansion of the 
National Guard Bureau's purpose by adding service as the Channel of 
Communications between the states and the Department of Defense and the 
Joint Chiefs of Staff. This would enhance the National Guard's 
capability to effectively work in this joint operational environment 
and capitalize on our on going transformation. Strengthening links with 
the Assistant Secretary of Defense for Homeland Security, and the 
commanders of U.S. Northern Command, U.S. Pacific Command, and U.S. 
Southern Command, would provide mutual benefits to those organizations 
as well as the states.

                                 ______
                                 
          Questions Submitted by Senator Kay Bailey Hutchison

                        TRANSFORMATION PROGRAMS

    Question. What are your key Transformation programs in the 2004 
budget request?
    Answer. The key Army National Guard (ARNG) transformational 
programs contained in this year's budget request include the fiscal 
year 2004 portion of Aviation Transformation and conversion of the 
Pennsylvania ARNG's 56th Brigade to a Stryker Brigade Combat Team 
(SBCT). The fiscal year 2004 portion of SBCT conversion is fully funded 
in the request, but Aviation Transformation is not. The 56th Brigade 
SBCT is programmed for Initial Operational Capability (IOC) in fiscal 
year 2010. The ARNG is looking at options to accelerate IOC to fiscal 
year 2008.
    There are several key Air National Guard (ANG) transformational 
programs funded in the fiscal year 2004 budget request: the ``blended' 
active Air Force/Air National Guard (ANG) JSTARS wing at Robins AFB, 
Georgia; the ANG support squadron to the Rivet Joint wing at Offutt 
AFB, Nebraska (it was formed from the Nebraska ANG's air refueling 
wing); and ongoing funding for the Washington ANG's 162nd Information 
Warfare Squadron at Bellingham, Washington, which was re-missioned from 
a ``sunset'' combat communications role.

                      TRICARE HEALTH CARE COVERAGE

    Question. What are your thoughts on extending TRICARE health care 
coverage to members and families of the National Guard on a cost-share 
basis? Would this provide a needed service to our Guardsmen? Would 
employers view it as an incentive to hire Guardsmen?
    Answer. In general, the National Guard supports extending health 
care coverage under TRICARE for Reserve Component members and families 
to improve medical readiness, recruitment, and retention. We believe it 
would be appropriate to extend this benefit to National Guard members 
as part of a more equitable compensation package that has become more 
compelling in light of increasing military commitments and operational 
tempo shared with the active component.
    Compared to the untenable costs of citizen-soldiers and citizen-
airmen being unfit to deploy, extending TRICARE coverage to all of our 
members would provide a cost-effective means of ensuring medical 
readiness. Providing health care coverage to those Reserve Component 
members who do not have private health insurance because it is not 
affordable would not be an entitlement as much as it would be a 
readiness issue. Furthermore, employers would definitely view this as 
an incentive to hire Reserve Component members, as it would provide a 
direct cost benefit.

                    SOLDIERS AND SAILORS RELIEF ACT

    Question. How well has the Soldiers' and Sailors' Relief Act 
supported your members and are there any improvements to the act you 
can suggest?
    Answer. In the past, the Soldiers' and Sailors' Civil Relief Act 
(SSCRA) did not support the National Guard as well as it could because 
the SSCRA only applied to National Guard members in Title 10 status. As 
a result, Guardsmen who provided security to the nation's airports 
following the events of September 11, 2001 were not eligible for SSCRA 
benefits because although requested by the President, they conducted 
operations under section 502(f) of Title 32. Last year's addition to 
the SSCRA to include members of the National Guard called to Active 
Duty at the Request of the President was a tremendous and appreciated 
improvement. It has helped many members of the National Guard who have 
been called to active duty.
    Additional considerations the Congress may wish to take up include: 
increasing rent protections for high cost areas; the ability to 
terminate car leases; protecting tuition and class standing for members 
who are college students; and lowering home mortgage interest rates to 
the prime, but no greater than 6 percent.
    H.R. 100, the Servicemembers Civil Relief Act, introduced in the 
House, proposes to revise the SSCRA and provides a new definition of 
servicemember, which is the term used to trigger many protections. If 
H.R. 100 moves forward, the definition of ``servicemember'' should be 
modified to include Army and Air National Guard members when acting 
under section 502(f) of Title 32, or the trigger for servicemember 
protections should be tied solely to the proposed definition of 
``military service''.

               EMPLOYER SUPPORT OF THE GUARD AND RESERVE

    Question. How can you recommend we better support the employers of 
our National Guard members?
    Answer. With the increased utilization of reserve component 
personnel, employers are being impacted more than ever. As a result, 
programs such as the Employer Support of the Guard and Reserve (ESGR) 
are key to our efforts in gaining and maintaining the support of our 
civilian employers. ESGR greatly assists civilian employers with their 
Guard and Reserve employees by providing information, rewarding them 
for their sacrifices, and if necessary, resolving disputes. 
Accordingly, Congress should support the continued resourcing of this 
important program.
    We conduct numerous employer symposiums during the course of the 
year and we hear from employers about their concerns. One way we can 
make a significant difference with the employers of our soldiers and 
airmen is by providing them advance notification (at least 30 days or 
more, if possible) of any mobilizations, and we are continuously 
working with the Services to allow sufficient prior planning. Small 
businesses are especially hard hit by mobilizations so more 
predictability would be very beneficial to them.

                                 ______
                                 
               Questions Submitted by Senator Tom Harkin

                          COUNTERDRUG SCHOOLS

    Question. This year the Iowa National Guard received $3.5 million 
to set up the fifth National Guard Counterdrug School (Mid-West 
Counterdrug Training Center) for training of law enforcement officers 
and community based personnel at Camp Dodge, Iowa. Utilizing existing 
facilities and National Guard personnel to administer the program, the 
Iowa Guard has begun to provide training by certified law enforcement 
personnel to thousands of officers in over ten states throughout the 
Midwest. In fiscal year 2004, MCTC needs $3.0 million to continue the 
training of thousands of law enforcement and community leaders, who 
currently have no training available in their areas. Could you describe 
the assistance and training the MCTC is providing to regional law 
enforcement to reduce drug trafficking in the Midwest, and the number 
of people being trained?
    Answer. The Midwest Counterdrug Training Center (MCTC) facilitates 
law enforcement and community-based organization training, with a drug 
nexus, by setting the conditions for training at Camp Dodge, Iowa, and 
through the use of mobile training teams as requested by the host state 
law enforcement agency. The yearly training calendar is established 
based on training requirements set by county sheriffs, police chiefs, 
and state patrol commanders primarily in the fifteen-state Northwest 
Counterdrug Region.
    In its first year, the MCTC has planned for thirty-three courses 
and nine training seminars. Our goal in the first year is to facilitate 
the training of 900 personnel. Indications are that MCTC will exceed 
the ``number trained'' goal by 600-700 personnel. MCTC's students 
represent thirty-three states and territories. Classes range from 
highway interdiction techniques and procedures to street-wise Spanish. 
MCTC facilitates Intelligence Analysts training with threat assessment 
instruction, ``follow-the-money'' techniques, and computer evidence 
recovery. Other courses include clandestine laboratory certification, 
highway drug investigations, and drug nexus interview and interrogation 
techniques.

                          COUNTERDRUG SCHOOLS

    Question. By utilizing existing facilities and manpower at Camp 
Dodge to support the community and law enforcement personnel, does this 
cause any decrease in the combat capability or readiness of any 
National Guard soldiers or airmen?
    Answer. No. In fact, we believe that it enhances readiness. There 
is no decrease in combat capability, readiness or availability as 
National Guard soldiers and airmen remain assigned to their units and 
are deployable as members of those units. Facilitating training for law 
enforcement through training centers, such as the Midwest Counterdrug 
Training Center (MCTC), does not affect any unit's deployable status or 
readiness posture. Soldiers and airmen who support MCTC are better 
prepared because they have already been medically screened to 
deployment standards, and are already in the Army's medical data banks.

                                 ______
                                 
       Questions Submitted to Lieutenant General Roger C. Schultz
              Questions Submitted by Senator Arlen Specter

          ARMY NATIONAL GUARD 56TH STRYKER BRIGADE COMBAT TEAM

    Question. General Schultz, I have been informed that the Secretary 
of Defense has reconsidered the planned transformation of the 
Pennsylvania Army National Guard's 56th Brigade to a Stryker Brigade 
Combat Team, a unit which is currently ahead of schedule and doing 
well. Failure to continue the transformation, a process already well 
under way, will have great consequences and would be detrimental to the 
Army, the Pennsylvania Army National Guard, and to the Commonwealth of 
Pennsylvania. With this in mind, do you not believe that implementing 
the Secretary of Defense's plan to scrap the first transformational 
Army unit in the National Guard would degrade the modernization of the 
Guard and Reserve Components by not including them in the early phases 
of the SBCT program?
    Answer. The 56th Brigade conversion to become a Stryker Brigade 
Combat Team is on schedule. It has been our intent from the beginning 
to transform Army National Guard units. Plans are on schedule to field 
the brigade in its new design. The Army Guard is fully capable and 
prepared to modernize units across our formations. The 56th Brigade is 
leading the way in our efforts to modernize Guard units. The Army's 
efforts to modernize include the Guard. Any delays to the current 
schedule will degrade our ability to accomplish the emerging mission we 
are currently assigned. It has been my recommendation to proceed with 
fielding the Stryker Brigade Combat Team in the 28th Infantry Division.
    Question. Is it possible that transformation of the Guard and 
Reserve may produce different results than transformation of active 
units?
    Answer. No. The 56th Brigade will provide the Army with the same 
organization, structure and capability as an AC SBCT. It will provide a 
modernized combat brigade that is quickly deployable, lethal, 
survivable and have the ability to operate in a joint environment.
    Question. What impact will exclusion of the transformation of the 
Guard's 56th Brigade have on readiness?
    Answer. In the short term, readiness will remain status quo in the 
56th Brigade and the Army National Guard. However, the lack of modern 
equipment and systems that are programmed to accompany a SBCT would 
mean that the Army National Guard would not receive some of the newest 
systems and the new equipment training associated with the fielding of 
these systems. The 56th Brigade, and the other divisional maneuver 
brigades are not equipped with the same modern systems found the active 
army, and are short major equipment such as tactical wheeled vehicles. 
The SBCT is programmed to be fielded with the latest equipment and be 
filled to 100 percent of the authorized amount.

                FUTURE FIXED WING AVIATION REQUIREMENTS

    Question. I understand that the Army National Guard forwarded a 
study in July 2001 to the Committee on Appropriations that identified 
future fixed wing aviation requirements to support and sustain planned 
missions such as weapons of mass destruction and national missile 
defense.
    Answer. To develop the 2001 response, and answer the Appropriations 
Committee's inquiry on fixed wing requirements to support weapons of 
mass destruction and national missile defense, the Army National Guard 
thoroughly reviewed the minimum fixed wing cargo capabilities required 
by the approved Fixed Wing Investment Strategy (FWIS) dated August 
1993. The FWIS's minimum required FW cargo aircraft capabilities were 
compared to those necessary to adequately support weapons of mass 
destruction and national missile defense efforts. The overall finding 
of the Congressional response demonstrated the Army National Guard 
requires an improved fixed wing cargo aircraft, with the minimum 
required capabilities defined in the Army's FWIS in order to support 
both weapons of mass destruction and national missile defense mission 
requirements. The Army has developed a new FW requirements document 
called The Fixed Wing Operational and Organizational Plan. This TRADOC 
and G3 approved document maintains the same minimum FW cargo aircraft 
requirements that were defined in the in the FWIS with some additional 
mandates.

                       C-23 SHERPA CARGO AIRCRAFT

    Question. Have you determined whether the C-23 Sherpa cargo 
aircraft currently operated by the Army National Guard can perform the 
missions identified in the Army National Guard Fixed Wing Study?
    Answer. The C-23 Sherpa does not meet any of the minimum required 
capabilities defined in the Army's Fixed Wing Operational and 
Organizational Plan. The C-23 does not adequately support mission 
requirements for weapons of mass destruction or national missile 
defense.
    Question. If you have determined that the C-23's performance 
limitations necessitate the procurement of a future aircraft capable of 
meeting projected mission requirements, please indicate whether you 
have identified such an aircraft.
    Answer. There are a few commercial off the shelf (COTS) fixed wing 
cargo aircraft available which are able to fully meet the Army's stated 
minimum performance requirements as well as meeting those critical 
mission requirements in support of homeland security and national 
missile defense. The Army National Guard does not have a research and 
development staff to specifically identify or provide the name of an 
aircraft that meets both the Army's mission demands and homeland 
security.
    Question. If you have, in fact, identified an aircraft that can 
better support the projected mission requirements identified in the 
July 2001 study, please state the funding level that would be required 
to support its initial procurement in fiscal year 2004.
    Answer. Shortly after the completion of the Congressional response, 
the National Guard general staff received an unsolicited bid for 44 
cargo aircraft that fully met all of the Army's minimum required cargo 
aircraft performance parameters. The unsolicited bid was for 
approximately $3.0 billion. As indicated in the bid, this cost included 
the complete life cycle funding, flying hours and maintenance for the 
44 aircraft over a 25 year period. It is not known if the bid and the 
offer are still valid or accurate for today's dollars.

                                 ______
                                 
            Questions Submitted by Senator Daniel K. Inouye

                       C-23 SHERPA CARGO AIRCRAFT

    Question. The C-23 Sherpa, the Army's medium cargo fixed wing 
aircraft, experienced some shortfalls during operations in Iraq, 
including limitations for flight into icy conditions, lack of short 
takeoff and landing capability, and poor performance in high/hot 
conditions, lack of short takeoff and landing capability, and poor 
performance in high/hot locations. Does the Army National Guard have 
any plans to modernize or replace the C-23s?
    Answer. The C-23 was originally designed as a short distance 
commuter aircraft. As the Army's only tactical fixed wing cargo 
aircraft it has all of the performance limitations mentioned and more. 
The C-23 does not meet any of the Army's minimum cargo aircraft 
performance parameters as defined in the Fixed Wing Operational and 
Organizational Plan. The modernization of the Army National Guard C-23 
fixed wing aircraft is tied to Army modernization and funding. 
Currently, the Army has a small amount of money identified in the 
fiscal year 2009 time frame to look at a possible replacement FW cargo 
aircraft.

                    C-27J SPARTAN TACTICAL AIRCRAFT

    Question. Would the C-27J Spartan tactical lift aircraft provide a 
more capable alternative?
    Answer. The C-27J Spartan was designed and built as a tactical 
support aircraft. From what I understand, its capabilities meet all of 
the Army's stated minimum performance requirements and would greatly 
increase the Army National Guard's ability to perform its Federal and 
State missions including homeland security and national missile 
defense.

                                Reserves

STATEMENTS OF:
        LIEUTENANT GENERAL JAMES R. HELMLY, CHIEF, ARMY RESERVE
        VICE ADMIRAL JOHN B. TOTUSHEK, CHIEF, NAVAL RESERVE
        LIEUTENANT GENERAL DENNIS M. McCARTHY, CHIEF, MARINE FORCES 
            RESERVE
        LIEUTENANT GENERAL JAMES E. SHERRARD III, CHIEF, AIR FORCE 
            RESERVE

    Senator Stevens. We'll now call for the commanders of the 
Reserve forces to join us today. We have with us today 
Lieutenant General James Helmly, Chief of the Army Reserve, 
Vice Admiral John Totushek, Chief of the Naval Reserve, 
Lieutenant General Dennis McCarthy, Chief of the Marine Force 
Reserve, Lieutenant General Sherrard, Chief of the Air Force 
Reserve.
    I'm told that it would be proper for me to extend to you, 
Admiral, a bravo zulu. Well done. We understand this is your 
last appearance before us. We certainly wish you well in all 
your endeavors, and thank you for your service to our country.
    I assume the best way to proceed would be just in the order 
that I read the names, if that's agreeable, so we'll start with 
General Helmly, Chief of the Army Reserve.
    General Helmly. Thank you, Mr. Chairman, members of this 
distinguished subcommittee. I thank you again for the 
opportunity and the privilege to testify on behalf of the 
205,000 soldiers, 11,000 civilian employees, and their family 
members, all members of the United States Army Reserve.
    Today, as we speak, over 68,000 Army Reserve soldiers are 
mobilized throughout the world in America's global war on 
terrorism. They serve alongside their Army National Guard and 
active component counterparts courageously, skillfully, and 
proudly. These modern-day patriots have willingly answered the 
call to duty to perform the missions they've trained for and to 
honor their commitment as an indispensable component of the 
world's finest ground force, the United States Army.
    This committee, through its dedicated support of the 
soldiers in the Army Reserve has played a major and integral 
part in increasing the relevance and, indeed, strengthening the 
readiness of today's Army Reserve. Your concern, witnessed here 
today, for our people, our most precious resource, who dedicate 
a significant part of their lives to defending our Nation, in 
addition to honoring commitments to employers and families, as 
well as their communities, is evidenced by your invitation to 
review the present state of the Army Reserve. Thank you for 
that.
    One of our units, the 459th Multirole Bridge Company, based 
in Bridgeport, West Virginia, is a unit so honoring their 
commitment. This unit of 172 soldiers supported fact, the First 
Marine Expeditionary Force and similar to traveled first with 
the Marine Recon Battalion so that they could bridge the 
various rivers en route to Baghdad. This unit fought as 
infantry in a Marines firefight in al-Nasariya. One of the 
soldiers, a noncommissioned officer, Sergeant Paul Abernathy, 
remarked upon leaving al-Nasariya, we all signed up knowing 
that we might have to go do this. Now that we're here, you have 
to keep in mind this is our job as soldiers. We came to fight 
and win.
    I might add that they were proud to serve with the United 
States Marine Corps in this operation. It shows that we fight 
not only intracomponent, but also jointly amongst all the 
components, and with combined forces. But excelling in current 
missions is not sufficient by itself. It is also necessary that 
we concurrently confront today's challenges while preparing for 
tomorrow's.
    The Army must at all times maintain its nonnegotiable 
contract to fight and win the Nation's wars as we concurrently 
transform to become more strategically responsive and dominant 
across the spectrum of military operations. The concurrence of 
these dual challenges, transforming our force while fighting, 
winning, and preparing for today's wars, is the crux of our 
challenge today, transforming while concurrently at war.
    Today's war has mobilized 35.4 percent of the United States 
Army Reserve. That is far higher than the 27 percent of the 
Army Reserve mobilized for Operation Desert Shield/Desert 
Storm. Since 1996, we have averaged 9,265 Army Reserve soldiers 
mobilized annually. On December 31, 2002, we had approximately 
9,900 Army Reserve soldiers mobilized. Three months later we 
had over 69,000 mobilized. That is a vertical spike of 
unprecedented proportions in terms of the speed. You have 
alluded to that this morning.
    Since September 11, 2001, our world has changed 
drastically. The very nature of this global war on terrorism, 
long duration, very fluid and volatile at various places and 
times around the world, dictates that in fact major changes are 
required to practices, procedures, and policies related to how 
we organize, man, train, compensate, and mobilize for use the 
soldiers of the Army Reserve.
    What was once a force in Reserve has now become a full 
partner, indeed almost an auxiliary force, of the Army across 
the spectrum of operations needed to satisfy the demand and 
need for highly skilled, specialized soldiers and units. Our 
ability to remain relevant and responsive depends on the 
interoperability and condition of our equipment but principally 
and foremost on the training, readiness, and support welfare of 
our soldiers.
    We're grateful to the Congress and the Nation for 
supporting the Army Reserve and the centerpiece of our 
formations, our soldiers, the sons and daughters of America. I 
cannot in words express how very proud I am of our soldiers, as 
well as their families. They are in the hearts and prayers of a 
grateful Nation, and they will stay there until the job that we 
have come to finish is at hand.

                           PREPARED STATEMENT

    Thank you again, sir, for the opportunity to appear before 
you and the distinguished members of this subcommittee this 
morning, and I look forward to addressing any questions that 
you may have.
    [The statement follows:]

        Prepared Statement of Lieutenant General James R. Helmly

                              INTRODUCTION

    Mr. Chairman, members of this distinguished subcommittee, thank you 
for the opportunity and the privilege to testify on behalf of the 
205,000 soldiers, 11,150 civilian employees, and their family members 
of the United States Army Reserve.
    Today, over 69,000 Army Reserve soldiers are mobilized in America's 
Global War on Terrorism, serving courageously and proudly around the 
world. These modern day patriots have willingly answered the call to 
duty to perform the missions they have trained for and to honor their 
commitment as part of a responsive and relevant force, an indispensable 
component of the world's finest ground force, the United States Army.
    This committee, through its dedicated support of the soldiers in 
the Army Reserve, has played a major part in increasing the relevance 
and strengthening the readiness of the Army Reserve. Your concern for 
the reserve soldier and employee who dedicates a significant part of 
his or her life to defending our nation, in addition to honoring 
commitments to employers and families, is evidenced by your invitation 
to review the present state of the United States Army Reserve. I am 
honored by that opportunity.
    The occasion to testify before this subcommittee comes at a time of 
profound importance and immense change in our nation's security 
environment, as well as dynamic change in the international political 
landscape and unprecedented improvements in technology that add 
significantly to both friendly and enemy military capabilities. We are 
engaged with a wily, determined enemy, intent on destroying our very 
way of life; confronting regional powers and potential use of weapons 
of mass destruction at home and abroad; and struggling with the 
challenges of how to secure our homeland while preserving our precious 
rights and freedoms. It is within this very challenging environment 
that the Army Reserve serves with excellence today.
    Excelling in current missions is not sufficient by itself. It is 
necessary that we concurrently confront today's challenges while 
preparing for tomorrow's. The Army must maintain its non-negotiable 
contract to fight and win the nation's wars as we concurrently 
transform to become more strategically responsive and dominant at every 
point on the spectrum of military operations. The concurrence of these 
dual challenges, transforming our force while fighting, winning, and 
preparing for other wars, is the crux of our challenge today--
transforming while at war.
    This is my first opportunity to address this subcommittee as the 
Chief, Army Reserve. I am humbled and sobered by the responsibility 
bestowed to me. The Army Reserve is an organization that demonstrates 
its ability to be a full and equal partner, along with the Active 
Component of the Army and the Army National Guard, in being the most 
responsive dominant ground force the world has seen.
    The strength and goodness we bring to that partnership is drawn 
from the people who serve in our formations. The Army Reserve is the 
most ethnically and gender diverse force of all the armed services. 
Overall, ninety-two percent of our force holds high school diplomas. 
Our force consists of individuals who are community and industry 
leaders, highly trained and educated professionals, experts in their 
chosen field who give of their time and expertise to serve our nation.
    The Army Reserve has been in a continuous state of mobilization 
since December of 1995. Prior to that, our contributions to Desert 
Shield/Desert Storm numbered over 84,000 soldiers. The Army Reserve 
also mobilized over 2,000 soldiers in support of Operation Uphold 
Democracy in Haiti. Since 1996, the average number of soldiers 
mobilized has been 9,265 soldiers per year. Our soldiers are part of 
the rotational forces that are keeping the peace in Eastern Europe. 
Military police, medical and public affairs soldiers provide ongoing 
capabilities in Operation Joint Endeavor and Operation Joint Guardian 
in Bosnia and Kosovo. The depth of the current mobilization reflects a 
higher percentage of the force since Desert Shield/Desert Storm and 
still our soldiers are raising their hands to re-enlist in the Army 
Reserve, making our enlisted troop retention rates the best they have 
been since 1992.
    The attacks of September 11th intensified the pace of operations. 
Within hours of those attacks, the Army Reserve deployed a mortuary 
affairs company from Puerto Rico--a company that ten years earlier 
performed its mission with distinction in Desert Shield/Desert Storm--
to deploy to the Pentagon to assist with searching and recovering the 
remains of the victims of the attack. They proved to be so invaluable 
to the recovery efforts that they did not return to their homes until 
September of 2002, after cataloging not only all of the personal 
effects of the dead but items from the Pentagon as well. It is worth 
noting that we prepared and deployed the unit in advance of a 
Presidential declaration of mobilization on Army Reserve training 
orders. To those who question the Army Reserve's ability to respond 
rapidly and completely to dynamic short notice missions, we are pleased 
to provide the 311th Mortuary Affairs Company's responsiveness as a 
case study. There are numerous other, similar examples as well.
    In downtown Manhattan, Army Reserve soldiers were also assisting 
with the recovery efforts after the attack on the World Trade Center. 
Emergency Preparedness Liaison Officers were on site shortly after the 
attack to assist with rescue and later, recovery efforts. Army Reserve 
units provided equipment, Army Reserve center space and other 
logistical support throughout the days and months that followed. 
Similarly, these responses were in advance of formal mobilization.
    This Global War on Terrorism is unique for Americans because its 
battlefronts include not only far-off places like Afghanistan and the 
Philippines but our own homeland. What was once a ``force in reserve'' 
has become a full partner across the spectrum of operations to satisfy 
the demand and need for Army Reserve soldiers and units around the 
world. Wherever the Army committed forces in the world--Afghanistan, 
Uzbekistan, Pakistan, the Philippines, Kuwait, Iraq and here at home--
Army Reserve soldiers are an integral part, providing critical 
specialized capabilities and augmentation.
    In the time that has followed those days, our military has been 
engaged in fighting the Global War on Terrorism around the world. 
Operation Anaconda in Afghanistan seriously impaired Al Qaeda's ability 
to continue to spread terror and ousted the Taliban. Civil Affairs 
units consisting of Army Reserve soldiers who possess civilian acquired 
and sustained skills in the fields of engineering, city planning, and 
education were deployed to the region to lead in establishing a free, 
functioning society. Numerous new schools were built and medical aid 
offered to the people of Afghanistan. These soldiers represent the 
goodwill and interests of the American people with every classroom they 
build and every skill they teach, every functioning society capability 
they help create, and every contact they make with the native 
population. And they are doing an incredible job.
    But despite the clear relevance and strength demonstrated by the 
aforementioned examples, we are, as an institution not without our 
challenges. It is necessary that we not only transform the institution, 
but we must also resource our requirements and transform the 
institution to even higher levels of readiness, responsiveness and 
capabilities. These resourcing requirements include recruiting and 
retention, family programs, information technology, anti-terrorism and 
force protection, equipment procurement and modernization, and facility 
revitalization.

                        RECRUITING AND RETENTION

    Recruiting and retention is an area of the highest importance to 
the Army Reserve and a volunteer force. Our responsibilities require 
the best soldiers America can provide. In this regard, we are most 
appreciative of the help your subcommittee has provided us. We would be 
remiss if we did not thank you for the attention you have paid to our 
recruiting needs in recent legislation. With your help we have met our 
recruiting mission for three straight years from 2000 to 2002. In 
fiscal year 2003, however, we are 213 accessions short of expected 
year-to-date mission. While cause for concern, I am not alarmed over 
this because we are at 102 percent strength.
    Although generally successful in overall mission numbers, we 
continue to experience difficulty in attracting and retaining qualified 
individuals in certain critical wartime specialties, particularly 
within the Army Medical Department. Your continued support on behalf of 
recruiting and retention incentives, allowing for innovative readiness 
training and the funding of continuing health and educational 
opportunities will help us with this difficult task.
    The Army Reserve, in partnership with the United States Army 
Accessions Command, conducted a thorough review of Army Reserve 
recruiting. This review has helped us forge a stronger relationship 
with the Accessions Command and has streamlined our processes to 
support the symbiotic relationship between recruiting and retention. To 
that end, we will seek to ensure that all Army Reserve soldiers are 
involved in recruiting and retention activities--we all are a part of 
the Army's accessions efforts. We are removing mission distracters 
allowing the Accessions Command to focus on their core competency of 
recruiting non-prior service applicants; we are focusing on life cycle 
personnel management for all categories of Army Reserve soldiers and 
our retention program seeks to reduce attrition, thereby improving 
readiness and reducing recruiting missions.
    During 2003, the responsibility for the entire prior service 
mission will transfer from the Accessions Command to the Army Reserve. 
Tenets of this transfer include: establishment of career crosswalk 
opportunities between recruiters and retention transition NCOs; 
localized recruiting, retention and transition support at Army Reserve 
units and increased commander awareness and involvement in recruiting 
and retention efforts.
    To support recruiting and retention, the Army Reserve relies on 
non-prior service and prior service enlistment bonuses, the Montgomery 
GI Bill Kicker and the Student Loan Repayment Program in combinations 
that attract soldiers to fill critical MOS and priority unit shortages. 
The Army Reserve must be able to provide a variety of enlistment and 
retention incentives, for both officer and enlisted personnel, in order 
to attract and retain quality soldiers. Fully funded incentive programs 
must be available to ensure success in attaining recruiting goals and 
maintaining critical shortages and skills.
    Our retention program is a success. Faced with an enlisted 
attrition rate of 37.5 percent at the end of fiscal year 1997, we 
adopted a corporate approach to retaining quality soldiers. Retention 
management was an internal staff responsibility before fiscal year 
1998. In a mostly mechanical approach to personnel management, strength 
managers simply calculated gains and losses and maintained volumes of 
statistical data. Unfortunately, this approach did nothing to focus 
commanders on their responsibility of retaining their most precious 
resource--our soldiers.
    The Army Reserve developed the Commander's Retention Program to 
correct this shortcoming. A crucial tenet of this program places 
responsibility and accountability for retention with commanders at 
every level of the organization. Commanders now have a direct mission 
to retain their soldiers and must develop annual retention plans. 
Additionally, first line leaders must ensure all soldiers are 
sponsored, receive delivery on promises made to them, and are provided 
quality training. In this way, the Commander's Retention Program 
ensures accountability because it establishes methods and standards and 
provides a means to measure and evaluate every commander's performance. 
Since the introduction of the Commander's Retention Program, the Army 
Reserve has reduced enlisted Troop Program Unit attrition by nearly 
nine percentage points. The enlisted attrition rate in fiscal year 2002 
was 27 percent. Current projection for fiscal year 2003 is an increase 
of 28.6 percent, due to projected demobilization, the Commander's 
Retention Program, and increased retirements.
    The Army Reserve is experiencing a 4,200 company grade officer 
shortfall. Retention goals focus commanders and first line leaders on 
junior officers. The establishment of a sound leader development 
program is a cornerstone of Army Reserve Transformation. Providing 
young leaders the opportunity for school training and practiced 
leadership will retain these officers. A transformed assignment policy 
will enhance promotion and leader development. Increased Army Reserve 
involvement in transitioning officers from active duty directly into 
Army Reserve units will keep young officers interested in continuing 
their Army career. Allowing managed flexibility during their transition 
to civilian life will be a win for the Army and the officer.
    Overall, the Army Reserve successfully accomplished the fiscal year 
2002 recruiting mission while achieving the Department of the Army and 
Department of Defense quality marks. This year our enlisted recruiting 
mission will stabilize at approximately 20,000 non-prior service due to 
the success of our retention efforts. The accomplishment of the 
recruiting mission will demand a large investment in time on the part 
of our commander's, our retention NCOs, and our recruiters as they are 
personally involved in attracting the young people in their communities 
to their units.
    However, the same environmental pressures that make non-prior 
service recruiting and retention difficult affect prior service 
accessions. With the defense drawdown we have seen a corresponding 
decrease in the available prior service market in the Individual Ready 
Reserve. This impacts Army training costs, due to the increased 
reliance on the non-prior service market, and an overall loss of 
knowledge and experience when soldiers are not transitioned to the Army 
Reserve. Consequently, the Army Reserve's future ability to recruit and 
retain quality soldiers will continue to be critically dependent on 
maintaining competitive compensation and benefits.
    Special attention needs to be placed on the recruiting budget, for 
advertising, to meet our requirements in the next several years. Young 
people of today need to be made aware of the unique opportunities 
available in the different military components. The best way to get 
this message out is to advertise through the mass media. Funding our 
critical advertising needs is imperative if we are to be honestly 
expected to meet our recruiting goals. Your continued support of our 
efforts to recruit and retain quality soldiers is essential if we are 
to be successful.

Family Programs
    Family programs provide invaluable family assistance during 
peacetime and mobilization, to include training for family program 
directors and volunteers in support of family readiness activities. 
These volunteers and contract employees provide information referral 
and outreach to family members and deployed soldiers. Within this 
system are twenty-five contractors serving in Family Program Director 
positions whose duties include aiding in promoting families' awareness 
of benefits and entitlements, orienting family members to Army Reserve 
systems, programs, and way of life. These directors also assist in the 
deployment of unit Family Readiness Groups during peacetime and 
deployment.
    In preparation for mobilization deployment, these volunteers and 
service members provide an extensive briefing for both families as well 
as members. These family services include briefings by members of the 
Chaplains Corps who explain what happens to spouses or families upon 
separation. We also provide briefings when the service member returns 
and coach the family members to expect changes upon the soldier's 
return to home.
    During Desert Shield/Desert Storm Army Reserve family readiness 
programs were sparse. Today, these programs are extensive, and they are 
working to provide refuge and support network for our families. We have 
been able to meet the needs of our deployed soldiers of which about 
4,000 Army Reserve soldiers are on a second consecutive year of 
mobilization. We are anticipating challenges in the future.

Information Technology
            Network Service/Data Center
    The Army Reserve is redesigning its information technology 
infrastructure to support the Global War on Terrorism and greatly 
increase the survivability of our information technology infrastructure 
in the event of a cyber or physical attack. This redesigned 
infrastructure will establish a network service/data center which 
supports the Continental United States. A robust provision of network 
defense for protection at the consolidated and interconnected sites 
will be integral to the redesign and creation of the network service/
data centers.
    Our plan to establish a Reserve component network and data center 
would give the Army Reserve the capability to manage dissemination of 
information supporting command and control concerning mobilization, 
training and overall data exchange as well as Joint and Army wide 
information technology systems.

            Secure Communications
    Secure communications ensures the protection and sustainment of the 
Army Reserve's information and information systems during peacetime, 
war and national emergencies. The geographic dispersion of the Army 
Reserve makes telecommunication services the primary means of 
conducting command and control, mobilization timelines, training data 
exchange, and ``reach back'' capabilities in support of the combatant 
commands. The Army Reserve is challenged to expand applications and 
service demands, increased security requirements and increased network 
capability to ensure throughput and reliable connectivity.
    With this redesign, the Army Reserve would have the technological 
capability to sustain existing Army systems or field any new Army 
systems to meet readiness requirements, manage timely dissemination of 
information supporting command and control in the areas of 
mobilization, training, and overall data exchange.

Antiterrorism and Force Protection
    Security and preparedness to meet the known and unknown threats 
facing Army Reserve installation and facilities worldwide are an 
integrated set of three distinct programs: Antiterrorism, Force 
Protection, and Installation Preparedness.
    Antiterrorism is the foundation of the overall Force Protection 
program within the Army Reserve. It assesses vulnerabilities at stand 
alone facilities and Army Reserve installations.
    Force Protection programs correct, upgrade, and repair facilities 
in accordance with Department of Defense Antiterrorism and Force 
Protection construction standards. This program also determines the 
level of access to installations and facilities within the Army 
Reserve.
    Installation Preparedness concentrates on training and equipment 
for first responders such as fire, police and emergency services to 
weapons of mass destruction incidents near or at Army Reserve 
installations and facilities.
    The Army Reserve is challenged with its existing military and 
civilian manpower structure as well with its capability to adequately 
plan, execute and assess this real world critical program at all 
levels. Therefore, we must expand contract requirements for 
antiterrorism vulnerability assessments, exercise planning, and 
training for the entire Army Reserve.
    Currently, the Army Reserve is able to restrict access to its 
installations, but sustainment of access control combined with 
additional security requirements since the Global War on Terror has 
become a challenge. Funding of these programs will allow the Army 
Reserve to meet security and preparedness for threats facing Army 
Reserve installation and facilities worldwide.

Equipment procurement and modernization
    Increasing demands placed on the Army Reserve highlight the 
importance of equipment that is mission-essential. In addition, the 
increased use of Reserve forces in operational missions and the Global 
War on Terrorism has highlighted the importance of having compatible 
and modern equipment. In order for our soldiers to be able to 
seamlessly integrate on the battlefield, our equipment must be 
operationally and technically compatible. Without complete 
interoperability, the ability of the Army Reserve to accomplish its 
Combat Support and Combat Service Support missions would be diminished.
    Combat support and combat service support transformation is a vital 
link to the Army Transformation Plan. The Army Reserve is the main 
provider of this capability for the Army and the Army must continue to 
modernize the Reserve components along a timeline that ensures the 
Reserve components remain interoperable and compatible with the Active 
component.
    Equipment modernization of the Army Reserve is indispensable in 
meeting the goals of the Army's Transformation Campaign Plan. Full 
integration into the Army's modernization plan to implement force 
interoperability enables our units to deliver required Combat Service 
and Combat Service Support ensuring our Army's operational success.
    In the Army's Combat Service and Combat Service Support 
Transformation Plan, key enablers are identified to meet the deployment 
vision outlined by the CSA. These enablers help to reduce the Army's 
Combat Service and Combat Service Support Demand on Lift and Logistical 
Footprint requirements while increasing strategic responsiveness. To 
reduce the Combat Service and Combat Service Support Demand on Lift and 
Footprint, investments are required in the appropriate Army Reserve 
Combat Service and Combat Service Support Enablers.
    The Army Reserve has 20 percent of Combat Support and 47 percent of 
the Combat Service Support requirements in the Army. We must have these 
enablers on hand to support the Army's Combat Service and Combat 
Service Support Transformation Strategy.

Facility revitalization
    The Army Reserve installation community proudly sustains two of the 
Army's major installations and 12 Regional Support Commands. These 
regional commands function as ``virtual installations'' with facilities 
in 1,300 communities across all 50 states, most United States 
territories, and in Europe.
    Our primary facilities, Army Reserve centers, are prominent symbols 
of The Army on ``Main Street America''. They often create the very 
first impressions of the entire Army and present a permanent 
``billboard'' for all Americans to see. Unfortunately, most Army 
Reserve facilities consist of 1950's era structures that remain 
virtually the same as when they were constructed. They are sorely in 
need of modernization or, as in most cases, replacement.
    Army Reserve soldiers train in widely dispersed reserve centers and 
support facilities worldwide that use 45 million square feet. This 
equates to more square footage than Forts Hood, Sill and Belvoir 
combined. Our facilities experience the same type of challenges active 
Army posts do. The impacts of poor facility conditions are even more 
acute for our soldiers. Overcrowded, inadequate and poorly maintained 
facilities seriously degrade our ability to train and sustain units as 
well as decay soldier morale and esprit de corps.

Transformation
    Clearly, our priorities and the way we approach national security 
changed. We must and will win the war on Terrorism. But the nature of 
this war dictates that major changes are required to practices, 
procedures and policies relating to use of our force. The processes and 
policies in place were designed for a different time and a different 
type of war than we are engaged in today. As a result, some have 
challenged our ability to respond early in a contingency operation, and 
to sustain continuous mobilization while continuing to attract and 
retain quality young men and women such as the ones who currently 
populate our force. I challenge this assertion.
    The Army Reserve is preparing changes to training, readiness and 
policies, practices and procedures. We are restructuring how we train 
and grow leaders within the Army Reserve by establishing a Trainee, 
Transient, Holdee, and Student Account, much like the Active Army, to 
manage our force more effectively. We are preparing implementation 
plans for the continuum of service concept recently proposed by the 
Office of the Secretary of Defense that would allow ease of movement 
between Army components as dictated not only by the needs of the Army 
but also by what is best for the soldier developmentally and 
educationally. We are excited by the potential of such proposals.
    A challenge to realizing the capabilities and potential of our 
highly skilled, loyal and sacrificing soldiers is a antiquated Cold-War 
era mobilization process. The nation's existing mobilization process is 
designed to support a linear, gradual build-up of large numbers of 
forces and equipment and expansion of the industrial base over time. It 
follows a construct of war plans for various threat-based scenarios. It 
was designed for a world that no longer exists. Today, multiple, 
operational requirements, unclear, uncertain, and dynamic alliances and 
the need for agile, swift, and decisive combat power, forward presence 
in more responsive ways, and smaller-scale contingency operations, 
demand a fundamentally different approach to the design, use, and 
rotation of the Army Reserve. Rather than a ``force in reserve'', it 
has become and serves more as a force of discreet specialized, skill 
rich capabilities and a building block for teams and units of 
capabilities, all essential to force generation and sustainment. The 
process to access and employ these forces must be streamlined, 
flexible, and responsive to the President and Nation's needs yet 
considerate and supportive of the soldier, family and civilian 
employer.
    There is an ongoing debate concerning the wisdom of reliance on the 
nation's Reserve components both for operations of a smaller scale 
nature, such as the Balkans rotations and early reliance in the opening 
phases of a contingency operation. Only thirty-three percent of the 
Army Reserve troop strength is currently mobilized. But raw troop 
strength numbers are not an accurate indication. Often, Army Reserve 
capabilities in Civil Affairs and Medical support are cited as but two 
of many examples of over reliance on the reserve components. There are 
specific types of units that have been used more than others. The 
demand for certain type units to meet the mission requirements of the 
Global War on Terrorism is higher in some more than others. Military 
Police, Civil Affairs, Military Intelligence, Transportation and 
Biological Detection and Surveillance capabilities are the highest in 
utilization. As an example, the Biological Detection and Surveillance 
units consist of one Active component unit and one Army Reserve unit. 
The Army Reserve unit has mobilized five times since 1997 and is 
currently in their second year of mobilization. A second Army Reserve 
unit will be organized this month and is prepared to mobilize by the 
fall of this year. There are future plans for additional such units in 
both the Army Reserve and the active component. This is but one example 
of a high demand, low density unit. Currently, 313 Standard Requirement 
Codes (types of units) are exclusively in the Army Reserve. The Army 
Reserve has been able to meet the challenges to date with this 
structure but clearly the structure requires change to meet the 
continuing demand for these skill rich capabilities which are more 
practical to sustain in a reserve component force.
    The Army Reserve has been transforming its force since 1993 when it 
reorganized to produce a smaller, more efficient and effective 
structure. Our overall strength was reduced by 114,000 soldiers, or 
thirty-six percent, leaving us with a 205,000 soldier end strength 
today. In our transformation from a Legacy Force Army Reserve (or a 
Cold War Force) to an Interim Force, we are poised to put changes in 
place that will keep us moving on the path of transformation to the 
Objective Force. In the 1990s, we cut the number of our Army Reserve 
Commands by more than half and re-invested that structure into 
capabilities such as medical and garrison support units as well as 
Joint Reserve Units. We reduced the number of our training formations 
by 41 percent and streamlined our training divisions to better meet the 
needs of the Army and its soldiers. Our transformation journey actually 
began ten years ago and is accelerating rapidly today.
    Changing the way we mobilize starts with changing the way we 
prepare for mobilization. The current process is to alert a unit for 
mobilization, conduct the administrative readiness portion at home 
station and then send the unit to the mobilization station for further 
administrative and logistical preparedness and to train for deployment. 
This process, alert-mobilize-train-deploy, while successful in Desert 
Shield/Desert Storm, today inhibits responsiveness. By changing to 
train-alert-deploy, and performing the administrative and logistical 
requirements prior to mobilization, we will reduce the time needed to 
bring a unit to a campaign quality level needed for operations.
    The Army Reserve is the nation's repository of experience, 
expertise and vision regarding soldier and unit mobilization. We do 
have forces capable of mobilizing in twenty-four hours and moving to 
the mobilization station within forty-eight hours, as we did in 
response to September 11th. This demonstration of quick and precise 
mobilization ability will become institutionalized in the processes and 
systems of the future and give our forces the ability to mobilize 
rapidly and smoothly. We will overcome challenges posed by units manned 
with untrained soldiers through initiatives that strengthen soldier 
readiness and leader development.
    While changing industrial age mobilization and personnel training 
and development policies is necessary, restructuring our force so that 
we can implement predictable and sustainable rotations based upon depth 
in capability is also necessary. Predictable and sustainable 
utilization is a key factor in soldier, family, and civilian employer 
support. One of the goals of transforming our force is to change 
policies that are harmful to soldiers and families. Predictable 
rotation schedules will allow the Army Reserve to continue to be a 
value-added source of skill rich capabilities for small-scale 
contingency conflicts and follow-on operations. It will provide our 
units with operational experience; provide a sense of fulfillment for 
our soldiers; impart a sense of predictability for our soldiers and 
evens out the work load across the force. We must begin now to 
implement new strategies to build a force with rotational capabilities.

Individual Augmentee Program
    Under the current Army posture, there is a growing need to 
establish a capability-based pool of individual soldiers across a range 
of specialties who are readily available, organized, and trained for 
mobilization and deployment as Individual Augmentees. In spite of 
numerous force structure initiatives designed to man early deploying 
Active Army and Reserve component units at the highest possible levels, 
a requirement remains for individual specialists for unforeseen, 
unplanned-for-contingencies, operations, and exercises. Therefore, I 
have directed the establishment of an Individual Augmentee Program 
within the Selected Reserve to meet these needs.
    The purpose of the Individual Augmentee Program is to meet real-
world combatant commander requirements as validated in the Worldwide 
Individual Augmentation System (WIAS). Additionally, this program will 
preclude the deployment of individual capabilities from active or 
reserve component units adversely impacting their readiness, cohesion, 
and future employment possibilities. It will allow soldiers to 
participate at several levels of commitment and supports the Office of 
the Secretary of Defense proposal for a continuum of service.
    Continuum of service offers the Army flexibility in accessing and 
managing personnel. Soldiers can serve through a lifetime in different 
ways from active duty to troop program unit to individual augmentee to 
retiree. The ability to move seamlessly through components and statuses 
can only benefit the Army and the soldier. Matching the right soldier 
in the right status at the right time makes sense. The Army Reserve 
will lead the way in making a reality of the phrase ``Once a Soldier, 
Always a Soldier''.
    Our initiatives concerning the management of individuals in the 
Army Reserve are the catalyst of Army Reserve Transformation--The 
Federal Reserve Restructuring Initiative. In order for the Army Reserve 
to continue to transform, six imperatives must be implemented. These 
imperatives are: re-engineer the mobilization process; transform Army 
Reserve command and control; remove unready units; implement human 
resources life cycle management, build a rotational base in our force; 
and re-engineer individual capabilities.
    The Chief of Staff, Army has stated that the engine of 
transformation is our people. Our Army Reserve transformation plan 
attacks directly those outdated, unresponsive policies, practices, and 
procedures that inhibit our people's ability to transform. Your 
awareness and Congressional support of our efforts is invaluable.

                                SUMMARY

    In our current military environment, the Army Reserve has many 
challenges that we accept without hesitation. These challenges are 
embedded in the current wisdom of early reliance on the reserve 
component in early contingency operations and the wisdom of the use of 
the reserve components in scheduled operational rotations such as 
Bosnia and Kosovo. Historically our nation has placed great reliance on 
the reserve components of soldiers, sailors, airmen and marines, to 
expand the armed forces for operations during time of war. The nature 
of warfare has changed drastically and we must also change. This Global 
War on Terrorism, as our President has described, is a long-term 
campaign of inestimable duration, fought in many different places 
around the world. The issues we have brought to you today--changing how 
we recruit, prepare, maintain, and resource our force recognizes the 
Commander-in-Chief's intent, to prepare for future wars of unknown 
duration, in places we have yet to fight, and against enemies who 
threaten our freedoms and security.
    We are grateful to the Congress and the Nation for supporting the 
Army Reserve and our most precious resource, our soldiers--the sons and 
daughters of America.
    I cannot adequately express how proud I am of our soldiers. They 
are in the hearts and prayers of a grateful nation and will continue to 
stay there until we finish the job at hand.
    Thank you.

    Senator Stevens. Thank you, General. Admiral.

               STATEMENT OF VICE ADMIRAL JOHN B. TOTUSHEK

    Admiral Totushek. Thank you, Mr. Chairman, and thank you on 
a personal note for the kind words about my service to the 
country. I'm just humbled and proud to be representing the 
88,000 men and women of the Naval Reserve Force, and I would 
tell you that they have once again stood forth, just as the 
other component members have, when the Nation needed them.
    I'd like to talk a little bit about the Naval Reserve Force 
as a whole, just talk about a couple of things you've already 
brought up. The first is the overuse issue. It seems to me that 
perhaps, rather than changing the numbers in the active 
component and reserve component mix, perhaps we need to be 
looking at the mission areas so that we don't recall people 
year after year after year.
    In the Naval Reserve we've done a pretty good job of doing 
that, and the data that we have, which is current as of the end 
of AEF--OEF, I'm sorry--shows that the people that have been 
mobilized actually have a higher retention rate than those 
people that have not been mobilized, so at least for the Naval 
Reserve Force, as of current, after the Afghanistan operation, 
we have not seen, and the data reflects about a 50 percent 
better attrition rate, if you will, than the people that are 
just doing their time, if you will, drilling. I think that 
shows us that the men and women of the Naval Reserve Force at 
least, and I would expect the other components as well, are 
willing to serve and, in fact, are expecting to serve a little 
bit more differently than they have in the past, and I would 
just ask that as we think about the way we're going to try to 
structure the military of the future, that we don't try to put 
a one-size-fits all, or put too many constraints on us that 
prevents us from doing our mission, or allowing our people to 
serve.
    The second thing is that we've heard some talk about the 
fact that it's not a good idea to have 100 percent of any 
capability in the reserve component, because that would also 
suggest that we would be overusing them. The Naval Reserve has 
several capabilities that we do the entire mission for the 
Navy. One of the good examples is our intratheater airlift. All 
the transport airplanes that we have, if you see an airplane 
that says Navy on the side, it's either carrying people or 
cargo, that's a Naval Reserve airplane.
    Once again, during Operation Iraqi Freedom, we did 
wonderfully well there, bolstering the support to the theater 
by about 300 percent, and we did much of it without 
mobilization. Much of it was on a volunteer and a detachment 
type of basis, so I think we have proven over and over again 
that we can do that mission for the Navy cheaper, better, and 
with more expediency than even trying to outsource this would 
be able to do, and I would just ask us to keep that in mind as 
well, that there are certain missions that are perfect for the 
reserve components.
    Lastly, I'd like to talk about the length of time it takes 
to mobilize. We all expect and would like to give our members 
as much notice as we can, but in these times when we are at 
war, I think everybody understands that if it is a quick 
mobilization, that there are some instances where that is 
necessary, and our people are willing to sign up for that as 
long as it isn't the usual case. If we can plan, as the other 
commanders have pointed out, on a regular basis, and then 
perhaps understand that once in a while it's going to be now, 
people will understand that.
    I, too, would tell you that just like the other component 
commanders, the employers and the families of our people have 
been very, very important to us. We've taken steps in both 
cases to make sure that those equities are recognized, and I 
would tell you that by and large all of those families are 
standing up and doing a wonderful job, just as our people have.

                           PREPARED STATEMENT

    Thank you very much for our continued support. I look 
forward to your questions.
    [The statement follows:]

          Prepared Statement of Vice Admiral John B. Totushek

    It has been a remarkably challenging and successful past year for 
the Naval Reserve. We are continuing at an unprecedented pace in 
support of the war on terrorism, while at the same time navigating the 
Naval Reserve through the complex process of Transformation. Today, 
Navy's ability to surge rapidly and decisively to new crisis points 
rests primarily on active force capabilities with some Naval Reserve 
augmentation. Yet, any new crisis could potentially strain Navy's 
ability to sustain existing commitments, thus increasing the value of 
maintaining--and using, when needed--flexible operational capabilities 
resident in the Naval Reserve.

    ----------------------------------------------------------------

    The Naval Reserve provides Navy with necessary operational and 
organizational agility
  --Operational readiness
  --Parallel capability--reinforcing/sustaining/optimizing for crisis
  --Incubating new capabilities
  --Stand alone missions

    ----------------------------------------------------------------

    We ask a lot from our individual Reservists. And they have 
responded heroically. As Operations Noble Eagle and Iraqi Freedom 
demonstrate, mobilized Naval Reserve capabilities are often required to 
meet the risks associated with surge, and to sustain Navy commitments. 
Despite various opinions to the contrary, my Reserve Force has not been 
overtasked during the continuing Global War on Terrorism. We've 
recalled nearly 19,000 Naval Reservists to-date, or approximately 25 
percent of our force. We've recalled entire commissioned units as well 
as individuals with unique skills. While attrition across my force has 
been averaging in the high 20 percentile, our Career Decision Surveys 
targeted to those personnel demobilizing indicate that their attrition 
is holding at a mere 12 percent. We are confident that we have policies 
in place to manage and mitigate the strains we place on our Sailors and 
their employers. The bottom line is that Naval Reserve personnel are 
staying Navy, and we were able to reduce our enlisted recruiting goal 
by 2,000 endstrength this year.

    ----------------------------------------------------------------

    The Naval Reserve: a proven source of Navy flexibility
  --Mobilization for war or contingency
  --Relieving stress on active PERSTEMPO
  --War fighting and support capability at reduced cost

    ----------------------------------------------------------------

    Observing the work performed by our Naval Reservists over the past 
year, I have concluded that heroes are just ordinary people who do 
extraordinary things.
    Among the Naval Reserve heroes who represent the extraordinary 
sacrifices made by all of our members in support of Operations Enduring 
Freedom, Noble Eagle and Iraqi Freedom are people such as these:
  --Commander Neal Bundo, from Crofton, Maryland, and members of Navy 
        Command Center Unit 106 at the Pentagon mobilized and drilled 
        around-the-clock to maintain the watch in the aftermath of the 
        destruction of the center and the murder of fellow Sailors.
  --Utilityman Second Class Marianne Johnson, who lives in San Diego 
        and is a single parent of two daughters and an accounts 
        receivable clerk for Pepsi. She was mobilized to Pearl Harbor 
        with Construction Battalion Maintenance Unit 303 to provide 
        security support for Commander, Navy Region Hawaii. Although 
        she could have waived her commitment, she arranged for a friend 
        to take her apartment and temporary custody of her children for 
        a whole year.
    And there are Naval Reserve heroes among the spouses of our 
reservists.
  --The husband of Susan Van Cleve was also recalled with Construction 
        Battalion Maintenance Unit 303. Without any formal Ombudsman 
        training, Mrs. Van Cleve took on the task of representing the 
        dependents and relatives of more than 180 mobilized Seabees. 
        What's remarkable is that the Van Cleves, from Lake Elsinore, 
        California, have five children at home under age five.
    Ordinary people. Summoned to do extraordinary things. I call them 
heroes. Anyone associated with the Reserve Components of this nation 
could go on and on with such stories because there are thousands of 
them. They are the people whose dedication we honor and must support.
    We are at the height of the mobilization in support of Operations 
Noble Eagle, Enduring Freedom, and Iraqi Freedom, with more than 12,000 
sailors providing support around the world today. A perfect example of 
this is Strike Fighter Squadron (VFA) 201, based at Naval Air Station 
Joint Reserve Base, Fort Worth, Texas, which was ordered to active duty 
by President George W. Bush, as a unit of Carrier Air Wing (CVW) 8 
embarked aboard the USS Theodore Roosevelt (CVN 71). Reports indicate 
that the ``Hunters'' of VFA 201 are leading the Air Wing in every 
measurable category.
    The majority of Naval Reservists that have been mobilized are 
individuals with unique specialties. They included significant numbers 
of law enforcement officers and security specialists. Medical, supply, 
intelligence and other specialties continue to be heavily tasked. 
Entire units of the Naval Coastal Warfare commands were activated.
    Naval Reserve fighter pilots flew combat air patrol over our great 
cities. P-3C Orion pilots and crews are still flying surveillance 
missions. Logistics aircraft crews maintain a continuous presence in 
Bahrain and their operations tempo has increased by 25 percent, most of 
which is being done without mobilization.
    Top Five Priorities.--And while our deckplate sailors continue 
training to support combatant commanders, at the headquarters level we 
are still adhering to our Top Five priorities for the Naval Reserve. 
Let me briefly review highlights of these goals to illustrate how we 
are making progress.

    ----------------------------------------------------------------

    The Fiscal Year 2003 Top Five Priorities for the Naval Reserve
  --Manpower
  --Training
  --Equipment & Information Technology Compatibility
  --Force Shaping
  --Fleet Support

    ----------------------------------------------------------------

    Manpower.--Our recruiting numbers look good, and we are meeting 
goal. A continuing challenge is to fill targeted rates. While we 
initially saw that the percentage of prior service Navy entering the 
Naval Reserve bottomed out after 9/11, it quickly rebounded, and we 
finished the year over end strength. Our attrition rate hovers near 25 
percent, sharply down from a few years ago but short of our goal of 22 
percent. One major improvement is that we are consolidating our 
recruiting efforts with the active Navy and expect that benefits will 
accrue to both.
    Training.--Our training emphasis is on supporting the Chief of 
Naval Operation's Task Force Excel and Commander, Naval Education and 
Training, through integration of Naval Reserve personnel at all levels 
in the Navy Training Organization. This integration will enable the 
Naval Reserve to be in a position to take advantage of training 
initiatives underway throughout the Navy. We are also providing Joint 
Professional Military Education and ultimately building a cadre of 
Reserve Officers with joint experience and designated as Fully Joint 
Qualified. This will involve working closely with joint gaining 
commands to identify billets requiring joint experience to be filled by 
Reserve Officers, an opportunity that has previously been non-existent. 
Additionally, in order to take advantage of current and future training 
available through Distance Learning, we have been working hard to 
develop and implement a policy to provide drill pay to those personnel 
completing Distance Learning courseware at the direction of their 
Commanding Officer.
    Equipment and Information Technology Compatibility.--In fiscal year 
2004 we see a continuation of the decline in procurement of equipment 
for the Naval Reserve. Total Naval Reserve equipment procurement 
steadily decreased from $229 million in fiscal year 1997 to about $91 
million in fiscal year 2003.
    Among the few bright spots in the fiscal year 2004 equipment budget 
is funding for the acquisition of one new C-40A logistics aircraft. 
These aircraft are of vital importance to fleet logistics since the 
Naval Reserve provides 100 percent of the Navy's organic lift 
capability and direct logistics support for combatant commanders in all 
operating theaters. In addition, the fiscal year 2004 budget calls for 
the procurement of another C-40A aircraft.
    Other programs slated to receive procurement funding in the fiscal 
year 2004 budget include: the C-130T Aviation Modernization Program 
that will make 18 logistics aircraft compliant to fly worldwide; 
surveillance equipment upgrades and small boats for Naval Coastal 
Warfare forces; and ground and communication equipment for the Naval 
Construction Force.
    Despite these welcome Reserve modernization efforts, essential F/A-
18 modifications, P-3C upgrades, and SH-60B helicopters still require 
substantial investments. Currently one squadron of Reserve F/A-18A 
aircraft lack the capability to deliver precision-guided munitions and 
need ECP-560 upgrades to avionics, software and accessories. Under the 
Navy-Marine Corps TACAIR integration plan, a Naval Reserve squadron is 
slated for disestablishment in fiscal year 2004.
    P-3C aircraft used by the Naval Reserve constitute approximately 40 
percent of the Navy's capability. Currently, these aircraft provide 
only limited support to operational commanders because they lack the 
Aircraft Improvement Program (AIP) upgrade. Active component AIP 
aircraft were used extensively in Afghanistan due to their improved 
communication and surveillance capabilities. To enable our P-3C 
squadrons to fully participate and integrate with the active component 
in support of operational requirements, an investment needs to be made 
to upgrade our 42 P-3C aircraft in the Naval Reserve's seven P-3C 
squadrons. Improving Reserve squadron integration with active forces 
will reduce active component's operational tempo and increase overall 
Navy mission capability. Spending to achieve equipment compatibility 
and equivalent capability between active and Reserve components is 
always a wise investment. Finally, the Littoral Surveillance System 
(LSS) provides timely assured receipt of all-weather, day/night 
maritime and littoral intelligence, surveillance and reconnaissance 
data. For fiscal year 2003, Congress appropriated funds for a second 
LSS to support Naval Coastal Warfare. I'm encouraged that the emerging 
Homeland Security requirement to secure land and sea borders from 
potential terrorist attack is an emerging mission to which LSS 
capability can contribute. It is joint, transformational, and is 
consistent with Naval Reserve capabilities. I look forward to working 
with our Coast Guard friends in assisting them in protecting our 
coastal waters and ports.
    In the Information Technology area, we have implemented the New 
Order Writing System (NOWS) online, and it is up and running smoothly. 
Within budget constraints, we continue with implementation of the Navy 
Marine Corps Intranet (NMCI). By the end of 2003, 100 percent of the 
Naval Reserve Force will be on the NMCI. Our goal is a seamless 
information and communication systems integration between the active 
Navy and the Naval Reserve. To meet our primary mission of delivering 
sailors, equipment and units to combatant commanders requires 
information technology improvements in the manpower, personnel, 
communications, training and financial management areas.
    Force Shaping.--On July 20, 2002, the Naval Reserve stood up the 
Naval Reserve Forces Command. In doing so, it eliminated the old title 
of Commander Naval Surface Reserve Force and merged separate Naval 
Reserve air and surface chains of command. This ongoing alignment, 
which is examining every facet of Naval Reserve operations--is making 
the Naval Reserve more flexible and responsive, improving its systems 
and focusing on customer service. The alignment of the New Orleans 
headquarters staff allows one-stop shopping for the active duty Navy to 
reach the Naval Reserve Force and has provided additional full time 
support to the fleet.
    Fleet Support.--Earlier I mentioned the direct support we have been 
providing to combatant commanders, and we are prepared to do more. 
While we continue monitoring potential risks of sustained and repeated 
recalls, to date we have seen improved retention rates of recallees 
measured against the rest of the force. Every one of our 86,000 Naval 
Reservists wants to participate in winning the war on terrorism. We 
must ensure that they have the tools to do their jobs and integrate 
smoothly into the Fleet.
    Transformation.--Within the think tanks of Washington and in the 
Pentagon E-Ring hallways, there is much talk about how the Navy will 
participate in the DOD-wide Transformation process. And though the 
Naval Reserve's traditional mission of reinforcing active forces and 
sustaining capabilities has always been valid, there are additional 
ways in which we can support Transformation.
    The Naval Reserve is the ``flex'' Navy needs to navigate, and even 
accelerate its passage through a challenging and uncertain future. As 
it did throughout the Cold War, Post-Desert Storm and Post 9/11 
periods, the Navy will continue to depend on its Reserve as a 
mobilization asset, affordably extending Navy's operational 
availability. At the same time, the Navy will continue to rely on Naval 
Reserve units and individuals to provide day-to-day peacetime' 
operational capabilities and to reduce the stress on active personnel 
tempo. The extensive operational warfighting and service support 
experience resident in the Naval Reserve will be crucial to assisting 
Navy in achieving its Sea Strike, Sea Shield and Sea Basing 
capabilities.
    Some of our terminology will change as we transform. We no longer 
talk about CINCs; we talk about combatant commanders. We don't talk 
about TARs; we talk about Full Time Support personnel. We're not using 
the phrase Total Force, but we are talking about a transformational 
force that is simply one Navy.
    The Navy is shaping itself in the 21st century in an environment of 
competitive resources, fluid planning assumptions, and operational 
uncertainty. As it begins the transformation, the Navy is also fighting 
the war on terrorism and maintaining a challenging global forward 
presence. Juggling such priorities involves risk.
    The Naval Reserve's traditional function as a reservoir of 
capabilities that are not needed continuously in peacetime, but are 
needed in crisis, is crucial to mitigate such risks.
    As one example, Naval Coastal Warfare forces have been called upon 
to provide a security framework on the home front as well as overseas. 
The mission--protection of strategic shipping, shallow water intrusion 
detection, traffic control, and harbor defense--has resided exclusively 
in the Naval Reserve for more than 10 years. Today, this force 
protection presence is made up of 100 percent Naval Reservists, who 
conduct fully integrated command, control, communications, surveillance 
and harbor defense missions around the globe. Because these are ongoing 
requirements in this mission area, we will be integrating an active 
Mobile Security Force with existing Naval Reserve Coastal Warfare 
forces.
    Another example is also tied to the aftermath of 9/11: the 
immediate requirement for Master-at-Arms and law enforcement specialist 
to provide force protection to the Navy. This was a very small mission 
area for the Navy that, when the need arose, they were unable to fill 
with active duty Sailors. The Naval Reserve took care of the 
requirement until the Navy could implement long-term measures.
    However, the Naval Reserve can do more. Our agility can spread 
across a spectrum of other challenging areas: manpower, operations, 
planning, force structure and mix. We can be a great reservoir for 
experimentation and innovation. In these and many other ways, the Naval 
Reserve can mirror and complement the Chief of Naval Operation's 
visions in Sea Power 21: to project power, protect U.S. interests, and 
enhance and support joint force operations.
    Myths.--Before I close, since this is probably the last opportunity 
I will have to appear before this committee, I would like to take this 
opportunity to briefly comment on several myths about the Naval Reserve 
that I have encountered during my tour as the Chief of Naval Reserve.
    The first myth is the popular opinion of many that Reserve Forces 
have been overused during the GWOT. As I mentioned in the beginning, I 
can assure you that the Naval Reserve has not been overused and is 
ready and able to do more to support the Navy. I know this not only 
because of the conversations that I have had with Naval Reservists on a 
daily basis, but also because of some very interesting statistics that 
have come out of our 9/11 mobilizations, such as the one measure that 
indicates our current attrition rate for those mobilized for the GWOT 
is approximately 12 percent, which is considerably lower than our 
historical attrition rate. I'm a firm believer that the Naval Reserve 
Force needs to be used to be relevant.
    The second myth is that it is unwise to place 100 percent of a 
mission within the Reserve. I firmly believe that certain missions are 
designed perfectly for the Reserve and are very cost effective. A 
perfect example is the 14 Naval Reserve squadrons of our Fleet 
Logistics Support Wing which have very successfully provided 100 
percent of the Navy's worldwide intra-theatre airlift support on a 
continuous basis for over a decade. There are currently 14 Naval 
Reserve logistics aircraft deployed outside the continental United 
States, which is a 230 percent increase since 9/11, yet we have done 
this while only mobilizing one airlift squadron.
    You may have heard discussions about changing the mix of active 
component versus Reserve component. The Naval Reserve is working 
closely with the Navy to address High Demand/Low Density type units. 
Through innovative sharing of assets and essential skill sets, Reserve 
personnel have been used to train new Active Component crews as well as 
carry some of the load of the deployment rotation. VAQ 209, flying EA-
6B electronic warfare jets based at NAF Washington, deployed overseas 
for 45 days this past summer flying combat patrols in support of 
Operation Northern Watch, their fifth such deployment in the last seven 
years. Yet when they were here at home, they provided personnel and 
aircraft to the Fleet to support multi-week flight training 
detachments. By doing this they maximize the value of the dollars Navy 
has already spent to train and equip them while sustaining and 
exercising their warfighting skills. The renewed demand for Naval 
Coastal Warfare units, as mentioned before, has caused Navy to 
reevaluate the requirement and to create Active Component units. Naval 
Reserve, in this case, has served to provide the storehouse of skills 
so that as the demands of warfighting changed Navy was able to quickly 
meet the new challenge. These are just two examples of how your Naval 
Reserve Force provides the organizational flexibility needed to 
navigate the rapid changes of a transforming world.
    A myth that certainly has to be dispelled is that Naval Reservists 
cost more than their active duty counterparts. A cost comparison done 
for a seven year period from fiscal year 2003 through fiscal year 2009 
shows that a Selected Reservist, not mobilized at any time during that 
period, costs approximately 21 percent of the cost of an active member. 
The cost of a Selected Reservist mobilized for a two year period during 
the 7 year time frame still reflects a considerable savings--less than 
half of that of an active member. In 2002, Navy estimated that it costs 
$1.26 million to train an F-18 pilot, taking that ``nugget'' pilot from 
``street to fleet.'' By the time that same pilot will become a member 
of the Reserve Force, Navy will have invested many more millions of 
dollars to hone his or her skills. When that pilot joins a Naval 
Reserve squadron we will have recaptured every one of those training 
dollars. My point is that the cost of a valuable mobilization asset 
should not be looked at only in the limited context of the period 
during mobilization, but, rather in the larger context; that of an 
amazingly cost effective force multiplier available both during periods 
when the nation's active forces are able to handle the PERSTEMPO and 
OPTEMPO without Reserve augmentation and during those periods of crisis 
that require Citizen-Sailors to leave their civilian lives and jobs and 
be mobilized.
    An additional myth is that the Naval Reserve should only be 
employed for full mobilization scenarios. Much like VAQ 209, which I 
mentioned earlier, our Naval Special Warfare units and Naval Special 
Warfare helicopter squadrons, either by providing personnel or by 
providing deploying units, have participated in smaller scale 
contingency operations such as Uphold Democracy in Haiti. Our Naval 
Reserve intelligence community is contributing daily to the processing 
and evaluation of intelligence information. Our maritime patrol 
squadrons and Naval Reserve Force frigates are continuously employed in 
the war on drugs. These scenarios do not involve full mobilization, 
they involve ad hoc contributions that keep our Naval Reservists 
engaged in something that is important to them--the safety, security 
and preservation of our country. If we want to continue the capable 
reserve force we have today, we must utilize their talents or they will 
not stay.
    And the last myth is that it takes too long for us to mobilize and 
be ready. Fortunately, I have a timely example to use to dispel this 
myth. On October 4th, 2002, a mobilization order was issued to VFA-201. 
Within 72 hours 100 percent of squadron personnel had completed the 
mobilization process, and within 90 days, all refresher training had 
been completed and the squadron was deployed on board the U.S.S. 
Theodore Roosevelt. Every aviator has cruise experience, over 1,000 
flight hours, and many have 2,000 hours in aircraft type. Squadron 
aviators provided leadership to the air wing in strike planning, flight 
execution, and carrier operations. Their experience in operations 
around the world and in adversary tactics continue to aid increased air 
wing readiness. Since mobilization, the Hunters of VFA-201 have flown 
more than several thousand Sorties, have flown over 300 hours in combat 
and have dropped over 60,000 lbs. of precision-guided munitions. Not 
only were we ready to respond to the call quickly, but, I am please to 
report that VFA-201 pilots had the highest qualification grades in the 
Air Wing and were awarded the Squadron ``Top Hook'' award. I am also 
pleased to report that VFA-201's twelve F-18A+ aircraft are equivalent 
to F-18C aircraft primarily because of funding for equipment upgrades 
provided by Congress via the NG&RE appropriation.

    ----------------------------------------------------------------

    Running Myths about the Naval Reserve
  --Naval Reserve forces are being overused
  --It is unwise to place a mission entirely in the Naval Reserve
  --The active/reserve force mix for High Demand/Low Density units 
        should be changed
  --The Naval Reserve should be used only for full mobilization 
        scenarios
  --It takes too long for the Naval Reserve to mobilize and get ready

    ----------------------------------------------------------------

    Summary.--The Naval Reserve is meeting big challenges with a Force 
that is remarkably fit and ready to continue doing the heavy lifting 
for the Navy Marine Corps Team. If we are successful at procuring the 
compatible equipment we need, we can become even more effective at 
world-class service to the Fleet. We look forward to meeting the 
challenges ahead, both within the Naval Reserve and in support of the 
Navy's strategic vision.
    As I review the state of our Naval Reserve Force over the past 
year, I take pride in what the Naval Reserve has accomplished. All 
things considered, it has been a remarkable year.

    Senator Stevens. Thank you very much. I think the committee 
would be very interested in the number of volunteers that came 
forth in each one of your branches. I've got to tell you, I've 
had more calls from people who were irritated that they weren't 
called up than I got for those who called up who were 
irritated, so there's a balance there somewhere.
    General McCarthy.
    General McCarthy. Mr. Chairman, members of the committee, 
with my colleagues I thank you for the opportunity to appear 
and to talk briefly about the Marine Corps Reserve. Most 
importantly, I would like to say that as an advocate for the 
Marine Corps Reserve I want to thank the Congress and this 
committee in particular for the support that you have provided 
over the years, and I think it's clear that the investments 
that the Congress and this committee have made in the Marine 
Corps Reserve have been well used, and have borne fruit in this 
most recent period of combat for our country.
    As you pointed out, Senator Stevens, it is truly a totally 
integrated force. The Marines and their units in the Marine 
Corps Reserve are indistinguishable from their active units. 
They are part of those units. Their units are combined, and it 
truly is, I believe, a validation of the concept of a total 
force.
    Over 50 percent of the marines and sailors who serve with 
us in Marine Reserve units have been mobilized, and the vast 
majority, I think over 75 percent of those mobilized right now, 
were mobilized for service in the U.S. Central Command's area 
of responsibility. They have been directly engaged with the 
enemies of our Nation. They have suffered their share of 
casualties. They've served across the full spectrum of Marine 
operations, infantry, aviation, tanks, light armored 
reconnaissance, reconnaissance units, engineers, combat service 
support, ANGLICO units serving with Special Operations Command 
and with the first United Kingdom forces in Southern Iraq. In 
short, in every aspect of Marine operations in Operation Iraqi 
Freedom, Marine Reserves and their units have been an integral 
part.
    We are now focused at my headquarters on bringing these 
units home, on demobilizing them and refitting them and getting 
them ready for whatever challenges may lie ahead. That 
demobilization process is our number one focus of effort, and 
as soon as that process is complete, we will begin to focus on 
reconstituting and rebuilding the capabilities of the Marine 
Corps Reserve, and that is going to be a challenging task, but 
it is one that I believe we can accomplish.
    It's clear that as we bring units home there will still be 
units remaining in the area of operations. Some of the last 
units to leave Iraq, I believe, will be Marine Corps Reserve 
units, Civil Affairs units, a couple of infantry battalions, 
and light-armored reconnaissance come immediately to mind, but 
I just left the theater on Sunday night, and I talked to I 
think hundreds, maybe thousands of Marines while I was there, I 
visited with the senior marine commanders, and I come away 
convinced that your Marine Corps Reserve has done a tremendous 
job, and that it will continue to do so. It will come out in 
good order, and we will begin the process of getting ready for 
whatever challenges lie ahead. We will work in close 
coordination with the Congress, and again I would state my 
appreciation for your support.
    Thank you, Senator.
    [The statement follows:]

      Prepared Statement of Lieutenant General Dennis M. McCarthy

                              INTRODUCTION

    Chairman Stevens, Senator Inouye and distinguished members of the 
Committee, it is my privilege to report on the status and the future 
direction of your Marine Corps Reserve as a contributor to the Total 
Force. On behalf of Marines and their families, I want to thank the 
Committee for its continued support. Your efforts reveal not only a 
commitment for ensuring the common defense, but also a genuine concern 
for the welfare of our Marines and their families.

                    YOUR MARINE CORPS RESERVE TODAY

    Today's Marine Reserves are ready, willing and able to support the 
Active component and to serve our communities in peace or war. During 
the Global War on Terrorism, Reserve units have filled critical roles 
in our nation's defense--whether deployed to Afghanistan, Djibouti or 
the Persian Gulf or on standby to respond to Homeland Security crises.
    As of April 21, approximately 21,100 Marines were activated as part 
of units or individual augmentees in support of Operations Noble Eagle, 
Enduring Freedom, and Iraqi Freedom. This represents approximately 52.8 
percent of the Selected Marine Corps Reserve and 4.7 percent of the 
Individual Ready Reserve. Roughly 75 percent of the Selected Marine 
Corps Reserve Marines currently activated are participating in 
Operation Iraqi Freedom. From the 2nd Battalion, 23rd Marine Regiment 
operating up front with the 1st Marine Regiment, to Reserve KC-130s 
flying supplies into Iraq and evacuating prisoners of war, to the 6th 
Engineer Support Battalion purifying over a million gallons of water, 
to members of the 3rd Civil Affairs Group establishing local police 
forces and organizing joint patrols with Iraqi policemen, Marine 
Reserves continue to play a major role in Coalition operations in Iraq.
    Reserve integration readily enhances Marine Corps operational 
capabilities, however, the Commandant of the Marine Corps recognizes 
that the Reserve is a finite resource and insists on its judicious use. 
In the first year of Operations Noble Eagle and Enduring Freedom we 
activated no more than 11 percent of the Selected Marine Corps Reserve 
(units and Individual Mobilization Augmentees) and less than 2 percent 
of the Individual Ready Reserve. All of the Individual Ready Reserve 
members were volunteers.
    Mobilization readiness is our number one priority all the time and 
the men and women in the Marine Corps Reserve have responded 
enthusiastically to the call to duty. Only 1.8 percent of those 
receiving orders have requested delay, deferment or exemption from 
duty. The hard work and dedication of the Marines and Sailors to this 
task has resulted in the efficient execution of the mobilization. We 
moved personnel and cargo directly from reserve training centers to 
embarkation points using tractor-trailers, chartered buses and 
flights--without missing a designated arrival date. No reserve unit had 
to ask for relief to enter theater without the required anthrax and 
smallpox inoculations. As we begin to see combat operations taper off, 
we are now preparing for the equally efficient demobilization of many 
of our reserve units.
    The ability of the Reserve to rapidly mobilize and integrate into 
the Active component in response to the Marine Corps' operational 
requirements is a tribute to the dedication, professionalism and 
warrior spirit of every member of the Marine team--both Active and 
Reserve. Our future success relies firmly on the Marine Corps' most 
valuable asset--our Marines and their families.

                       MARINES AND THEIR FAMILIES

    We continue to evaluate personnel policy changes regarding 
entitlements, training and employment of Reserve forces, and support 
for family members and employers to minimize the impact of mobilization 
on our Marines. Success in this area will enhance our ability to retain 
the quality Marines needed to meet our emerging operational 
requirements.
    We need your continued support to attract and retain quality men 
and women in the Marine Corps Reserve. Our mission is to find those 
Marines who choose to manage a commitment to their family, their 
communities, their civilian careers, and the Corps. While such 
dedication requires self-discipline and personal sacrifices that cannot 
be justified by a drill paycheck alone, adequate compensation and 
retirement benefits are tangible incentives for attracting and 
retaining quality personnel. This challenge will be renewed when 
mobilized units return from Active duty and begin the process of 
reconstitution.
    Last year, the Marine Corps Reserve achieved its recruiting goals, 
accessing 5,900 non-prior service and 4,213 prior service Marines. This 
is particularly challenging because the historic high rate of retention 
for the Active component has reduced the pool for prior service 
recruiting. Enlisted attrition rates for fiscal year 2002 decreased 
approximately 2.8 percent from our four-year average. Marine Corps 
Reserve officer attrition rates were slightly higher than historical 
averages which can in part be attributed to Reserve officers leaving 
non-mobilized Selected Marine Corps Reserve units to be mobilized in 
support of individual augmentation requirements.
    The incentives provided by Congress, such as the Montgomery G.I. 
Bill and the Montgomery G.I. Bill Kicker educational benefits, 
enlistment bonuses, medical and dental benefits, and commissary and 
Post Exchange privileges, have helped us to attract and retain capable, 
motivated, and dedicated Marines, which has contributed to the 
stability of our Force. Congressional enhancements allowed us to 
increase our recruiting and retention incentive programs during fiscal 
year 2002. We are funding these programs to the same levels in fiscal 
year 2003 through internal realignment. The increase is also reflected 
in our fiscal year 2004 budget request. The tangible results of your 
support for these incentives are the aforementioned decreased attrition 
and recruiting successes.
    The Marine Corps is the only Service that relies almost entirely on 
its prior service population to fill the ranks of its Reserve officer 
corps. Although the Marine Corps Reserve exceeded its recent historical 
Selected Marine Corps Reserve unit officer accession rates in fiscal 
year 2002, staffing our unit officer requirements at the right grade 
and military occupational specialty continues to be our biggest 
recruiting and retention challenge. We are exploring ways to increase 
the Reserve participation of company grade officers.
    The long-term impact of serial or repeated mobilizations on 
recruiting and retention is still undetermined. More than 3,000 of our 
activated reserves have now exceeded the one-year mark. We will not 
know the overall retention impact until we demobilize a significant 
number of these Marines and they have an opportunity to assess the 
impact of mobilization on their families, finances and civilian 
careers.
    Should Active or Reserve Marines choose to make a transition back 
to civilian life, the Marine for Life program is an initiative which is 
already proving to be of immeasurable value to our returning citizens. 
The Marine For Life Program was developed to achieve the Commandant's 
vision of ``improving assistance for our almost 29,000 Marines each 
year who honorably leave Active service and return to civilian life, 
while reemphasizing the value of an honorable discharge.'' While work 
continues to complete all necessary details of this broad program, 
Marine For Life has begun the transition toward initial stand up. 
Combining a nationwide network of hometown links administered by 
Reserve Affairs at Headquarters Marine Corps, Marine For Life provides 
Marines with information and assistance required to make a successful 
transition from Active service to civilian life in their desired 
hometown. This year marked the release of numerous policies and 
information outreach campaigns on the use and benefits provided by 
Marine For Life to the Total Force Marine Corps as part of our ongoing 
efforts to improve the overall life of all Marines. The Marine For Life 
Program will build, develop and nurture a nationwide network of 
transitioning Marines, veterans, retirees, Marine Corps affiliated 
organizations, and friends of the Corps.
    Combat readiness and personal and family readiness are inseparable. 
Our Marine Corps Community Services organization works aggressively to 
strengthen the readiness of our Marines and families by enhancing their 
quality of life. Our many Marine Corps Community Services programs and 
services are designed to reach all Marines and their families 
regardless of geographic location--a significant and challenging 
undertaking considering the geographic dispersion of our Marines and 
their families throughout the United States and Puerto Rico. During the 
current mobilization we are seeing the payoffs of our significant 
investment over the past several years in family readiness programs. 
Key volunteers and site support personnel are assisting families and 
keeping communities informed.
    In December 2002, the Marine Corps began participating in a two-
year Department of Defense demonstration project providing 24-hour 
telephonic and online family information and referral assistance. 
Referred to as ``Marine Corps Community Services One Source'', it is 
similar to employee assistance programs used by many of the nation's 
major corporations as a proven Human Resource strategy to help 
employees balance work and homelife demands, reduce stress and improve 
on-the-job productivity. We are already receiving positive feedback 
from users.
    The support our Reserve Marines receive from their employers has a 
major impact on their ability to serve. We have partnered with the 
National Committee for Employer Support of the Guard and Reserve to 
foster a better mutual understanding and working relationship with 
employers. During the current partial mobilization many employers have 
voluntarily pledged to augment pay and extend benefits which has 
greatly lessened the burden of activation on our servicemembers and 
their families. I would like to acknowledge and thank the public and 
private sector employers of our men and women serving in the Marine 
Corps Reserve for their continued support.
    Like the Active component Marine Corps, the Marine Corps Reserve is 
a predominantly junior force with historically about 70 percent of 
Selected Marine Corps Reserve Marines serving their first enlistment. 
Many of our young Marines are also college students. Currently, there 
are no laws that would offer academic and financial protections for 
students and schools affected by mobilization. We support Employer 
Support of the Guard and Reserve's new initiative to improve 
communication between Reserve component personnel and their educational 
institutions.
    In addition to supporting Operations Noble Eagle, Enduring Freedom, 
and Iraqi Freedom, Marine Reserves continued to provide operations 
tempo relief to the Active forces. Notably, more than 300 reserves 
volunteered to participate in UNITAS 43-02, creating the first Reserve 
Marine Corps UNITAS (an annual U.S. sponsored exercise in South 
America). From August to December, the Marines sailed around South 
America conducting training exercises with military forces from Brazil, 
Colombia, Ecuador, Argentina, Peru, Chile and other countries. Marine 
Forces Reserve also provided the majority of Marine Corps support to 
the nation's counter drug effort, participating in numerous missions in 
support of Joint Task Force 6, Joint Interagency Task Force-East and 
Joint Interagency Task Force-West. Individual Marines and Marine units 
support law enforcement agencies conducting missions along the U.S. 
Southwest border and in several domestic ``hot spots'' that have been 
designated as high intensity drug trafficking areas.
    The Active Duty Special Work Program funds short tours of active 
duty for Marine Corps Reserve personnel. This program continues to 
provide critical skills and operational tempo relief for existing and 
emerging augmentation requirements of the Total Force. The demand for 
Active Duty Special Work has increased to support pre-mobilization 
activities during fiscal year 2002 and fiscal year 2003 and will be 
further challenged during post mobilization. In fiscal year 2002, the 
Marine Corps executed 1,208 work-years of Active Duty Special Work. 
Continued support and funding for this critical program will ensure our 
Total Force requirements are fully met.
    Maintaining overall Selected Marine Corps Reserve end-strength at 
current levels will ensure the Marine Corps Reserve's capability to 
provide operational and personnel tempo relief to Active Marine Forces, 
maintain sufficient full-time support at our small unit sites, and 
retain critical aviation and ground equipment maintenance capabilities. 
Selected Marine Corps Reserve units are structured along the Marine Air 
Ground Task Force model, providing air combat, ground combat and combat 
service support personnel and equipment to augment and reinforce the 
Active component. Less than one percent of our Selected Marine Corps 
Reserve unit strength represents a reserve-unique capability. The 
current Marine Forces Reserve structure also reflects a small tooth-to-
tail ratio with a minimal number of Active duty and Reserve personnel 
in support roles, and a majority of our Reserve and active Marines and 
Sailors as deployable warfighters.
    The Marine Corps Reserve also provides a significant community 
presence in and around our 187 sites nationwide. One of our most 
important contributions is providing military funerals for our 
veterans. The Active duty staff members and Reserve Marines at our 
sites performed approximately 6,170 funerals in 2002 and we anticipate 
supporting as many or more this year. The authorization and funding to 
bring Reserve Marines on Active duty to perform funeral honors has 
particularly assisted us at sites like Bridgeton, Missouri, where we 
perform several funerals each week. We appreciate Congress exempting 
these Marines from counting against active duty end strength.

                           CURRENT READINESS

    I am happy to report that the the general state of readiness in the 
Marine Corps Reserve today is good. This condition is attributable to 
the spirited ``can do'' attitude of our Marines, and increased funding 
in the procurement and operations and maintenance accounts provided by 
the Congress in fiscal year 2002. Most important, we remain ready and 
prepared to augment the Active Component in support of standing and 
crisis action requirements.
    The $5 million provided by National Guard and Reserve 
Appropriations in fiscal year 2002 was used entirely for warfighting 
priorities which will help us get to the fight and remain effective. 
Night vision upgrades to our KC-130s and CH-53 helicopters have been 
extremely valuable--enabling support of operations in Afghanistan and 
of the 24th Marine Expeditionary Unit. Your support of National Guard 
and Reserve Appropriations proposed for fiscal year 2004 will continue 
to enhance the readiness of the Reserves and their ability to integrate 
with the Active duty forces. The $10 million provided in fiscal year 
2003 National Guard and Reserve Appropriations will further enhance the 
Reserve aviation assets as well as provide communications systems 
compatible with our Active duty counterparts. Additional funding 
provided by Congress has also enabled us to begin issue of the new 
Marine Corps combat utility uniform. By the end of 2003 every Marine in 
the Marine Forces Reserve will have at least one set.
    During the most recent mobilizations, the benefits of previous 
Congressional support that provided for the creation of our Nuclear, 
Biological and Chemical Defense equipment storage facility were 
realized. Every Reserve Marine deployed with modern, serviceable 
equipment.
    Maintaining current readiness levels into the future will require 
continued support as our equipment continues to age at a pace which, 
unfortunately, exceeds replacement. Within our Reserve aviation 
community, the average age of our ``youngest'' platform is the UC-35 at 
5 years, followed by the AH-1W Cobra at 10 years, CH-53E at 15 years, 
KC-130T at 17 years, F/A-18A at 19 years, and F-5 at 30 years. Our 
oldest platform, and platforms which have exceeded programmed service 
life, include the UH-1N at 32 years (20-year service life) and the CH-
46E at 36 years (20-year service life with ``safety, reliability, and 
maintainability'' extension to 30 years). Maintaining these aging 
legacy platforms requires increased financial and manpower investment 
with each passing year due to parts obsolescence and higher rates of 
equipment failure. Aircraft maintenance requirements are increasing at 
an approximate rate of 8 percent per year. For example, for every hour 
the CH-46 is airborne, it requires 37 man-hours of maintenance.
    The situation within our Reserve ground community, while not as 
dire as the aviation force in terms of nearing or exceeding service 
life of platforms, also is a growing concern. The average age of our 
Logistics Vehicle System fleet is 16 years; Light Armored Vehicles at 
17 years; High Mobility Multipurpose Wheeled Vehicle A1s at 18 years; 
5-ton trucks at 21 years; M-198s at 20 years; Reverse Osmosis Water 
Purification Units at 18 years and Assault Amphibious Vehicles at 30 
years, although all of our Assault Amphibious Vehicle P7A1 personnel 
carriers have been upgraded through the Reliability, Availability, and 
Maintainability/Rebuild to Standard program which significantly 
increased vehicle readiness and lowered the support cost. Our 5-ton 
trucks have exceeded their programmed service life, but will be slowly 
replaced with the Medium Tactical Vehicle Replacement beginning in June 
2003. The Reverse Osmosis Water Purification Unit, which currently has 
a critical role in Iraq, has also exceeded its programmed service life 
but will not be replaced until fiscal year 2006. While some are being 
replaced or upgraded with service life extensions, maintaining these 
aging legacy platforms still requires increasing financial and manpower 
investments for the reasons cited earlier. Due to affordability, we 
have taken some near-term readiness risk with the level of funding we 
proposed in fiscal year 2004 for depot level maintenance.
    In addition to equipment aging, operations and maintenance expenses 
are also being driven upwards by increasing equipment utilization rates 
brought about by greater integration and support with the Active 
component, both in peacetime and more recently in support of the Global 
War on Terrorism. We are pursuing various measures internally to 
mitigate these trends by focusing on better business practices. One 
example is transferring unit non-essential equipment to central storage 
locations for preservation and maintenance.
    We are thankful for and remain confident that the additional funds 
provided by Congress in fiscal year 2003 will ensure the continuing 
readiness of the Marine Corps Reserve, and we seek your continued 
support in the fiscal year 2004 President's Budget.

                             INFRASTRUCTURE

    Our long-range strategy to maintain our connection with communities 
in the most cost effective way is to divest Marine Corps owned 
infrastructure and to locate our units in Joint Reserve Centers 
wherever feasible. With the opening of the new Joint Reserve Center in 
Wahpeton, North Dakota, this year, Marine Forces Reserve units will be 
located at 187 sites in 48 states, the District of Columbia, and Puerto 
Rico. Over 75 percent of the reserve centers we are in are more than 30 
years old, and of these, about 37 percent are over 50 years old.
    Investment in infrastructure has been a bill-payer for pressing 
requirements and near-term readiness for most of the last decade. The 
transition to Facilities Sustainment, Restoration and Modernization 
funding has enabled us to more accurately capture our requirements. 
Like the Active Component Marine Corps, we do not expect to be able to 
bring our facilities to acceptable levels of readiness before fiscal 
year 2013. Thirty-seven percent of our facilities are currently rated 
below acceptable levels. We have over a $20 million backlog in 
restoration and modernization across the Future Years Defense Program. 
Maintaining facilities adequately is critical to providing quality 
training centers our Marines need.
    Last year's vulnerability assessments identified $33.6 million in 
projects to resolve anti-terrorism/force protection deficiencies at the 
42 sites that we own or otherwise have responsibility for site 
maintenance. We are prioritizing and addressing these deficiencies now 
and in the future years. The age of our infrastructure means that much 
of it was built well before anti-terrorism/force protection was a major 
consideration in design and construction. These facilities will require 
resolution through structural improvements, relocation, or the 
acquisition of additional stand off distance. All of these more 
expensive solutions will be prioritized and achieved over the long term 
to provide the necessary level of force protection for all our sites. 
Our fiscal year 2004 President's Budget submission for Military 
Construction, Naval Reserve is $10.4 million, 20 percent lower than the 
fiscal year 2003 enacted level. The fiscal year 2004 request addresses 
our most pressing requirement--a new Reserve Training Center at 
Quantico, Virginia. Joint construction often provides the most cost 
effective solution. We support a Joint construction funding account, as 
long as it is structured correctly.
    In addition to the Military Construction, Naval Reserve program, we 
are evaluating the feasibility of other innovative solutions to meeting 
our infrastructure needs, such as real property exchange and public-
private ventures. The overall condition of Marine Corps Reserve 
facilities continues to demand a sustained, combined effort of 
innovative facilities management, proactive exploration of and 
participation in Joint Facility projects, and a well-focused use of the 
construction program.

                    MODERNIZATION AND TRANSFORMATION

    In recent years the Marine Corps has made a deliberate choice to 
fund current readiness over recapitalization and transformation. It is 
well documented that this practice has led to a downward spiral in 
which we annually invest more funds for operations and maintenance to 
maintain aging equipment leaving insufficient funds for new equipment 
procurement. Generating savings to reinvest in procurement, while 
essential for recapitalization and transformation efforts, should be 
accomplished with great care, using a risk management approach to 
evaluate existing legacy equipment. The following modernization 
priorities represent low investment/high pay-off capabilities, closely 
linked to Marine Corps operational concepts and doctrine, relevant to 
the combatant commanders, and essential to the survival of our Marines 
in combat.

Modernization
            F/A-18A Engineering Change Proposal 583
    Our top modernization priority remains unchanged from fiscal year 
2003: upgrading our fleet of 36 F/A-18A Hornet aircraft with 
Engineering Change Proposal 583. This Marine Corps Total Force program 
encompasses 76 aircraft. This Engineering Change Proposal converts 
early lot, non-precision, day fighter/attack aircraft into F/A-18C Lot 
17 equivalent aircraft capable of day/night operations employing the 
newest generation of air-to-air and air-to-ground precision-guided 
munitions, including the Joint Direct Attack Munition, Joint Standoff 
Weapon, Standoff Land Attack Missile-Expanded Response, and AIM 9X. 
Additionally, this Engineering Change Proposal replaces the APG-65 
radar with the APG-73, adds a global positioning system to the 
navigation suite, replaces radios with the ARC-210--a digital 
communication system, and installs new mission computers and many other 
components.
    As the Chairman of the Joint Chiefs of Staff stated in recent 
testimony, there is ``increased reliance on our Reserve components to 
defend the Nation's coastlines, skies and heartland, as well as protect 
our interest worldwide.'' For the relatively low investment cost of 
$5.2 million per aircraft, the combatant commanders, first, will have 
access to an additional 76 capable and interoperable war-fighting 
assets. Second, with many F/A-18C aircraft nearing service life limits, 
upgrading these aircraft helps to mitigate the Navy's decreasing 
inventory of tactical aviation assets. Third, it is supportive of a 
goal outlined by the Secretary of Defense in recent testimony--to 
continue transforming for the threats we will face in 2010 and beyond.
    Congress has funded 52 aircraft Engineering Change Proposal 583 
upgrades through fiscal year 2003 with 20 more aircraft requiring 
follow on funding. The fiscal year 2004 President's Budget funds $27.0 
million, which will provide 6 aircraft with the 583 upgrades.

            CH-53E Helicopter Night Vision System
    Our second modernization priority also remains unchanged from 
fiscal year 2003: upgrading our fleet of 21 CH-53E helicopters with 
Helicopter Night Vision Systems. This Marine Corps Total Force program 
encompasses 152 aircraft, including 131 Active Component aircraft. The 
primary component of the Helicopter Night Vision Systems is the AN/AAQ-
29 Forward Looking Infrared. Helicopter Night Vision Systems ``expands 
the envelope'' by providing improved night and all-weather capability. 
The importance of having a robust and capable heavy lift capability was 
displayed in Afghanistan where the Corps' CH-53Es transported Marines 
and supplies hundreds of miles inland to austere operating sites. To 
operate effectively and within safe margins mandates that our CH-53Es 
be equipped with Helicopter Night Vision Systems. Congress has funded 
84 Helicopter Night Vision Systems through fiscal year 2003 with 68 
remaining unfunded (59 Active Component/9 Reserve Component). The 
fiscal year 2004 President's Budget funds $5.6 million, which will 
provide another 5 Helicopter Night Vision Systems.

            Initial Issue Equipment
    On the ground side, our most important priority concerns the need 
for adequate initial issue equipment for our individual Reserve 
Marines. Individual issue equipment includes body armor, cold weather 
items, tents, and improved load bearing equipment. Supplemental funding 
provided through the Defense Emergency Response Fund in fiscal year 
2002 allowed us to replace/replenish unserviceable gear which was 
paramount to the success of the recent mobilization of the Reserve 
forces.

Transformation
    The value of the Marine Corps Reserve has always been measured in 
our ability to effectively augment and reinforce the Active Component. 
Over the next several years, the overall structure of the Marine Corps 
Reserve will remain largely the same; however, we are working to create 
new capabilities to adapt and orient the reserve force to the changing 
strategic landscape. The capabilities were identified as part of an 
internal comprehensive review begun in 2001 and do not involve any 
changes to the number of reserves or the geographic laydown of the 
force.
  --Foremost among these capabilities will be the creation of two 
        Security Battalions and an Intelligence Support Battalion. The 
        Security Battalions will provide a dual-use capability 
        consisting of eight Anti-Terrorism Force Protection platoons 
        and an augmentation unit for the Marine Corps Chemical 
        Biological Incident Response Force.
  --Recognizing the increased requirements at Marine Corps and Joint 
        Commands for rapid, flexible staff augmentation, the Marine 
        Corps Reserve is enhancing and modifying the Individual 
        Mobilization Augmentee program to increase the quantity and 
        distribution of augmentee billets to better support the 
        warfighting commander's needs.
  --Additional Reserve capability improvements involve information 
        technology, environmental protection, and foreign language 
        skills.

                               CONCLUSION

    In early February this year while visiting a group of Marines in 
Qatar, the Commandant of the Marine Corps made the following comment: 
``I understand from the numbers that two-thirds of you here are 
reservists--I know you simply as Marines--and looking at performance I 
can't tell the difference.'' Testaments like this tell the real story 
of our success. Our greatest asset is our outstanding young men and 
women in uniform. Your consistent and steadfast support of our Marines 
and their families has directly contributed to our success. The Marine 
Corps appreciates your continued support and collaboration in making 
the Marine Corps and its Reserve the Department of Defense model for 
Total Force integration and expeditionary capability.

    Senator Stevens. Thank you. General Sherrard.
    General Sherrard. Yes, sir. Mr. Chairman, members of the 
committee, I, too, would like to thank you for the opportunity 
to come before you representing the men and women of the Air 
Force Reserve Command, nearly 76,000 strong, of which we have 
in excess of 15,000 mobilized today.
    As has been expressed by all the members of your committee, 
as well as my colleagues, the men and women of our command, 
along with all our cohorts, have just been fabulous in what 
they've done in response to the needs of the Nation, and we 
could not be more proud. We have a responsibility, each one of 
us, to make certain that we in fact look after their needs and 
make certain that they in fact are met, and I want to thank the 
committee for the things that you have done for us in the past, 
and for those that you'll do for us in the future in terms of 
pay and education benefits, in terms of modernization 
capabilities for our equipment, and as General James mentioned 
the LITENING II pods. That's one of the greatest things we've 
ever done for your Air Force, in terms of giving that 
capability to our F-16s, and we're now taking it into the A-10 
and the B-52, and it gives it remarkable capability, and if it 
were not for your support that would not have been possible.

                              MOBILIZATION

    I would tell you that our priorities in the command remain 
our people, readiness and modernization. We want to make 
certain that our people are always our number one objective. In 
doing so, as we go through the mobilization period we were 
faced with the same things that my cohorts have already 
mentioned, in some cases very short notice. We did not have the 
normal 30-day notice that we would like to have had. The 
members responded. In fact, I will tell you in reality they 
responded in the volunteer state and deployed before we had 
mobilization authority. They deployed as volunteers, and then 
we mobilized them in place in some cases.

                               READINESS

    In terms of the readiness side, we want to continue to 
pursue our accessing as many prior active service members as 
possible. That gets to be a major challenge for us, 
particularly as was mentioned by the earlier panel. When there 
is a stop loss of the active force, that does put a restriction 
on our recruiters, but I am very proud to tell you that our 
recruiters are out there, they met goal by getting as many of 
the nonpriors to fill in those holes where the prior service 
members were, in fact, not available, but the prior service 
members are certainly our key to success. They give us that 
experience level that is so critical for us to be able to do 
the things that we ask our members to do in light of the very 
limited time that they would have to serve with us when they're 
not in a mobilized state.

                             MODERNIZATION

    In terms of modernization, as I mentioned, we need to 
continue to make certain that our weapons systems are relevant. 
The combatant commanders insist upon that. If not, they don't 
invite you to the fight. We've got to make sure that they're 
interoperable not only with our active force and the Air 
National Guard, but also with our other component friends here, 
because we're all using the same battle space, and we've got to 
make certain that we can communicate and know who is the friend 
and who is the foe.

                             DEMOBILIZATION

    The things that I would tell you are most critical to us, 
as I mentioned earlier on the demobilization side, we have 
demobbed just under 3,000 people to date. We are bringing the 
people back as fast as the combatant commander releases them, 
back to the gaining major commands, who in turn will release 
them to us, but we want to make certain we do it in a very 
rational manner, that we provide the member the opportunity to 
exercise all the rights of reconstitution, of leave, and most 
importantly of the medical assessment, so we can determine if 
there have been some issues that would need to be addressed in 
the future for that member. We take that time and ensure that 
we don't do something that would place our members into harm's 
way when we could have prevented that if we had just taken some 
time and been a bit more orderly in the way we go about it.
    I think the Air Force has got a very reasonable and 
rational plan in bringing our members back and making certain 
that we do it properly. I will tell you, that as we in the blue 
suit community know very well, we are in fact all tied 
together, the active force, the Air Force Reserve, and the Air 
National Guard, seamlessly, and I would tell you our unit 
equipped units as well as our very cost-effective associate 
units give us a capability that allows us to meet the Air Force 
needs worldwide.
    I'd like to just close with the statement that I had the 
opportunity to discuss with one of my outstanding troops. I was 
having a conversation with one of our special operators when he 
was in theater, and he put it very succinctly, but also it 
touched what I think is the very reason that all of you are 
talking about today, why are our men and women willing to go 
sacrifice in some cases maybe their business, they certainly 
sacrifice time with their families and with their employers, 
and he put it very straightforward. He said, you know, if it's 
not me, then who, and if it's not now, then when, and I think 
that statement, or those two statements are, in fact, the 
things that each member of the Guard and Reserve components ask 
themselves, because it is their dedicated efforts that allow it 
to happen, and we could not be more proud of the response that 
they have stepped forward when asked. I thank the committee 
again for their service and support of us, and I also will tell 
you that we're very, very proud to be serving with our Air 
Force, and I look forward to questions that you may have. Thank 
you.
    [The statement follows:]

     Prepared Statement of Lieutenant General James E. Sherrard III

    Mr. Chairman, Senator Stevens, and distinguished members of the 
Committee, I appreciate the opportunity to appear before you today and 
I certainly want to thank you for your continued support, which has 
helped your Air Force Reserve address vital recruiting, retention, 
modernization, and infrastructural needs. Your passage of last year's 
pay and quality of life initiatives sent a clear message to our citizen 
airmen that their efforts are not only appreciated and supported by 
their families, employers, and the American people, but also by those 
of you in the highest positions of governing.

                           HIGHLIGHTS OF 2002

    We culminate 2002 and begin 2003 focused on transforming our air 
and space capabilities as well as streamlining the way we think about 
and employ our forces. We continue to develop our airmen into leaders, 
bring technology to them at their units and in the battlespace, and 
integrate operations to maximize our combat capabilities. These three 
basic core competencies are critical to the Air Force Reserve as we 
become more and more relevant in the future total force.
    The Air Force, with the Air Force Reserve Command (AFRC), has 
enjoyed over 30 years of unparalleled Total Force integration success. 
We were the first to establish associate units which blend Active and 
Reserve forces into the correct mix. Our members perform in almost 
every mission area and seek involvement in all future mission areas, as 
those areas become relevant. Key to our successes, to date, is the fact 
that AFRC is a very dynamic organization in a dynamic environment, 
still putting our airmen first, and using new technology to seamlessly 
integrate all our forces, whether associate or unit equipped, in both 
peace and war.

                         DEVELOPING OUR AIRMEN

    I am pleased to tell you that the Air Force Reserve continues to be 
a force of choice for the Air Force and the warfighting commanders, as 
we respond swiftly to each phase of the Global War On Terrorism (GWOT). 
We focus our attention on our people to assure they are provided the 
full spectrum of training opportunities, enhancing their war-fighting 
skills, the capabilities of the Air Force Reserve, and thus, the 
capabilities of the Air Force.
    As we strive to retain our best and brightest, we must continue to 
reward them through compensation and benefits. We continue to challenge 
our family support personnel, commanders, and first sergeants to find 
improved ways to look after the families who remain while our members 
deploy. We reach out to their employers with our thanks for their 
sacrifice and support. We encourage open dialogue among the troops, and 
from the troops, through their chain of command, to me, to exchange 
ideas and receive feedback. Finally, it is critical to partner with you 
to ensure we remain the strongest air and space force in the world.
    The Air Force is a team--we train together, work together, and 
fight together. Wherever you find the United States Air Force, at home 
or abroad, you will find the active and Reserve members working side-
by-side, trained to one tier of readiness, READY NOW! and that's the 
way it should be.

                               RECRUITING

    In fiscal year 2002, Air Force Reserve Command (AFRC) exceeded its 
recruiting goal for the second year in a row. This remarkable feat was 
achieved through the outstanding efforts of our recruiters, who 
accessed 107.9 percent of the recruiting goal, and through the superb 
assistance of our Reserve members who helped tell our story of public 
service to the American people. Additionally, AFRC was granted 
permission by the Assistant Secretary of the Air Force, Manpower and 
Reserve Affairs, in coordination with the Under Secretary for Defense 
(Personnel and Readiness), to surpass its fiscal year 2002 end-strength 
due to the ongoing support of current operations. AFRC end strength 
reached 102.59 percent of congressionally authorized requirements.
    Several initiatives contributed to Air Force Reserve recruiters 
once again leading the Department of Defense in annual accessions per 
recruiter. For example, in fiscal year 2001, AFRC permanently funded 50 
recruiter authorizations through accelerated authorizations and 
appropriations by the Congress, we extended the much appreciated 
Congressional action through the Programmed Objective Memorandum 
process. Further, they instituted a new 1-800 call center, redesigned 
the recruiting web site, launched an advertising campaign targeting 
those accessed from other services, and re-energized the ``Get One'' 
program, whereby Air Force Reserve members receive incentive awards for 
referrals and accessions given to recruiters.
    Moreover, AFRC received permanent funding for an ``off-base'' real 
estate program to set up offices in malls and other high visibility 
areas. This initiative was desperately needed to provide recruiters 
greater exposure in local communities and access to non-prior service 
(NPS) applicants--a significant recruiting requirement since the active 
duty drawdown.
    While fiscal year 2002 was an outstanding year for Recruiting, 
fiscal year 2003 is shaping up to be a very challenging year. A 
personnel management program, ``Stop-Loss,'' was implemented for Air 
Force members. Historically, Reserve Recruiting accesses close to 25 
percent of eligible separating active duty Air Force members (i.e. no 
break in service), accounting for a significant portion of annual 
accessions. Although Stop-Loss has since been terminated, the continued 
high OPS/PERS tempo may negatively impact our success in attracting 
separating airmen. As a result, Recruiters will have a difficult task 
accessing through other sources, including NPS, Air Force separatees 
with a break in service, and accessions from other service's former 
members.
    Additionally, one of the biggest challenges for recruiters this 
year is a shortage of Basic Military Training (BMT) and technical 
training school (TTS) quotas. BMT and TTS allocations have not kept 
pace with increasing NPS recruiting requirements. Specifically, 
Recruiting Services enlisted almost 1,500 applicants in fiscal year 
2002 without BMT and TTS dates. We are working closely with Air Force 
Specialty Code Functional Managers (FAMs) and the personnel community 
to increase the future number of BMT and TTS quotas available. In the 
interim, when we cannot match Basic Training and Technical Training 
Schools back-to-back, new airmen can complete basic training, report 
back to their unit for orientation and local training, then attend 
their technical school at a later date convenient to both the Air Force 
Reserve and the applicant.
    Finally, while overall end-strength of the Air Force Reserve 
exceeds 100 percent, some career-fields are undermanned. To avoid 
possible readiness concerns, recruiters will be challenged to guide 
applicants to critical job specialties. To assist in this effort, we 
continually review enlistment bonus listings to achieve parity with 
active duty listings for our airmen in these critical career-fields. It 
is an on-going management process involving all levels from career 
advisors to those of you on this committee to look into the future, 
anticipate the high demand specialties, and increase bonuses to balance 
supply and demand.

                               RETENTION

    Retention is a major concern within the Air Force Reserve. With the 
lifting of Stop Loss and extended partial mobilizations, the full 
impact on Reserve retention remains to be seen. Nevertheless, our over-
all enlisted retention rate of 86 percent for fiscal year 2002 exceeded 
the five year average. For officers, retention remains steady at 
approximately 92 percent.
    We continue to look at viable avenues to enhance retention of our 
reservists. We are exploring the feasibility of expanding the bonus 
program to our Active Guard and Reserve (AGR) and Air Reserve 
Technician (ART) members; however, no decision has yet been made to 
implement. In addition, the Aviation Continuation Pay (ACP) continues 
to be offered to retain our rated AGR officers. The Reserve has made 
many strides in increasing education benefits for our members, offering 
100 percent tuition assistance for those individuals pursuing an 
undergraduate degree and continuing to pay 75 percent for graduate 
degrees. We also employ the services of the Defense Activity for Non-
Traditional Education Support (DANTES) for College Level Examination 
Program (CLEP) testing for all reservists and their spouses. These are 
our most notable, but we continue to seek innovative ways to enhance 
retention whenever and wherever possible.

                      QUALITY OF LIFE INITIATIVES

    In an effort to better provide long term care insurance coverage 
for its members and their families, the Air Force Reserve participated 
in the Federal Long Term Care Insurance Program (a commercial insurance 
venture sponsored by the Office of Personnel Management). This program 
affords members of the Selected Reserve insurance coverage for a 
variety of home and assisted living care requirements. Legislative 
changes are being pursued to open program eligibility to those members 
who are ``gray area.'' The Air Force Reserve expanded its Special Duty 
Assignment Pay (SDAP) program to include an additional 17 traditional, 
7 Active Guard and Reserve (AGR), and 10 Individual Mobilization 
Augmentee (IMA) Air Force Specialty Codes, and continues to advance 
staff efforts to mirror the active duty SDAP program. Additionally, an 
initiative to pay Congressionally authorized SDAP to members performing 
inactive duty for training was approved on the thirteenth of February, 
this year.

                            THE BIG PICTURE

    We have learned much from the events of September 11, 2001, as it 
illustrated many things very clearly, not the least of them being the 
need for a new steady state of operations demanding more from our 
people and our resources. Within hours, and in some cases within 
minutes of the terrorist attacks, AFRC units throughout the country 
were involved in transporting people and resources to aid in the 
massive humanitarian relief effort. Air Force Reserve aeromedical 
evacuation (AE) aircrews were among the first to respond and provided 
almost half of the immediate AE response provided. However, the larger 
need was mortuary affairs support, of which the Air Force Reserve 
provides 75 percent of Air Force capability. Again, one hundred eighty-
six trained Reservists immediately stepped forward, in volunteer 
status, for this demanding mission. Reserve airlift crews were among 
the first to bring in critical supplies, equipment and personnel, 
including emergency response teams from the Federal Emergency 
Management Agency (FEMA), fire trucks, search dogs, and earth moving 
equipment. F-16 fighters and KC-135/KC-10 air refueling tankers 
immediately began pulling airborne and ground alert to provide combat 
air patrol support over major U.S. cities.
    In direct support of OPERATION ENDURING FREEDOM (OEF), Air Force 
reservists have flown a multitude of combat missions into Afghanistan. 
Most notably, the 917th Wing at Barksdale AFB, Louisiana (B-52s), the 
419th Fighter Wing at Hill AFB, Utah (F-16s), the 442d Fighter Wing at 
Whiteman AFB, Missouri (A-10s) and the 926th Fighter Wing at NAS Joint 
Reserve Base, New Orleans (A-10s). Reserve aircrews have flown C-17 
airdrop missions into Afghanistan delivering humanitarian aid, provided 
refueling tanker crews and support personnel from the 434th Air 
Refueling Wing at Grissom ARB, IN, and 349th Air Mobility Wing at 
Travis AFB, California (KC-10). Additionally, Air Force Reserve F-16 
units have been involved in support of Noble Eagle by flying combat air 
patrols over American cities (301st Fighter Wing, JRB NAS Fort Worth, 
Texas, 482d Fighter Wing, Homestead ARB, Florida, and 419th Fighter 
Wing, Hill AFB, Utah). Our AWACS associate aircrew from Tinker AFB, OK, 
flew 13 percent of the OPERATION NOBLE EAGLE sorties with only 4 
percent of the Total Force crews. Air Force Reserve C-130s with their 
aircrew and support personnel, under the direction of NORAD, in support 
of OPERATION NOBLE EAGLE, provided alert for rapid CONUS deployments of 
Army and Marine Quick response Forces and Ready Response Forces. 
Reserve units were also refueling those combat air patrol missions with 
refueling assets from various Reserve wings. Also in direct support of 
OPERATIONS ENDURING FREEDOM/NOBLE EAGLE, Air Force space operations' 
reservists have conducted Defense Meteorological Satellite Program 
(DMSP), Defense Support Program (DSP), and Global Positioning Satellite 
(GPS) operations, providing critical weather, warning, and navigation 
information to the warfighter. Additionally, Air Force reservists have 
supported Aerospace Operations Center efforts providing COMAFSPACE with 
situational awareness and force capabilities to conduct combat 
operations at all levels of conflict.
    Also, to date in support of OPERATION IRAQI FREEDOM (OIF), we have 
seen our reservists make huge contributions to each discipline key to 
its ongoing success. In strategic airlift, we contributed 45 percent of 
the C-17 support, 50 percent of the C-5 support, and 90 percent of the 
C-141C aircraft to not only move the people and supplies into theater, 
but to repatriate the Prisoners of War (POW) after their amazing 
recoveries. Intra-theater operations have also been critical to the 
success of the Operation, thus far. We have supplied 25 percent of the 
KC-10 and KC-135 support for theater refueling and 45 percent of 
aeromedical evacuation of the injured. Many thanks to you for your help 
in procuring cutting edge medical equipment such as Modular medical 
capability that allowed us to safely transport the injured. Our F-16s, 
B-52s, and A-10s, outfitted with the LITENING II pods and integrated 
with Army assets on the ground, through the Situation Awareness Data 
Link (SADL), proved invaluable for Strategic Attack, Close Air Support, 
and hunting down SCUD missiles. Three more areas that become more 
critical with each conflict are Special Operations, Combat Rescue, and 
Space Operations. Again, the Air Force Reserve plays a significant role 
in their success and support to the mission. We provided 33 percent of 
the HC-130 and HH-60 combat rescue, 62 percent of the Special 
Operations crews, and more than 900 space operators, providing 
Battlefield Situational Awareness key to the Commander's decision loop 
at all levels.
    What makes these units and individuals unique is the fact that our 
reservists have demonstrated time and time again, the success of an all 
volunteer force. In fact, many of those who were mobilized, had 
volunteered to perform duty, and day to day, a significant percentage 
of Air Force missions are performed through or augmented by AFRC. We 
are no longer a force held in reserve solely for possible war or 
contingency actions--we are at the tip of the spear. The attacks on our 
freedom--on our very way of life--cemented the Total Force policy 
already in place and AFRC continues to work shoulder-to-shoulder with 
the Active Duty (AD) and Air National Guard (ANG) components in the 
long battle to defeat terrorism.
    Effective modernization of Air Force Reserve Command (AFRC) assets 
is our key to remaining a relevant and combat ready force. It is 
apparent to all, that the Reserve Component is crucial to the defense 
of our great nation and our modernization strategy is sound, but is 
dependent upon lead command funding. AFRC has had limited success in 
getting the lead commands to fund our modernization requirements (CCIU 
and C-17 sim are two examples), but unfortunately lead command funding 
of AFRC modernization priorities remains below the level needed to 
maximize our capabilities. Although the National Guard and Reserve 
Equipment Appropriation (NGREA) funding helps offset some of these 
modernization shortfalls, the level of funding precludes us from 
addressing our larger modernization priorities. Success in meeting our 
modernization goals depends on robust interaction with the lead 
commands and in keeping Congressional budgeting authorities informed of 
AFRC initiatives.

                         INTEGRATING OPERATIONS

    AFRC made major Air Expeditionary Force (AEF) contributions in 
fiscal year 2002. We met virtually 100 percent of both aviation and 
combat support commitments, by deploying over 20,700 volunteers 
overseas and another 12,600 supporting homeland defense, in volunteer 
status. The challenge for 2003 will be to meet ongoing AEF commitments 
with volunteers from a Reserve force which has had much of its 
operations and combat support mobilized for homeland defense and the 
war on terrorism. As of today, over 12,000 Air Force Reservists are 
mobilized, and thousands more continue to provide daily support as 
volunteers. Over 1,500 of those mobilized are Individual Mobilization 
Augmentees (IMAs), providing critical support to the Unified Commands, 
active component MAJCOMs, and various defense agencies supporting 
Homeland Security and OPERATION ENDURING FREEDOM. Required support 
functions span the entire breadth of Reserve capabilities including 
security forces, civil engineering, rescue, special operations, 
strategic and tactical airlift, air refueling, fighters, bombers, 
AWACs, command and control, communications, satellite operations, 
logistics, intelligence, aerial port, services, mission support, and 
medical.

                          AEF CY02--IN REVIEW

    2002 ended as it began, in transition. It began with surging 
requirements brought on by the GWOT. To manage the surge, we remained 
true to the AEF concept to hold the negative impact of operations and 
personnel tempos to a minimum. AFRC was meeting the new taskings 
brought on by the war and the associated mobilizations while at the 
same time meeting AEF commitments we made prior to September 11. From 
the AFRC AEF Cell perspective it was a magnificent effort by all the 
wings in the command to meet the challenges. The full impact is 
appreciated when it is understood we did not ask to be relieved of any 
AEF tasking, met all new ONE/OEF taskings, and were still able to find 
volunteers to help fill other identified shortfalls. As the year ended, 
we transitioned to a lower activity level through demobilizations, but 
continued to plan for a potential new demanding operation. The constant 
is that we still have our AEF commitments, we are still meeting them, 
and we do not have any shortfalls. For next year we expect the number 
of AEF requirements to reflect the increase brought on by the war on 
terrorism. The culture change to an expeditionary air force is being 
realized through all levels of the command and is demonstrated in 
action as well as words by the response to the AEF, ONE, and OEF 
taskings of the past year.
    ARC participation is central to the AEF construct. The ARC normally 
contributes 10 percent of the Expeditionary Combat Support and 25 
percent of the aviation for steady-state rotations. Air National Guard 
(ANG) and AFRC forces make up nearly half of the forces assigned to 
each AEF, with the ARC making up the majority of forces in some mission 
areas.

                      TECHNOLOGY TO THE WARFIGHTER

F-16 Fighting Falcon
    Air Combat Command and AFRC are upgrading the F-16 Block 25/30/32 
in all core combat areas by installing a Global Positioning System 
(GPS) navigation system, Night Vision Imaging System (NVIS) and NVIS 
compatible aircraft lighting, Situational Awareness Data Link (SADL), 
Target Pod integration, GPS steered ``smart weapons'', an integrated 
Electronics Suite, Pylon Integrated Dispense System (PIDS),and the 
Digital Terrain System (DTS).
    The acquisition of the LITENING II targeting pod marked the 
greatest jump in combat capability for AFRC F-16s in years. At the 
conclusion of the Persian Gulf War, it became apparent that the ability 
to employ precision-guided munitions, specifically laser-guided bombs, 
would be a requirement for involvement in future conflicts. LITENING II 
affords the capability to employ precisely targeted Laser Guided Bombs 
(LGBs) effectively in both day and night operations, any time at any 
place. LITENING II was designed to be spirally developed to allow 
technology advances to be incorporated as that technology became 
available, and provides even greater combat capability. This capability 
allows AFRC F-16s to fulfill any mission tasking requiring a self-
designating, targeting-pod platform, providing needed relief for 
heavily tasked active duty units.
    These improvements have put AFRC F-16s at the leading edge of 
combat capability. The combination of these upgrades are unavailable in 
any other combat aircraft and make the Block 25/30/32 F-16 the most 
versatile combat asset available to a theater commander. Tremendous 
work has been done keeping the Block 25/30/32 F-16 employable in 
today's complex and demanding combat environment. This success has been 
the result of far-sighted planning that has capitalized on emerging 
commercial and military technology to provide specific capabilities 
that were projected to be critical. That planning and vision must 
continue if the F-16 is to remain usable as the largest single 
community of aircraft in America's fighter force. Older model Block 25/
30/32 F-16 aircraft require structural improvements to guarantee that 
they will last as long as they are needed. They also require data 
processor and wiring system upgrades in order to support employment of 
more sophisticated precision attack weapons. They must have improved 
pilot displays to integrate and present the large volumes of data now 
provided to the cockpit. Additional capabilities to include LITENING II 
pod upgrades, are needed to nearly eliminate fratricide and allow 
weapons employment at increased range, day or night and in all weather 
conditions. They must also be equipped with significantly improved 
threat detection, threat identification, and threat engagement systems 
in order to meet the challenges of combat survival and employment for 
the next 20 years.

A/OA-10 Thunderbolt
    There are five major programs over the next five years to ensure 
the A/OA-10 remains a viable part of the total Air Force. The first is 
increasing its precision engagement capabilities. The A-10 was designed 
for the Cold War and is the most effective Close Air Support (CAS) 
anti-armor platform in the USAF, as demonstrated during the Persian 
Gulf War. Unfortunately, its systems have not kept pace with modern 
tactics as was proven during Operation Allied Force. The AGM-65 
(Maverick) is the only precision-guided weapon carried on the A-10. 
Newer weapons are being added into the Air Force inventory regularly, 
but the current avionics and computer structure limits the deployment 
of these weapons on the A-10. The Precision Engagement and Suite 3 
programs will help correct this limitation. Next, critical systems on 
the engines are causing lost sorties and increased maintenance 
activity. Several design changes to the Accessory Gearbox will extend 
its useful life and reduce the existing maintenance expense associated 
with the high removal rate. The other two programs increase the 
navigation accuracy and the overall capability of the fire control 
computer, both increasing the weapons system's overall effectiveness. 
Recent interim improvements included Lightweight Airborne Recovery 
System (LARS) and LITENING II targeting pod integration.
    With the advent of targeting pod integration, pods must be made 
available to the A-10 aircraft. Thirty LITENING II AT pods are required 
to bring advanced weapon employment to this aircraft. AFRC looks 
forward to supporting the Precision Engagement program to further 
integrate targeting pods. Looking to the future, there is a requirement 
for a training package of 30 PRC-112B/C survival radios for 10th Air 
Force fighter, rescue, and special operations units. While more 
capable, these radios are also more demanding to operate and additional 
units are needed to ensure the aircrews are fully proficient in their 
operation. One of the A-10 challenges is resources for upgrade in the 
area of high threat survivability. Previous efforts focused on an 
accurate missile warning system and effective, modern flares; however a 
new preemptive covert flare system may satisfy the requirement. The A-
10 can leverage the work done on the F-16 Radar Warning Receiver and C-
130 towed decoy development programs to achieve a cost-effective 
capability. The A/OA-10 has a thrust deficiency in its operational 
environment. As taskings evolved, commanders have had to reduce fuel 
loads, limit take-off times to early morning hours and refuse taskings 
that increase gross weights to unsupportable limits.

B-52 Stratofortress
    In the next five years, several major programs will be introduced 
to increase the capabilities of the B-52 aircraft. Included here are 
programs such as a Crash Survivable Flight Data Recorder and a Standard 
Flight Data Recorder, upgrades to the current Electro-Optical Viewing 
System, Chaff and Flare Improvements, and improvements to cockpit 
lighting and crew escape systems to allow use of Night Vision Goggles.
    Enhancements to the AFRC B-52 fleet currently under consideration 
are:
  --Visual clearance of the target area in support of other 
        conventional munitions employment;
  --Self-designation of targets, eliminating the current need for 
        support aircraft to accomplish this role;
  --Target coordinate updates to JDAM and WCMD, improving accuracy; and
  --Bomb Damage Assessment of targets.
    In order to continue the viability of the B-52 well into the next 
decade, several improvements and modifications are necessary. Although 
the aircraft has been extensively modified since its entry into the 
fleet, the advent of precision guided munitions and the increased use 
of the B-52 in conventional and Operations Other Than War (OOTW) 
operation requires additional avionics modernization and changes to the 
weapons capabilities such as the Avionics Midlife Improvement, 
Conventional Enhancement Modification (CEM), and the Integrated 
Conventional Stores Management System (ICSMS). Changes in the threat 
environment are also driving modifications to the defensive suite 
including Situational Awareness Defense Improvement (SADI) and the 
Electronic Counter Measures Improvement (ECMI), and integration of the 
LITENING II targeting pod. 5 LITENING II AT pods are required to 
support this important new capability.
    The B-52 was originally designed to strike targets across the globe 
from launch in the United States. This capability is being repeatedly 
demonstrated, but the need for real time targeting information and 
immediate reaction to strike location changes is needed. Multiple 
modifications are addressing these needs. These integrated advanced 
communications systems will enhance the B-52 capability to launch and 
modify target locations while airborne. Other communications 
improvements are the Global Air Traffic Management (GATM) Phase 1, an 
improved ARC-210, the KY-100 Secure Voice, and a GPS-TACAN Replacement 
System (TRS).
    As can be expected with an airframe of the age of the B-52, much 
must be done to enhance its reliability and replace older, less 
reliable or failing hardware. These include a Fuel Enrichment Valve 
Modification, Engine Oil System Package, and an Engine Accessories 
Upgrade, all to increase the longevity of the airframe.

MC-130H Talon
    In 2006, AFRC and Air Force Special Operations Command will face a 
significant decision point on whether or not to retire the Talon I. 
This largely depends on the determination of the upcoming SOF Tanker 
Requirement Study. Additionally, the MC-130H Talon II aircraft will be 
modified to air refuel helicopters. The Air Force CV-22 is being 
developed to replace the entire MH-53J Pave Low fleet, and the MC-130E 
Combat Talon I. The CV-22 program has been plagued with problems and 
delays and has an uncertain future. Ultimately, supply/demand will 
impact willingness and ability to pay for costly upgrades along with 
unforeseeable expenses required to sustain an aging weapons system.

HC-130P/N Hercules
    Over the next five years, there will be primarily sustainability 
modifications to the weapons systems to allow it to maintain 
compatibility with the remainder of the C-130 fleet. In order to 
maintain currency with the active duty fleet, AFRC will accelerate the 
installation of the APN-241 as a replacement for the APN-59. 
Additionally, AFRC will receive two aircraft modified from the ``E'' 
configuration to the Search and Rescue configuration. All AFRC assets 
will be upgraded to provide Night Vision Imaging System (NVIS) mission 
capability for C-130 combat rescue aircraft.

HH-60G Pave Hawk
    Combat Search and Rescue (CSAR) Mission Area modernization strategy 
currently focuses on resolving critical weapon system capability 
shortfalls and deficiencies that pertain to the Combat Air Force's 
Combat Identification, Data Links, Night/All-Weather Capability, Threat 
Countermeasures, Sustainability, Expeditionary Operations, and 
Pararescue modernization focus. Since the CAF's CSAR forces have 
several critical capability shortfalls that impact their ability to 
effectively accomplish their primary mission tasks today, most CSAR 
modernization programs/initiatives are concentrated in the near-term 
(fiscal year 2000-06). These are programs that:
  --Improve capability to pinpoint location and authenticate identity 
        of downed aircrew members/isolated personnel
  --Provide line-of-sight and over-the-horizon high speed LPI/D data 
        link capabilities for improving battle space/situational 
        awareness
  --Improve Command and Control capability to rapidly respond to 
        ``isolating'' incidents and efficiently/effectively task 
        limited assets
  --Improve capability to conduct rescue/recovery operations at night, 
        in other low illumination conditions, and in all but the most 
        severe weather conditions
  --Provide warning and countermeasure capabilities against RF/IR/EO/DE 
        threats
  --Enhance availability, reliability, maintainability, and 
        sustainability of aircraft weapon systems.

WC-130J Hercules
    The current WC-130H fleet is being replaced with new WC-130J 
models. This replacement allows for longer range and ensures weather 
reconnaissance capability well into the next decade. Once conversion is 
complete, the 53rd Weather Reconnaissance Squadron will consist of 10 
WC-130J's. Presently, there are seven WC-130J models at Keesler AFB, MS 
undergoing Qualification Test and Evaluation (QT&E). The remaining 
three aircraft have been transferred to AFRC and are currently at 
Lockheed Marietta scheduled for delivery to Keesler AFB. Deliveries are 
based on the resolution of deficiencies identified in test and will 
impact the start of operational testing and the achievement of interim 
operational capability (IOC). Major deficiencies include: propellers 
(durability/supportability), radar modification to correct (range to 
range inconsistencies), tilt and start up blanking display errors and, 
SATCOM transmission deficiencies. AFRC continues to work with the 
manufacturer to resolve the QT&E documented deficiencies.

C-5 Galaxy
    Over the next five years, there will be sustainability 
modifications to the weapon system to allow it to continue as the 
backbone of the airlift community. The fleet will receive the avionics 
modernization which replaces cockpit displays while upgrading critical 
flight controls, navigational and communications equipment. This will 
allow the C-5 to operate in Global Air Traffic Management (GATM) 
airspace. Additionally, the C-5B models and possibly the C-5As, will 
undergo a Reliability Enhancement and Re-engining program which will 
not only replace the powerplant, but also numerous unreliable systems 
and components. The 445th Airlift Wing at Wright Patterson AFB, OH will 
transition from C-141 Starlifters to C-5As in fiscal year 2006 and 
fiscal year 2007. Finally, the 439th Airlift Wing at Westover ARB, MA 
will modernize its C-5 fleet in fiscal year 2007 and fiscal year 2008 
when it transitions from C-5As to C-5Bs.

C-17 Globemaster
    Beginning in fiscal year 2005, the Air Force Reserve Command will 
enter a new era as the 452nd Air Mobility Wing at March Air Reserve 
Base, CA transitions from C-141s to C-17 Globemasters. Although 
reservists have been associating with active C-17 units since their 
inception in the active Air Force, March ARB will be the Command's 
first C-17 Unit Equipped Unit and will aid in maintaining diversity in 
the Reserve Command's strategic mobility fleet.

C-141 Starlifter
    For the past 30 years, the C-141 has been the backbone of mobility 
for the United States military in peacetime and in conflict. In the 
very near future, the C-141 will be retired from the active-duty Air 
Force. However, AFRC continues the proud heritage of this mobility 
workhorse and will continue to fly the C-141 through fiscal year 2006. 
It is crucial that AFRC remains focused on flying this mission safely 
and proficiently until units convert to follow-on missions.
    Replacement missions must be more than the insertion of another 
airframe. They must be a viable mission that includes modernized 
equipment.

C-130 Hercules
    AFRC has 127 C-130s including the E, H, J and N/P models. The 
Mobility Air Forces (MAF) currently operates the world's best theater 
airlift aircraft, the C-130, and it will continue in service through 
2020. In order to continue to meet the Air Force's combat delivery 
requirements through the next 17 years, aircraft not being replaced by 
the C-130J will become part of the C-130X Program. Phase 1, Avionics 
Modernization Program (AMP) program includes a comprehensive cockpit 
modernization by replacing aging, unreliable equipment and adding 
additional equipment necessary to meet Nav/Safety and GATM 
requirements. Together, C-130J and C-130X modernization initiatives 
reduce the number of aircraft variants from twenty to two core 
variants, which will significantly reduce the support footprint and 
increase the capability of the C-130 fleet. The modernization of our C-
130 forces strengthens our ability to ensure the success of our 
warfighting commanders and lays the foundation for tomorrow's 
readiness.

KC-135E/R Stratotanker
    One of AFRC's most challenging modernization issues concerns our 
unit-equipped KC-135s. Five of the seven air refueling squadrons are 
equipped with the KC-135R, while the remaining two squadrons are 
equipped with KC-135E's. The KC-135E, commonly referred to as the E-
model, has engines that were recovered from retiring airliners. This 
conversion, which was accomplished in the early-mid 1980s, was intended 
as an interim solution to provide improvement in capability while 
awaiting conversion to the R-model with its new, high-bypass, turbofan 
engines and other modifications. AFRC's remaining two E-models units 
look forward to converting to R-models in the very near future. The 
ability of the Mobility Air Forces (MAF) to conduct the air refueling 
mission has been stressed in recent years. Although total force 
contributions have enabled success in previous air campaigns, 
shortfalls exist to meet the requirements of our National Military 
Strategy. AMC's Tanker Requirements Study-2005 (TRS-05) identifies a 
shortfall in the number of tanker aircraft and aircrews needed to meet 
global refueling requirements in the year 2005. There is currently a 
shortage of KC-135 crews and maintenance personnel. Additionally, the 
number of KC-135 aircraft available to perform the mission has 
decreased in recent years due to an increase in depot-possessed 
aircraft with a decrease in mission capable (MC) rates. An air 
refueling Mission Needs Statement has been developed and an Analysis of 
Alternatives (AoA) will be conducted to determine the most effective 
solution set to meet the nation's future air refueling requirements.

                             FUTURE VECTOR

    As we think about our future, the nature of warfighting, and the 
new steady state, we anticipate many challenges. While this new mission 
activity continues, we need to keep our focus--assess the impact of 
Stop Loss on our operations, provide adequate funding for continuing 
activations, and keep an eye on sustaining our recruiting efforts. The 
challenge will be to retain our experience base and keep our prior 
service levels high.
    With your continued support, and that which you have already given, 
we will be able to meet each new challenge head-on, without 
trepidation.
    Our Citizen Airmen, alongside the Active Duty and the Air National 
Guard, continue to step through the fog and friction as we prosecute 
the GWOT. Our support for them is not just in the battlespace, but at 
home. We will continue to refine the ways we support their families, 
their employers, and the members themselves as we keep the lines of 
communication open to you. We must ensure that we are doing as much for 
them through increased pay, benefits, and finding the right mix between 
equity and parity with their Active Duty counterparts, as we continue 
to ask more and more of them. We must continue to think outside the 
box, to protect their rights as students who are called away from an 
important semester, as employees who must turn that big project over to 
someone else in the company for a while, and just as critically, as 
sons, daughters, husbands, wives, and parents who will miss birthdays, 
graduations, and a litany of other events many of us take for granted.
    We are making strides at leveling the operations tempo by finding 
the right skill mix between the ARCs and the AD. In a Total Force 
realignment of scarce Low Density/High Demand (LD/HD) resources, the 
939th Rescue Wing's HC-130s and HH-60s will transfer to the active 
component in order to reduce the Total Force PERSTEMPO in the LD/HD 
mission of Combat Search and Rescue. The transfer of these assets to 
the active component increases full-time personnel without increasing 
already high volunteerism rates or having to mobilize a significant 
number of CSAR reservists. The activation of the 939th Air Refueling 
Wing, Portland, OR addresses the need for more aerial refueling assets 
on the West coast enhancing our ability to rapidly respond to any 
crisis.
    Additionally, AFRC has assumed responsibility for supporting the 
National Science Foundation DEEP FREEZE mission. The next three years, 
the men and women of the 452nd AMW at March ARB, CA, will be flying C-
141 support missions in support of this Antarctic operation. We have 
also assumed 16 percent of the total force Undergraduate Pilot Training 
programs at seven bases around the United States and we continue to 
balance, assume, and relinquish missions or parts of missions to 
accommodate the goals of the Air Force and Department of Defense as 
world events unfold and dictate change, and as necessary to lessen the 
burden on our members and the AD.
    All of the distinguished members on the committee, and we in the 
Air Force and Air Force Reserve, have been given an incredible 
opportunity and an incredible responsibility to shape not only the 
structure of the world's premiere air and space force, but to shape its 
environment--its quality people, and the quality of their lives. Our 
mission will continue to be accomplished more accurately, more timely, 
and with an even greater pride, as we focus on our best resource.
    These and other evolving missions are just some of the areas into 
which we hope to continue to expand, keeping reserve personnel 
relevant, trained, and READY NOW when we are called. I'd like to extend 
my thanks again to the committee for allowing me the opportunity to 
testify before you here today and for all you do for the Air Force 
Reserve.

    Senator Stevens. Well, thank you all. The actions of your 
people and your supervision of them more than validated all the 
work that we've done to try to upgrade the reserve and to make 
certain that it had the equipment, you all had the equipment to 
train and to deploy that would be needed.

                           RETIREMENT POLICY

    You sat through the questions that we had for your 
predecessors. If you have any comments about those, we would be 
glad to have them, but I've been thinking about the problem of 
a total force and what it means to be deployed as often as we 
have had people deployed during these past years going back to 
Bosnia and Kosovo, and even back further than that into Panama 
and various other problems, and I wonder if you've ever thought 
about the concept of active Guard Reserve having a multiplier 
for the retirement credit for the times they actually serve in 
combat status. Any of you ever reviewed that, some added 
incentive, really reward for those who do answer the call?
    We've had people go through prolonged periods of peacetime 
who had reserve credits towards retirement, but I think when 
these people are called up, particularly under the 
circumstances that we've had in the past few years, there 
should be a change in the retirement system so that there's a 
recognition for those who have answered the call, and I think 
it would be an incentive for those who might be called up to 
respond. Do you have any comments about that? Admiral.
    Admiral Totushek. If I may, Mr. Chairman, everywhere I go 
today people ask me about a change in the retirement policy and 
this, of course, was proposed last year to lower the retirement 
age for reservists down to age 55.
    I understand that in the form that it was presented it was 
a very big bill to the country, but it seems to me there has to 
be some recognition of, if we're going to use reservists more 
often, that we in fact do recognize the fact that they are no 
longer weekend warriors and are very much a part of the total 
force, so I think an idea like that, or an idea that combines 
something that allows them to get a little bit of their 
retirement a little bit earlier, if it makes sense for them, 
would make sense for all the reserve components.
    Senator Stevens. Well, this would make their retirement 
come earlier. If you had 2 years' service and it gave you 4, or 
maybe 6 years' credit to your retirement, then obviously you're 
going to get it sooner.
    Admiral Totushek. Right.
    Senator Stevens. Because it is a combination of age and 
total service, isn't it?
    Admiral Totushek. Yes. It's your number of points that you 
earn, and those basically are done by the year, and this 
would--an idea like that, but there is an idea out there 
somewhere, if we put all these things together, that's going to 
work for our people.
    Senator Stevens. I will ask for a review of that and see if 
we can get some studies made. There ought to be some 
recognition so that those--we're in a situation where some 
people are not called up, and they will go through and get the 
same retirement as those who were, and I think there ought to 
be some mark on the wall for having answered the call to duty, 
and for those people who are already on duty to have intensive 
duty as compared to just normal peacetime service, but it's one 
of those things--is there anything you're doing now to assure 
that we're going to meet the recruiting goals in the future? 
Are we going to have a drop-off now?
    We had an increase in volunteerism, I'm sure you know, a 
spike there, as this whole situation built up, but I think now 
that this is over, there's sort of a lull that comes. What are 
your plans for recruiting in this post-war period? We're not 
there yet, but it's coming soon, I assume.
    General Helmly. Senator, if I may, for the Army we went 
back and I looked at Desert Shield/Desert Storm as a point in 
time. We experienced--since Desert Shield/Desert Storm, the 
soldiers who served in Desert Shield/Desert Storm, that cohort 
group has attrited since then by about 85 percent. I've been 
unable to break that, the number who, if you will, left as 
opposed to those who completed a term of service, that is, 
retired after 20 years, and I might add one correction. Your 
proposal regarding retirement under current law, though, would 
still not allow the reserve member to receive benefits from 
retirement until age 60. They might get there faster, but 
wouldn't get any benefits.
    Senator Stevens. I may not have explained it, but I would 
reduce----

                               ATTRITION

    General Helmly. Yes, sir, okay.
    Senator Stevens [continuing]. The age by the equivalent 
amount.
    General Helmly. I understand.
    Senator Stevens. So that if you served 5 years and you're 
supposed to retire at 65, you would actually be able to stand 
down at 55.
    General Helmly. Yes, sir. But regarding attrition, for 
myself, I dare say for all of us, in an all-volunteer force, 
that is something we cannot take for granted. We're addressing 
that. I proposed to the Department of the Army that we retain a 
stop-loss in place. That stop-loss is good for the period of 
mobilization plus 90 days. I've asked for that solely because 
we wish to have the soldier deal, not with emotions and 
external pressures, but, rather, facts. It is a very volatile 
situation.
    Where we are today, if we retain the current stop-loss in 
place, based on the number we have mobilized and just the 
physical factors of how fast you can bring them back home and 
demobilize them in a humane, considerate sort of way, we will 
exceed our end strength at the end of fiscal year 2003 by as 
much as 9,000. Our end strength is 205. We have projections we 
could come in at 214. In turn, our worst case attrition model 
says that we could come in as low as 192 at the end of next 
fiscal year 2004, so I will tell you that it is an extremely 
volatile situation.
    My biggest concern falls in the area of professional 
medical staff. Two-thirds of the Army's combat medical care is 
resident in the Army Reserve. Our highest attrition rates are 
suffered by our professionals in the AMEDD field, self-
employed. In fact, we put them some years ago on a 90-day 
rotation model to be considerate of not breaking private 
practices, so I don't have any ready-made solutions, other than 
to say we're putting a full court press on, to include starting 
tomorrow, myself, personally, going out to hold town hall 
meetings with soldiers that we have mobilized, and we have 
about 25,000 in this category that we have mobilized in less 
than 10 days' notice, gotten trained, and gotten certified for 
deployment, but the war was over quickly, and they're hung up 
literally at a mobilization station waiting for us to either 
demobilize them, give them a subsequent mission in another part 
of the world, or send them to the desert and bring another unit 
home, but again, the law of physical mass applies in terms of 
strategic lift transportation, what kind of unit is needed in 
theater, sequencing that, et cetera.
    So I would just close by saying there's a passage in a new 
book out, and I apologize, I don't remember the author's name. 
The book is, The Principles of War for the Information Age. One 
of the passages in that book deals with the requirement for 
precision mobilization. That is what I alluded to in my remarks 
when I said that largely the policies, practices, procedures 
that we employ in the Department with regard to the 
mobilization and use of reserve members were designed for an 
age which is no longer with us; that is, a mobilization of 
masses of people over a long period of time with subsequent 
demobilization of virtually everyone. We just have to come to 
grips with that and develop the procedures, policies, and 
practices to be more precise and, in so doing, very considerate 
of people and their employers.
    Senator Stevens. Well, I do appreciate that. Do any of the 
other of you have comments? I do want to make one request, and 
I'm sure Senator Cochran's got some questions, but I'd like to 
have each of you for the record provide us information about 
the percentage of your people who actually stay in your service 
to retirement time, as compared to the volume that come through 
your reserve units.
    How many of them really stay with you to retirement, 
particularly with the age you mentioned, 65? That would be 
interesting for us to look at, because I think there ought to 
be some greater incentive to keep people through at least the 
50, 55 age group, and I'd like to see where that break-off is. 
Where do they start fluffing off and saying, this is not worth 
it?
    General Helmly. We can get you that data. We've got that.
    [The information follows:]

                               Retirement

    The following information is presented to provide a short 
introduction to the current retirement program for members of the Air 
Force Reserve as set forth by provisions found in 10 United States 
Code, Sections 12731, 8911, and 8914. The most notable distinction 
between reserve (non-regular) retirement and active duty (regular 
retirement) is that reservists do not receive retired pay until 
attaining age 60 while active duty (regular retirees) receive an 
immediate annuity upon retirement.
    The Retired Reserve consists of two categories of members. The 
first category is composed of those members that are actually receiving 
retired pay. The second category is composed of those members who have 
met all requirements for retired pay EXCEPT for the attainment of age 
60. The Reserve components use age 60 as the ``cut-off'' for retirement 
as public law prohibits military service past age 60 (with the 
exception of general officers, chaplains, and those officers in medical 
specialties). Originally, the age 60 retired pay eligibility 
corresponded to the retirement age for federal civil service. The 
retirement age for full civil service annuity was lowered to 55 over 25 
years ago.
    Members must complete at least 20 years of satisfactory service to 
attain eligibility for retired pay (a satisfactory year is a year in 
which a member earns 50 or more ``points'' toward retirement). 
Additionally, the last six or eight qualifying years of this service 
must have been served in the Reserve component (as directed by changes 
in public law). The 2003 National Defense Authorization Act made 
permanent the six-year requirement for qualifying duty in the Reserve 
component.
    Retired pay for active duty members who first joined any military 
service on or after September 8, 1980 is computed using the average of 
the highest 36 months of base pay and the member's grade and years of 
service. Members qualifying to retire under the ``active duty'' 
retirement provision (Sections 8911 and 8914), and who have a ``date of 
initial entry to military service'' on or after August 1, 1986 may 
elect to receive a career status bonus at the 15-year point. However, 
their retired pay will be computed using 40 percent of the ``high-
three'' years of service for 20 years and additional 3.5 percent for 
each additional year up to a maximum of 75 percent. As with any 
retirement plan, the greater the time of satisfactory service, the 
greater the retirement pay at the culmination of the career. This 
provides an increased incentive for members to stay longer in the 
Reserve component.

                  RESERVE COMPONENT RETIREMENT SYSTEM

    Qualification for payment of retired pay for non-regular service 
(Reserve component retirement) is outlined in Title 10, United States 
Code 12731. It requires that the person:
  --Is at least 60 years of age;
  --Has performed at least 20 years of service; and
  --Performed the last six years of qualifying service while a member 
        of the Reserve components.
    Regardless of the total number of years served beyond 20 years, 
receipt of retired pay is delayed until age 60.
    The only monetary incentive for participation beyond 20 years of 
service (assuming member has served at least the last six in the RC) is 
the payment of duty performed and the accumulation of additional points 
to increase the value of the members retirement pay upon receipt at age 
60.
    Reduction of receipt of retired for RC members acknowledges the 
contribution of these members when DOD is asking more and more of these 
citizen airman, soldiers, sailors, marines and coast guardsmen.
    Analysis of Congressional bills introduced in the 108th Congress:

------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                           H.R. 331                                            H.R. 742                                             S. 445
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Introduced By.......................  Rep Wilson (R-2-SC)...............................  Rep Saxton (R-3-NJ)...............................  Sen Landrieu (D-LA)
Title...............................  Armed Forces Retirement Equity Act................  To amend title 10 United States Code, to reduce     Reservists Retirement and Retention Act of 2003
                                                                                           the age for receipt of military retired pay for
                                                                                           non-regular service from 60 to 55.
Requirement of Bill.................  Member qualifies for receipt of retired pay at 20   Reduces receipt of retired pay to age 55, assuming  Reduces receipt of retired pay by 1-year for every
                                       years of service, assuming all other requirements   all other requirements of 10 U.S.C. 12731 are met.  2 years the member serves beyond 20, assuming all
                                       of 10 U.S.C. 12731 are met.                                                                             other requirements of 10 U.S.C. 12731 are met,
                                                                                                                                               not to be reduced below age 55
Pros................................  (1) Pays retirement immediately, based on same      (1 Reservist waits 5-years less for receipt of      (1) Encourages service beyond 20-years to increase
                                       length of service commitment as active duty         retirement pay; (2) Recognizes and rewards the      the value of members retirement pay and thus
                                       members; (2) Incentive for prior active service     increased use of RC members; (3) Possible           reduce age for receipt of payment; (2) Retention
                                       members to join the RC.                             incentive for prior active service members to       tool of current RC members and recruiting tool of
                                                                                           join the RC; (4) Reduces the pay gap between        prior active service members--good deal for the
                                                                                           actual retirement and receipt of retired pay at     RC; (3) Members continued service beyond 20
                                                                                           age 60.                                             determines the receipt of retired pay before age
                                                                                                                                               60; (4) Reduces the pay gap between actual
                                                                                                                                               retirement and receipt of retired pay at age 60
Cons................................  (1) No incentive for continued service beyond 20    (1) Little incentive for continued service beyond   (1) Increased cost, but as member continues to
                                       years; (2) Cost prohibitive; (3) To make the        20 years--Not a good deal for the RC; (2)           participate, additional dollars are added to the
                                       proposal cost neutral, would have to reduce the     Increased cost to pay 5-years early and to          retirement accrual account thus reducing the up
                                       value of each retirement point significantly,       include current gray-area Reservists between age    front bill to the services required in H.R. 742
                                       thus value of monthly retired pay is reduced.       55 and 59; (3) Includes these members and their
                                                                                           dependents in the TRICARE Health Program 5-years
                                                                                           early.
Costs...............................  Unknown; highest cost.............................  Unknown; middle cost..............................  Unknown; lowest cost
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

                     naval reserve retirement data
    The following chart shows the percentage of Naval Reservists that 
became eligible for retirement for the past four years (1999-2002).

----------------------------------------------------------------------------------------------------------------
                                                                     Drilling      # of Notices
                              Year                                    Reserve     of Eligibility      Percent
                                                                     Strength     for Retirement
----------------------------------------------------------------------------------------------------------------
1999............................................................          70,872           3,200             4.5
2000............................................................          64,163           3,163             4.9
2001............................................................          69,636           2,754             4.0
2002............................................................          73,142           2,724             3.7
----------------------------------------------------------------------------------------------------------------

    Senator Stevens. Thank you. Admiral, do you have any 
comments?
    Admiral Totushek. Yes, and in our case actually, because as 
I was saying, with some of the mobilizations, that actually 
increased and helped us, I believe, drive down the attrition 
that we've experienced historically in the Naval Reserve. I 
actually lowered my recruiting goal by 2,000 for my enlisted 
people this year. The war had a little bit more impact on 
officers and my officer recruiting has dipped off a little bit. 
We're working hard to try and get that up by the end of the 
year, but in the near term we don't see a big impact on us.
    Now, we're going to carefully measure and again survey to 
find out exactly what the implications are after the second 
large mobilization in a row, and I think this additive thing is 
a thing we're going to have to deal with, now that we're 
looking at two big ones right back to back. That will have some 
impact, and we're just going to have to assess what it is.
    Senator Stevens. General McCarthy.
    General McCarthy. Senator, I would like to just make the 
point that this question of retention and so forth is another 
one of those indications that one size doesn't fit all in terms 
of the various Armed Services. The Marine Corps Reserve, just 
like the active component of the Marine Corps, is very, very 
largely a first-term force, about 70 percent. In each case, 
both the active component and reserve component are first term 
marines. We are not a long-term or a large career force like 
some of the others, and so the implications of what constitutes 
retention are different and vary by service.
    Having said that, there clearly is a portion of our force, 
most of the Officer Corps and those enlisted marines who will 
go on to be staff noncommissioned officers that we're very, 
very interested in retaining, and we'll have to study over the 
next year what the implications of that, of a prolonged 
mobilization will have on that portion of our force.
    Recruiting has continued apace while we've been deployed, 
and we've continued to meet all of our goals on recruiting, and 
so I'm less concerned about our recruiting and our ability to 
recruit in the future than I am about this issue of retention, 
but as I say, for the Marine Corps, the proportions, or the 
percentages are significantly different than my colleagues, and 
so the remedies or the tools that we need to use may be 
somewhat different as well, but it is an issue that we're very 
watchful of.
    Senator Stevens. Do you have an in-grade step increase? For 
instance, you know, in the Civil Service, if you're grade 13 
you can be grade 13 step 1 through 12, I think. Do you have 
that for sergeants in the Marines?
    General McCarthy. Yes, sir, and our pay scale is exactly 
the same as everybody else, so that a corporal with 3 years' 
service makes less money than a corporal with 4 years' service, 
and progressing on, yes, sir.
    Senator Stevens. Well, I'd be interested in what you might 
think would extend some of those people beyond one term, not 
now, but if you have any incentives in mind--you do have a 
particularly different force.
    General McCarthy. Yes, sir.

                               RETENTION

    Senator Stevens. If you have any concept of what might lead 
people to re-up for another hitch, particularly coming from 
active to reserve for at least one additional hitch, those sort 
of things would augment the total force in a tremendous way, 
because we all know the Marines have a different focus in terms 
of mobilization, and they're needed now, you know, so it's a 
different thing.
    General Sherrard.
    General Sherrard. Yes, sir. I would tell you that, as I 
mentioned in my earlier statement, our key to success is prior 
service and retaining those members. Anything that we can do 
that would retain that member to the maximum extent possible, 
ideally for the enlisted force to their high-year tenure date, 
or for the officers to their mandatory separation date, it 
certainly would enhance our ability to keep that experience 
base that is so critical for us to do our jobs.
    As you know, and it was mentioned earlier, when you have 
attained 20 years of satisfactory service, you are eligible to 
declare yourself for retired status, realizing you're not going 
to draw pay until age 60. I'm a firm believer and have been a 
strong advocate all along that if I can keep them from 20 to 30 
years, that 10 years, every time I keep three of those members, 
that's one that I've reduced the training requirement and a 
huge training dollar cost significantly for my force and for 
this Nation. We need to keep that base there.
    So I would welcome you to look at all these options, sir, 
whether it be a multiplier, as you mentioned, for combat 
service, or whether it would be some option for service beyond 
20 years, or some incentivization that you could offer to the 
member that, as you know, all bonuses and things of that type, 
with the exception of the pilot bonus for the active duty 
members, ends at the 20 years.
    So really they're working for points that they're going to 
achieve toward retirement, but if there would be a way to 
incentivize them beyond that 20-year point, it would certainly 
be a boon, I think, for our service, and most certainly for our 
Nation.
    Senator Stevens. I shouldn't get too personal about it, but 
I remember when I moved to Alaska, the Air Force had a concept 
that you couldn't have reserve duty in a territory, and that 
meant that I would have to fly at my own expense to Seattle to 
train. Obviously, I sent a nasty letter to the Air Force and 
resigned, but I do think that there are subjective factors in 
retention that each service ought to look at. Mobility is one. 
Our people move so much now around the country, and sometimes 
the disjunctive of moving from one area to another, where 
there's no longer a unit that you can join, has a lot to do 
with retention.
    Senator Cochran.
    Senator Cochran. Mr. Chairman, thank you very much.
    I was reminded about my reserve experiences personally as 
well. I got through law school primarily because I could earn 
money by going back on active duty in the summers and being a 
member of the teaching complement at the Officer Candidate 
School at Newport, Rhode Island, and the money I made in the 
summer I spent in the fall and the spring semesters of law 
school, so I've always had an appreciation for the opportunity 
that the Navy gave me to continue to serve while pursuing 
another career.

                      LITTORAL SURVEILLANCE SYSTEM

    I know the Navy is planning to transfer some of its 
resources in my State of Mississippi over to the Naval Station 
in Pascagoula. Admiral Totushek, I understand you're basing 
your second littoral surveillance system at the Naval Station. 
I wonder if you could tell us what role you envision this 
system playing in force protection and possibly with homeland 
security as well?
    Admiral Totushek. Thank you, Senator Cochran. We think that 
there is gold in them thar hills in this system. The Coast 
Guard is very interested in it. Just a quick little primer 
here. It is a system that allows us to integrate any kind of 
sensor that the Nation has, whether it be an unmanned sensor, a 
manned sensor, a satellite kind of sensor, and to integrate 
that to give you a total picture of an area as large as you 
would like, depending on how far out you want to employ these 
sensors, to be able to have situational awareness and, if need 
be, to mensurate targets. It's that good that it can actually 
spit out the coordinates of the targets you might be interested 
in.
    We think the implications of that for homeland security are 
immense. The Coast Guard agrees with us, and we are starting to 
talk with them about how we can integrate a Naval Reserve 
capability using this littoral surveillance system, along with 
what the Coast Guard is doing around our ports,and as they 
pointed out, in a lot of cases there are areas of interest in 
the country where there isn't a robust capability, and this 
would allow us, because it's portable, to take it to another 
part of the country where you might have an area of interest 
for a short period of time, and to take a look at something 
that may be going on in that area.
    One scenario would be, as some of these tankers and 
freighters come into our ports, that we really don't have a 
good idea of what's on them. If we had a tip that perhaps one 
of them belonged to somebody we didn't trust, we might want to 
go out and take a look at that while it's still hundreds of 
miles from our shores instead of just close in as it's entering 
the port.
    So I think there's going to be a great synergy there 
between what the Coast Guard's doing and what we're able to 
support them with in homeland security.

         NAVAL COASTAL WARFARE UNITS ROLE IN HOMELAND SECURITY

    Senator Cochran. I understand also you're planning to move 
two of your naval coastal warfare units from Gulfport, 
Mississippi, to Pascagoula Naval Station. When these units are 
not forward-deployed, what role do you see them providing in 
support of Coast Guard or homeland security missions?
    Admiral Totushek. We originally got the littoral 
surveillance system to marry up with these units that basically 
would surveil a port, and so their being right there, not only 
is it a great training opportunity for us to have the port 
there, to have the boats and have the littoral surveillance 
system, to be able to train for it, but also we now have a 
great capability for looking at not only the port of 
Pascagoula, but basically the Gulf of Mexico, and we think that 
there's a great synergy there not only to train, but to offer 
that force protection to the entire gulf as well.
    Senator Cochran. And I also understand the Navy plans to 
transfer some patrol coastal (PC) craft to the Coast Guard and 
decommission as many as eight other patrol craft. Do you see a 
role for these PCs in the Naval Reserve as well?
    Admiral Totushek. The problem with the PCs is, they're very 
expensive to operate. They're gas turbine engine ships, boats, 
and they move real fast but they burn a lot of gas, and that's 
the main reason that the Navy is interested in getting rid of 
them. They're in great shape. The Coast Guard is taking over 
six of those, I believe is the number, for use in being able to 
get out very quickly to look at contacts of interest further 
from our shores than usual.
    We have proposed the idea of the Reserve force taking over 
some of these. The problem again is the operating cost of the 
platform. We think there will be a mission area that's going to 
require something with this kind of capability. Whether that's 
the right platform or not we're still talking to the Navy 
about, but we think that it's a real capability that could be 
used not only in the gulf, but up and down the shores of the 
Nation.

                           HURRICANE HUNTERS

    Senator Cochran. General Sherrard, the Air Guard--no, the 
Air Reserve unit down in the Biloxi-Gulfport area has what they 
call hurricane hunters that go out and fly right into the eye 
of hurricanes, and they conduct surveillance. It's been a 
mission that has been unique for sometime, and I understand 
there is some conversation about transferring this. As a matter 
of fact, there's probably a proposal to transfer this to the 
National Oceanic and Atmospheric Administration (NOAA), the 
Oceanographic Administration.
    My concern is, whether or not there is a continuing need 
for weather reconnaissance that's related directly to military 
operations. I notice the hurricane hunters were deployed 
recently to Guam to conduct weather reconnaissance support of 
some operations. They also were operating last month out of 
Elmendorf, where Senator Stevens has invited me to visit on a 
couple of occasions, supporting winter weather reconnaissance 
missions there.
    What's your view about the utility of the hurricane hunters 
as a part of the military force, as opposed to transferring 
them to NOAA?
    General Sherrard. Well, sir, as you know we have been asked 
to work with NOAA to look at the transfer. In fact, there has 
been one meeting and there will be a subsequent meeting 
scheduled for the 13th, but I was told yesterday that that may 
be slipped for a week.
    I have asked our staff, and we've got some information, 
sir, and I want to be very candid with you. We're in dialogue 
with the Air Force leadership about the very issue that you 
addressed in terms of military utilization, simply because of 
the fact that we have just recently, as you know, activated 
that unit, and we are sending them--they are at Guam to do the 
mission, and there is some concern that on behalf of the 
organization that I have asked the leadership that I be allowed 
to bring to them for discussion, and until that happens, sir, I 
really can't go beyond that, but I will tell you that we're 
going to have that conversation with the leadership of the Air 
Force.
    Senator Cochran. That's good. Well, I appreciate knowing 
about that very much.

                        F/A-18 AIRCRAFT UPGRADES

    General McCarthy, my question to you has to do with the 
upgrade of the F/A-18 aircraft, bringing it to a level of 
modern capability. The upgrade includes the Global Positioning 
System (GPS) launch precision, guided munitions, et cetera. 
Could you give us an update on the plans and the likelihood for 
funding needs in this area?
    General McCarthy. Yes, Senator Cochran, I can. It's an 
overall package called the ECP-583, and it's a group of 
technologies that brings our F-18A models up to the equivalent 
of an F-18C, enables them to fire precision-guided munitions 
and some other things. It's been very successful.
    We're about 60 percent through our fleet of 48 F/A-18As, 
and there's a steady program to continue until all of those 
aircraft are completed, and the impact on the capability of 
these aircraft is phenomenal, and then fortunately our F-18As, 
which have never been used in a carrier role, therefore have an 
extended life so that with this upgrade and their extended life 
they become among the most capable F-18s that the Marine Corps 
has.
    Admiral Totushek. I'd like to point out if I could, 
Senator, that the Naval Reserve has the same kind of a program, 
slightly different nomenclature, but basically doing the same 
thing to upgrade As into what we call A pluses. We took one of 
those squadrons and deployed it into Iraqi Freedom. They flew 
combat operations and basically led that air wing with some of 
the oldest airplanes out there, but once again, as we heard 
earlier, some of our great pilots out there are doing great 
things, and we would not have been able to do it if it had not 
been the support of this committee that got us those kits that 
upgraded those airplanes, so thank you very much.
    Senator Cochran. That's interesting to know, and we 
appreciate your advice and counsel on these issues.
    General Helmly, I know that there's already been some 
discussion today about whether some units ought to be active 
duty or whether they should be reservists, but some I know, 
medical support, civil affairs, have had more than the usual 
amount of activation and active duty experience. Is this going 
to cause disruption that's a problem for Army reservists? Are 
you going to have a proposal to make about maybe transferring 
these responsibilities to active duty units, because these 
people have been in a perpetual state of activation, many of 
them, and what's your reaction to that?
    General Helmly. Senator, a couple of facts I'd like to 
cite, if I may, regarding this issue on the table of overuse. 
The first caution is that use is much different than abuse, and 
in a volunteer force one can go to the abuse side with an 
active force also, and we should be cautious of that. Admiral 
Totushek in his opening remarks cautioned similarly. I would 
say that there's concern on all of our parts here. I certainly 
speak for myself.
    The solutions put forth to date are too simple. What we'll 
do is, either we'll grow the end strength of the active 
component, or we'll transfer missions to the active component, 
which implies some sort of tradeoff. You transfer Civil 
Affairs, some number from the Army Reserve to the active 
component, and then in turn we pick up some other mission.
    I do not concur with those. There were two primary 
ingredients that went into the Abrams doctrine, and some have 
described that doctrine as outdated. I would not go down that 
road so quickly. One was political. That's the one often 
alluded to, and that was the desire on the part of General 
Abrams to ensure that we never send the Army to war again 
without the support of the American people, certainly a valid 
requirement.
    But the other one was more pragmatic and business-like, and 
that was a recognition that in certain skill sets it is, in 
fact, more cost-effective to put those into the Reserve. We in 
the Army Reserve are quite proud of our record in such areas as 
medical support, civil affairs. The issue that we have on the 
table is that we are structured wrong. We do not have 
sufficient depth in those capabilities. General Schultz in the 
last panel spoke to the issue of military police. The reason we 
have high-demand, low-density units is that we made a conscious 
decision to make them at a density level which now proves too 
low.
    We are involved and have put forth to the Army leadership 
what some would call a radical, I would call it a measured, 
practical, but still very strong transformation plan which 
proposes to reduce our structure in some cases, units that we 
have had little requirement for, and in turn to stand up 
additional civil affairs capability, medical capability, 
transportation, military police, a couple of other specialties 
that are in the high demand area that we believe we can 
maintain equally effective and at reduced cost within the Army 
Reserve as opposed to transforming to the Active Component.
    We did have in the past year about 6,000 spaces, 6,000 
soldier positions, authorizations in the active component that 
increased in the combat support, service support area. In turn, 
we in the Army Reserve adjusted slightly by picking up in those 
high demand areas about 13,000 more authorizations. It's our 
proposal to go much deeper over the next 3 to 5 years.
    Senator Cochran. Thank you very much. Thank you, Mr. 
Chairman.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Stevens. We thank you all, gentlemen, and you've 
got sort of think tanks. I'd urge you to just think about 
retention incentives and give us some ideas. We're perfectly 
willing to give you some authority to have pilot projects to 
try to initiate some changes and test them outright during this 
period. This would be a good test period on a lot of ideas that 
might lead us to further retention.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

       Questions Submitted to Lieutenant General James R. Helmly
              Questions Submitted by Senator Thad Cochran

                      ARMY RESERVE TRANSFORMATION

    Question. General Helmly, in the fall of 2000, the Chief of Staff 
of the Army announced a far reaching initiative to transform the Army's 
combat units and the systems the Army would field to support those 
units. Could you comment on the progress the Army Reserve has made in 
transforming itself over the past three years?
    Answer. Sir, the Army Reserve is transforming as the Army 
transforms and we will play a crucial role as the Army fields the 
Objective Force. Transformation is not new to the Army Reserve. We have 
essentially transformed ourselves since the end of the Cold War, when 
we reduced and restructured our force to a smaller, more efficient 
infrastructure with a greater focus on our core competencies of combat 
support and combat service support. We have continually improved on 
this force structure to enhance accessibility to our invaluable 
capabilities for the Army to achieve a seamless integration of the Army 
Reserve with the active component. The Army Reserve is pursuing six 
imperatives to accomplish transformation. First, we are re-engineering 
the mobilization process to remove impediments between the time 
competent legal authority authorizes mobilization and the time soldiers 
arrive at the place they are needed. Second, we will transform Army 
Reserve command and control to focus on soldier readiness, unit 
readiness, and shortened mobilization timelines. Third, we are 
resourcing a smaller more focused, high demand, and capable force 
manned and organized at Level One of Authorized Level of Organization. 
A resourced Trainee, Transient, Holdee, and Student account will be a 
critical enabler to reach this transformational end state. Fourth, we 
will implement Human Resources Life Cycle Management of Army Reserve 
soldiers that ensures ``once a soldier, always a soldier'' is a 
statement of fact, not a desire. Fifth, we are building a rotational 
base in our force that will facilitate Army Reserve engagement in a 
wide variety of Army operations. This provides our units with 
operational experience, and provides operational tempo relief for the 
active Army. It also imparts a sense of predictability for our soldiers 
and evens out the work load across the force. Finally, we are re-
engineering the individual capability that the Army Reserve provides to 
the Army, built to meet real-world combatant commander requirements as 
validated in the World-Wide Individual Augmentation System.
    Question. Of those initiatives, which do you feel are most 
important to maintaining the momentum for change?
    Answer. Sustaining the momentum for change is a very important 
element of our effort to transform the Army Reserve. The Objective 
Force of the Army will bring greater capabilities for the nation in its 
mission to fight and win our nation's wars. Our six imperatives of Army 
Reserve Transformation will ensure the Army Reserve remains capable of 
supporting the Objective Force when it is fielded. As such, these 
imperatives are functionally interrelated and mutually supporting. Any 
one imperative may generate some positive effect; however, all 
imperatives will be necessary for Army Reserve Transformation to be 
able to produce ready soldiers, ready units, shortened deployment 
timelines, and reduced costs. As I have said, this is a complete 
package. While certain aspects of it, such as Human Resources Life-
Cycle Management and maintenance of a Trainee, Transient, Holdee, and 
Student account are new functions that will require resources to 
perform, significant savings will be generated in other areas. These 
include force structure adjustments that will balance the force for 
future operational requirements and reduce base operations and 
equipment costs. A smaller, more focused peacetime command and control 
structure will generate efficiencies. Finally, Army Reserve 
Transformation will produce a ready force organized at Level One of 
Authorized Level of Organization. This force will be readily deployable 
without extensive cross leveling, post mobilization training, 
validation, or equipment purchases, prior to deployment.

                 RECONSTITUTION OF ARMY RESERVE FORCES

    Question. General Helmly, today, we have a large number of forces 
forward deployed while we simultaneously pursue elements of terror at 
home and globally. Do you believe we will be able to reconstitute our 
Army Reserve forces in an orderly manner for a sustained war against 
terror while meeting our many other commitments around the globe?
    Answer. Reconstitution is an ongoing activity. Recently the 
reconstitution of Army Reserve forces has become increasingly difficult 
due to the continued growth of our enduring commitments. Some of our 
mobilized units have been re-missioned to ensure that those commitments 
can be met. As units demobilize, commanders are tasked with keeping 
their soldiers trained and prepared for future missions while 
sustaining high morale and retention. The existence of high demand/low 
density requirements exclusive to our war against terror, countered by 
portions of our force that are rarely used, confirms that we need to be 
able to build the right force to accomplish our changing mission. One 
of our Transformation Imperatives is to build a Rotational Force within 
the Army Reserve, which will add depth to those capabilities which are 
subjected to heavy use.

               ARMY RESERVE'S ROLE IN REBUILDING OF IRAQ

    Question. As our troops take on the responsibility for shoring up 
security and starting the rebuilding process in Iraq, what do you see 
as the Army Reserve's role within that mission?
    Answer. The Army Reserve will have a major role in the rebuilding 
of Iraq. We have the right mix of Combat Support/Combat Service Support 
units that would allow us for example to be tapped for construction, 
fresh water, and medical support. The Army Reserve has the capability 
to provide significant amounts and types of forces required in nation 
building efforts. The critical operational capabilities that reside at 
a 75 percent level or more in the Army Reserve include Civil Affairs at 
97 percent, Public Affairs at 82 percent, Personnel Services at 87 
percent, Supply Operations at 76 percent, Psychological Operations at 
83 percent, and Chemical at 75 percent.

                                 ______
                                 
          Questions Submitted by Senator Kay Bailey Hutchison

       TRANSFORMATION PROGRAMS IN FISCAL YEAR 2004 BUDGET REQUEST

    Question. What are your key Transformation programs in the 2004 
budget request?
    Answer. The Army Reserve has no key Transformation programs 
identified in the fiscal year 2004 budget request. The Federal Reserve 
Restructuring Initiative (FRRI), which is a key structure decision that 
supports the Army Reserve Transformation and includes the reduction of 
theater support requirements, incorporation of a Trainee, Transient, 
Holdee and Student account, and redesign of Army Reserve Command and 
Control, was accepted as an Army Transformation initiative and endorsed 
by senior Army leadership. The initial start up costs in fiscal year 
2004 for FRRI actions can be accomplished within our requested 
Operations and Maintenance funding. Building rotational depth in our 
force that facilitates Army Reserve engagement in a wide variety of 
Army operations is critical to Army Reserve force development. This 
operational depth provides our units with operational experience, 
OPTEMPO relief for the active Army, imparts a sense of predictability 
for our soldiers, and evens out the workload across the force. The Army 
Reserve experience in current operations has validated the FRRI 
imperatives of re-engineering the mobilization process and demonstrated 
the need for structural and individual adjustments that we knew had to 
be made. The Army is not a static organization. All components are 
interconnected; therefore, any change to one component impacts the 
entire Service.

            MOBILIZATION OF FISCAL YEAR 2004 BUDGET REQUEST

    Question. How has mobilization for Operation Iraqi Freedom 
influenced next year's budget request?
    Answer. Since the length of the current mobilization is not known, 
the impact on the fiscal year 2004 budget request cannot be determined 
at this time. Although lengthy mobilizations can create under execution 
in the personnel appropriations, any perceived savings often fail to 
materialize in a period in which the Army is both mobilizing and de-
mobilizing Army Reserve soldiers. Additional requirements may be driven 
by de-mobilization and the re-constitution of equipment and by 
additional pre-mobilization training requirements. Depending on the 
speed of de-mobilization and the status of equipment that needs to be 
re-constituted, the Army Reserve may require additional transfer 
authority between appropriations or additional funding in fiscal year 
2004.

             LESSONS LEARNED FROM MOST RECENT MOBILIZATION

    Question. What lessons have you learned from the most recent 
mobilization and how can you improve the process for next time?
    Answer. Lessons learned from our most recent mobilization are being 
addressed internally and are being incorporated in the transformation 
of the Army Reserve. The mobilization process needs to be reengineered. 
We must adopt new doctrine and legislation to streamline and automate 
the mobilization process, which is currently time-intensive, paper-
based, and multi-layered. We need to improve the mobilization process 
to enable flexible, rapid response when necessary, while protecting the 
rights and lives of Reserve soldiers. Our current force structure must 
be redesigned to meet a global asymmetrical threat versus any defined 
adversary. There must be rigor in our decision making process to ensure 
that support assets required for large mobilizations are established 
prior to units flowing into the Area of Responsibility.

                        TRICARE HEALTH COVERAGE

    Question. What are your thoughts on extending TRICARE health 
coverage to members and families of the Reserve on a cost-share basis?
    Answer. For those who are self-employed or lack adequate civilian-
employer provided medical insurance, the availability of such coverage 
would be a welcome benefit. The immediate benefit would be offset 
somewhat, however, by the actual cost to the member--those who 
typically lack medical insurance are also least likely to be able to 
afford premium payments--and by the relative inaccessibility of the 
Military Health System to Reserve Component members. For example, only 
20.5 percent of the Reserve soldiers live within an Army catchment 
area. The vast majority would not reap the full benefit of the TRICARE 
program unless it was tied to liberal access to TRICARE Remote and 
TRICARE Prime Remote. Still, limited health insurance is better than 
none, and I would be inclined to support this effort.
    Question. Would this provide a needed service to our Reservists?
    Answer. A recent survey by the Office of the Assistant Secretary of 
Defense Reserve Affairs and the Defense Manpower Data Center showed 
that 86 percent of Reserve soldiers with dependents have health 
insurance coverage of some sort. The greatest benefit would be afforded 
to the remaining 14 percent who lack medical insurance coverage.
    Question. Would employers view it as an incentive to hire 
Reservists?
    Answer. Employers are required to offer the same level of 
healthcare insurance coverage to all employees. TRICARE health coverage 
would most likely be viewed in neutral terms by civilian employers.

                   SUPPORTING EMPLOYERS OF RESERVISTS

    Question. How can you recommend we better support the employers of 
our Reservists?
    Answer. The Army Reserve strongly supports initiatives to reach the 
employers of the over 76,000 Army Reserve personnel mobilized for 
Operations Enduring Freedom and Iraqi Freedom. Retaining the support of 
employers is essential to the retention of quality personnel within our 
force. This is even more essential given that our force is largely 
built upon the civilian skills that many of our Reserve soldier bring 
to their respective military positions. We are working with the 
Department of the Army personnel chain to develop an effective means to 
centrally collect employer information of our soldier. The Army Reserve 
will continue to support initiatives to recognize employers of 
mobilized personnel at both home station and as part of a greater 
strategic effort aimed at retaining employer support for the Army. In 
April 2003, we implemented the Army Reserve Employer Recognition 
Program initiating actions to ensure every employer of a mobilized 
Reserve soldier is recognized by the first General Officer in the chain 
of command.

                          EQUIPMENT SHORTFALLS

    Question. The Army Reserve has performed world-wide missions in 
support of the War on Terrorism since September 12, 2001. I am 
interested in knowing more about the equipment readiness of the Army 
Reserve and how the deployments might impact that readiness. 
Specifically, please tell me: What significant equipment shortfalls 
exist in the Army Reserve?
    Answer. Sir, prior to the start of mobilization for Operation Iraqi 
Freedom (OIF), the U.S. Army Reserve had reached a level of fill for 
equipment considered essential to effective performance of a unit's 
mission with the appropriate authorized substitutions. Without 
substitutes, the percentage of items on-hand would have dropped below 
70 percent of the required equipment on hand to perform the mission. 
Although authorized for substitutions, this equipment is very 
maintenance intensive and expensive to sustain and in many cases 
provides less capability than the required system. For example, the 
Army Reserve is utilizing older 1960's technology 2.5 and 5 Ton trucks 
as authorized substitutes for the more modern Family of Medium Tactical 
Vehicles and the Combat Utility Commercial Vehicle instead of the High 
Mobility Multi-purpose Wheeled Vehicle. The significant equipment 
shortages that exist in the Army Reserve today include materiel 
handling equipment; petroleum, oil, and lubrication and water systems 
such as the 5,000 gal fuel tankers; fuel system supply points; and 
forward area water points. Additionally, we are short line-haul prime 
movers and tactical trailers, heavy High Mobility Multi-purpose Wheeled 
Vehicles, high frequency radios, and night vision goggles. Although 
short the above requirements, the Army Reserve was able to meet the 
mission through extensive cross-leveling of equipment from non-
deploying units to those deploying units in support of OIF.
    Question. How do these shortfalls impact the Army Reserve's mission 
in support of the war on terrorism?
    Answer. Sir, the end result was that the Army Reserve was forced to 
redistribute assets internally throughout the force to meet the 
requirement, both prior to and during the mobilization of units. The 
original minor shortfalls were exacerbated by the increased readiness 
targets for unit deployments and the additional equipment requirements 
beyond normal authorizations. The change in mobilization requirements 
resulted in the Army Reserve units that were not immediately mobilized 
being depleted of their equipment to support the additional requirement 
to fill units to 100 percent of their authorizations. As such, there 
would be a significant challenge for the Army Reserve to provide 
operational units for any additional contingency operations beyond OIF.
    Question. What are the potential future impacts of these equipment 
shortfalls?
    Answer. Sir, as the Army transforms, so will the Army Reserve. Part 
of our transformation objective is to assure unit readiness and 
relevance, add operational depth to the Army, successfully meet 
continuous contingency operations, relieve Army operational tempo, and 
transform the Army Reserve to the Objective Force. As the Army Reserve 
transforms and eliminates non-relevant structure, we will redistribute 
equipment internally to offset current shortfalls, thus improving 
equipment on-hand shortages. While the proposed force restructuring 
initiatives will reduce the Army Reserves' equipment shortages, future 
contingency missions will continue to be successfully met by retaining 
and maintaining, for some percentage of the fleet, less modern and 
capable equipment, at increasing operations and sustainment costs.

                                 ______
                                 
           Questions Submitted by Senator Ernest F. Hollings

           MODERNIZATION AND SUSTAINMENT CRITICAL SHORTFALLS

    Question. General Helmly, the Army Reserve has been utilized 
continually since 1991. The Army Reserve's operational tempo in support 
of the War against Terrorism, both at home and globally, has kept a 
large portion of the Army Reserve mobilized since September 11, 2001. 
It appears we are asking the Army Reserve to do more and more. I'm 
concerned whether we are providing these units and soldiers with the 
resources to accomplish the missions our nation is asking them to 
perform. For the record, could you please--state the Army Reserve's 
modernization and sustainment critical shortfalls and explain the near 
term and long term consequences of not funding these shortfalls.
    Answer. Sir, the Army Reserve has maintained a high operational 
tempo because we are a fully engaged, ready, relevant, and reliable 
force supporting the nation and the Army's global war on terrorism. 
Since recent world events indicate that the Army will continue to be 
engaged in and support a wide variety of contingency operations, 
equipment modernization and sustainment efforts must be a high priority 
in order to continue to successfully meet the full spectrum of 
operations. The Army Reserve must be modernized to keep pace with the 
requirements of Army transformation. Some examples of modernization 
shortfalls include our combat wheeled vehicle fleet of 2.5 and 5 ton 
vehicles and High Mobility Multi-purpose Wheeled Vehicles (HMMWVs). 
Additionally, we are short materiel handling equipment; petroleum, oil, 
and lubrication and water systems; line-haul prime movers; night vision 
goggles; communication equipment; and the heavy HMMWVs for our 
frequently deployed Military Police units.
    The near term consequences are the reliance on limited overhaul and 
rebuild programs to sustain older less modern equipment. Additionally, 
extensive internal cross-leveling is necessary to fill shortages to 100 
percent of the requirement for mobilizing and deploying Army Reserve 
forces. The extensive cross-leveling of equipment from mobilizing to 
non-mobilizing units poses unique challenges to equipment on hand 
readiness levels.
    The long term consequences are increased maintenance and 
operational costs as equipment exceeds its economical useful life and 
eventually some degree of incompatibility with the Active Army forces. 
This incompatibility is a result of the Army Reserve having older less 
modern equipment that creates a host of maintenance and compatibility 
challenges to include Army training programs for mechanics and 
operators, the establishment of separate repair parts inventories, and 
special tools and test equipment unique to each equipment model.

                                 ______
                                 
          Questions Submitted to Vice Admiral John B. Totushek
           Questions Submitted by Senator Christopher S. Bond

                     REDESIGN OF THE NAVAL RESERVE

    Question. We understand Navy is involved in an initiative to 
redesign the Naval Reserve. What changes do you anticipate will be made 
to force structure, missions and roles, and end strength?
    Answer. The Navy continuously reviews how to achieve greater 
capability from its budget, and redesign of the Naval Reserve is the 
subject of much review as part of this process. The final outcome of 
these studies is yet to be determined so identification of future force 
structure changes, other than those cuts proposed in the President's 
fiscal year 2004 budget, would be pre-decisional. The Naval Reserve 
provides a low-cost means to preserve capability and recapture training 
and knowledge investments. My expectation is that Navy will continue to 
leverage these investments as we identify ways to maximize the Naval 
Reserve's contribution to the country's future war-fighting force.

                 RECAPITALIZATION OF THE NAVAL RESERVE

    Question. What is your plan to recapitalize your Naval Reserve 
force with reduced NG&REA funding levels?
    Answer. The $10 million of NG&REA appropriated during each of the 
past two fiscal years was used to fund critically needed equipment and 
upgrades. During this same period there was limited funding provided in 
Navy's APN and OPN accounts to upgrade Naval Reserve aircraft and 
surface craft to fleet equivalent mission capabilities. The President's 
Budget for fiscal year 2004 reflects an upturn in new equipment funding 
using APN (C-40 Logistics Aircraft, F-5 replacements, MH-60s and C130T 
Avionics Modernization Program), but there remains a sizeable 
requirement to upgrade or replace aging Naval Reserve equipment. Until 
sufficient funds are identified in the Navy's procurement 
appropriations, Naval Reserve equipment will continue to be replaced by 
equipment transferred from the active force.
    Question. What equipment investments has Navy made into the Naval 
Reserve in the fiscal year 2004 budget request?
    Answer. The fiscal year 2004 budget request contains the following 
equipment investments for the Naval Reserve:
  --Procurement of one C-40A aircraft to replace aging Naval Reserve 
        DC-9 aircraft. ($64 million)
  --Funding commences on an Avionics Modernization Program (AMP) to 
        upgrade 18 Naval Reserve C-130T aircraft. The total AMP 
        requirement is $122 million. This is the initial funding for 
        these upgrades currently scheduled to be complete in fiscal 
        year 2013. ($3.3 million)
  --Funding to upgrade Naval Reserve cargo aircraft (C-9B, DC-9, UC-
        12B, C-37A, C-40A) to meet CNS/ATM mandated requirements. This 
        is a multiyear program with fiscal year 2004 being the initial 
        funding received to perform the upgrades. ($4.3 million)
  --Procurement of 32 Swiss F-5 aircraft to replace 32 Naval Reserve 
        and Marine Corps Reserve F-5E aircraft. ($4.7 million)
  --Funding to procure small boats, table of allowance equipment and 
        upgrade Mobile Inshore Undersea Warfare surveillance equipment. 
        ($45.6 million)
  --Funding to procure table of allowance construction and 
        communication equipment for reserve Naval Construction Force 
        units. ($10.5 million)
    Question. What are the top five Naval Reserve equipment unfunded 
items for fiscal year 2004?
    Answer. Our top five unfunded items for fiscal year 2004 are:
  --Procurement of two additional C-40A aircraft to replace aging DC-9 
        aircraft. ($131.0 million)
  --Funding to upgrade two Littoral Surveillance Systems. ($19.2 
        million)
  --Procurement of remaining equipment to fill out 10,000 CBR-D sets 
        including storage and phased replacement. ($8.0 million)
  --Procurement of two P-3C AIP kits in order to achieve commonality/
        compatibility with Active P-3C UD III Squadrons. ($28.8 
        million)
  --Upgrade third (of three) Naval Reserve VFA squadrons (F/A-18A) with 
        precision-guided munitions capability and procure Advanced 
        Targeting Forward Looking Infrared Radar for three Naval 
        Reserve VFA squadrons. ($52.8 million)

                   LITTORAL SURVEILLANCE SYSTEM (LSS)

    Question. The Navy's Littoral Surveillance System (LSS) and Navy 
Patrol Craft are critical assets we need in Homeland Security. Have you 
considered assigning these assets a Homeland Security mission? If not, 
why not?
    Answer. The Naval Reserve is currently investigating a potential 
role for the Littoral Surveillance System (LSS) in Homeland Security. 
Plans are being discussed for LSS participation in two Naval Reserve/
Coast Guard Joint Harbor Operations Centers. The Naval Reserve's two 
LSS systems, being developed and funded from 1999 through 2003, may be 
used to further expand this systems capability in the Homeland Security 
mission.
    The Navy will transfer five Patrol Craft (PC) to the Coast Guard in 
fiscal year 2004. The Coast Guard has been using PC's for Homeland 
Security missions since the September 11th attacks and will continue to 
do so. Plans for the remaining eight PC's are undecided at this time.

                      NAVAL RESERVE EQUIPMENT LIST

    Question. We understand Navy is considering drastically altering 
the equipment list for Naval Reserve units. If this is true, how 
extensive are the cuts and what will the impact be on readiness and the 
Navy's ability to access its Reserve force?
    Answer. The Navy continuously seeks to balance resources and 
requirements in order to maximize war-fighting wholeness within 
realistic fiscal restraints. Options to expand integration of Active 
and Reserve forces are under review; however, identification of 
potential force structure changes, beyond those proposed in the 
President's fiscal year 2004 budget, if any, would be pre-decisional.
    PB04 makes a significant effort to maximize DON total force 
warfighting wholeness. The Secretary of Defense identified TacAir 
Integration as the model transformational program. Leveraging the 
synergy of a better integrated Navy and Marine Corps Aviation team 
provides a readier, more surge-capable, and affordable force. 
Additionally, the PB04 decommissioning of selected E-2 and P-3 reserve 
squadrons will provide resources necessary for transformation, 
integration, and recapitalization. The SecDef Counter Drug (CD) Execute 
Order has reduced the annual requirements for deployed E-2 coverage. 
The resultant reduction in force structure meets this new E-2 CD 
commitment. For P-3s, PB04 transitions two Reserve squadrons to 
augmentation units. Three additional Reserve P-3 squadrons will 
transition within the FYDP. This migration of reserve units to 
augmentation units allows for tighter integration between reserve and 
active forces, facilitates enhanced interoperability, and keeps 
reservists in the most modern weapons systems.

                                 ______
                                 
          Questions Submitted by Senator Kay Bailey Hutchison

                          RESERVE HEALTH CARE

    Question. What are your key Transformation programs in the 2004 
budget?
    Answer. The Naval Reserve's overall role in the Transformation of 
the Department of Defense focuses on the continuing process of 
integrating the Naval Reserve with the Active Component. Several 
ongoing studies are addressing the changing role of the Naval Reserve 
in a transforming Navy and Department of Defense.
    Internally, the Naval Reserve is defining its appropriate role in 
Homeland Security (HLS), and is actively engaged with Northern Command 
in the identification of potential requirements. The fielding of the 
Littoral Surveillance System, for example, will help meet today's 
threat, contribute to the NORTHCOM mission, and efficiently utilize 
unique Naval Reserve capabilities. Although these transformational 
initiatives have not yet progressed to the point of resulting in 
programmatic changes in the fiscal year 2004 budget, it is anticipated 
that future budget submissions will reflect increased emphasis on the 
Littoral Surveillance System and HLS in general, as well as supporting 
the continued integration of the Naval Reserve with the Active 
Component.

                IMPACT OF MOBILIZATION ON BUDGET REQUEST

    Question. How has mobilization for Operation Iraqi Freedom 
influenced next year's budget request?
    Answer. The current goal is to reduce Navy Reserve personnel 
mobilized from nearly 12,000 to 3,000 (3.4 percent) by the end of 
fiscal year 2003. The fiscal year 2004 mobilization end state is 
projected to be zero. In the fiscal year 2004 budget the Reserve 
participation rates have been adjusted slightly to compensate for 
remaining ``demobilization'' from 3,000 to 0, and is therefore 
considered to have no budgetary impact.
    In fiscal year 2004, the O&MNR appropriation is currently priced 
for peacetime operations. Any increase in operating tempo due to 
further conflict would have to be addressed with supplemental funding.
    From an aviation depot maintenance point of view, it has yet to be 
determined if any reconstitution costs resulting from increased 
operating tempo in OIF are required. The aviation depot maintenance 
budget is currently priced for peacetime operations. Any necessary 
reconstitution of airframes or engines work would require supplemental 
funding.

                  RESERVE MOBILIZATION LESSONS LEARNED

    Question. What lessons have you learned from the most recent 
mobilization and how can you improve the process for next time?
    Answer. The Navy is continuously reviewing the processes and 
progress of our mobilization efforts since September 2001, 
incorporating several improvements along the way. The Navy headquarters 
staff was inadequately organized to properly prioritize mobilization 
requirements and orchestrate the mobilization process. Within days, the 
Navy created the OPNAV Mobilization Cell to serve as a single 
submission point for all Navy mobilization requests. The Mobilization 
Cell is now the single-point of contact for all Navy decisions on 
mobilization and demobilization sourcing priorities.
    Additionally, Navy learned early on that it needed a single, web-
based ADP program for tracking and processing mobilization 
requirements. Within a remarkably quick two-month period, a modified 
version of the pre-existing Marine Corps Mobilization Processing System 
(MCMPS) was fielded as the Navy MCMPS (NMCMPS). NMCMPS provides a web-
based medium, accessible worldwide, that allows Naval Reserve 
Activities and Navy Mobilization Processing Sites to update the status 
of mobilizing Reservists. It also provides gaining Commands and Navy 
leadership the ability to track the Reservist's status. NMCMPS also 
consolidates all Navy mobilization order writing at Navy Personnel 
Command, a task previously executed by over 140 individual Naval 
Reserve Activities. This consolidation of mobilization (and 
demobilization) orders writing has eliminated all of the administrative 
errors experienced when orders were written by individual Commands. 
There is a third part to NMCMPS that is not yet operational. Navy is 
working to field a secure, classified part of NMCMPS for the submission 
and review of mobilization requirements. When this is complete, 
Combatant and Service Component Commanders will be able to view the 
status of their Navy requirements from generation and submission, 
through the Navy Headquarters review process, to the selection and in-
processing of Reservists, all the way to their actual arrival at 
gaining Commands via an automated real-time web-based application. Navy 
is working to incorporate the full functionality of NMCMPS in the 
Defense Integrated Military Human Resources System (DIMHRS).
    Just as the OPNAV Mobilization Cell provides a single point of 
contact Commands to submit and staff Navy mobilization requirements, 
Navy realizes the immense importance of having a single organization to 
serve as an advocate for our mobilized Reservists. In April of 2002, 
the Navy created the Noble Eagle Sailor Advocacy (NESA) Office at the 
Navy Personnel Command to aid in ensuring a positive mobilization 
experience for our mobilized Reservists. In particular, a foremost 
tenet of the NESA team is to pay special attention to those Reservists 
who are experiencing genuine hardships as a result of early 
demobilization, or other problems, and forwarding those issues up the 
chain of command for individual mitigation. Since its creation, NESA 
has evolved into a program that not only helps mobilized Reservists 
with hardship issues, but also closely emulates many detailing 
functions found within the active duty Navy and its Project SAIL 
(Sailor Advocacy through Interactive Leadership) program, including 
contacting every mobilized Reservist prior to the end of their orders 
to discuss their desires and ensure they understand the options 
available to them.
    Many of the same concerns that led to the creation of NESA reaffirm 
the importance of continuous, open, and clear communication with our 
Reservists. Throughout the current mobilization, we have maintained 
communication through such means as messages and public affairs 
publications, town hall meetings, and leadership visits with our 
mobilized forces.
    As we demobilize over 12,000 Naval Reservists currently serving in 
support of Operations Iraqi Freedom, Enduring Freedom, and Noble Eagle, 
Navy is focusing on performing formal assessments of the conduct of 
Operation Iraqi Freedom, including the mobilization process. We will 
undoubtedly find many more ways to improve our mobilization process 
during these assessments, and look forward to sharing those with the 
Congress once the assessments are completed.

                          RESERVE HEALTH CARE

    Question. What are your thoughts on extending TRICARE health care 
coverage to members and families of the Reserve on a cost-share basis?
    Answer. Approximately 80 percent of Reservists have health 
insurance coverage when not on active duty as reported in the GAO 
Report, GAO-02-829, ``Defense Health Care: Most Reservists Have 
Civilian Health Coverage But More Assistance Needed When TRICARE is 
Used'', dated September 6, 2002. This coverage is through employer-
sponsored programs or spouse's employer health plans. This report found 
of that 80 percent, 90 percent maintained their civilian coverage when 
deployed. The GAO report (GAO-03-549T), ``Military Personnel: 
Preliminary Observations Related to Income, Benefits, and Employer 
Support for Reservists During Mobilizations'' reiterates that most 
reservists maintain their own healthcare coverage when mobilized.
    In addition, 70 percent of Reservists and their families live 
outside of Military Treatment Facility catchment areas and cannot take 
advantage of the assistance and array of services found near military 
treatment facilities (MTFs). These families must rely on the limited 
TRICARE network of providers for support.
    The GAO report also estimates that any TRICARE healthcare program 
providing continuous TRICARE coverage for reservists and their 
dependents during the entire enlistment period--regardless of 
reservists' mobilization status--with benefits similar to those for 
active duty will cost DOD about $10.4 billion. This estimate assumes 
that the current number of DOD MTFs remains constant in services and 
providers, which is unlikely based on BRAC and manpower adjustments. 
This cost would escalate with the increased number of active duty and 
reserve members in need of care through the TRICARE network.
    Question. Would this provide a needed service to our Reservists?
    Answer. No. It would only serve an extremely small percentage of 
Reservists. The precedence for opposition to this proposal lies with 
the TRICARE Dental Program (TDP). Selected Reservists and/or their 
family members can participate in the TDP. As of May 2003, only 7.8 
percent of Naval Reservists are enrolled in the TDP plan.
    Question. Would employers view it as an incentive to hire 
Reservists?
    Answer. This question would be best answered by the National 
Committee for Employer Support of the Guard and Reserve (NESGR), but 
the impact of employees with other health insurance may be dependent 
upon their company's benefits. It may negatively impact small business 
owners by reducing the number of eligible employees for a plan size and 
increasing plan costs. Larger corporations might not be similarly 
impacted.

                        RESERVE EMPLOYER SUPPORT

    Question. How can you recommend we better support the employers of 
our Reservists?
    Answer. The best support to the employers of our Reservists is to 
ensure we have an active Employer Support of the Guard and Reserve 
(ESGR) organization. We must continue supporting ESGR's efforts to 
educate employers on their rights and responsibilities, as well as 
those of the employed Reservists. Navy believes Congress provides 
sufficient authority in Title 10 to enable the Services to obtain the 
employer data the ESGR needs to provide improved support to employers 
through their Civilian Employment Information (CEI) Program.
    Additionally, Navy is implementing lessons learned in the 
mobilization and demobilization of our Naval Reservists. This allows 
the Reservists more time to prepare for a ``career transition,'' and 
provides earlier notification to their employers. DOD policy is to 
notify Reservists whenever possible at least 30 days prior to their 
mobilization. While we cannot always provide this much advance 
notification due to operational concerns, it is essential that every 
effort be made to meet or exceed DOD's policy.

                           RESERVE EQUIPMENT

    Question. The Navy Reserve has performed worldwide missions in 
support of the War on Terrorism since September 12, 2001. I am 
interested in knowing more about the equipment readiness of the Navy 
Reserve and how the deployments might impact that readiness. 
Specifically, please tell me:
    What significant equipment shortfalls exist in the Navy Reserve?
    Answer. The Naval Reserve is short the following equipment:
    Airlift, C-40A Transport Aircraft, Qty short--8, Unit Cost $65 
million. This aircraft replaces aging C-9 aircraft.
    Individual Protective Equipment, Qty short--30,000, Unit Cost 
$1,000.
    P-3C Aircraft-BMUP Kits to achieve commonality with Active P-3C UD 
III Aircraft, Qty short--13, Unit Cost $9 million.
    P-3C Aircraft-AIP Kits to improve ASW capability, enhance weapons 
suite, improve target sensing, and achieve commonality with Active P-3 
Aircraft; Qty short--12; Unit Cost $14.4 million.
    Naval Coastal Warfare Table of Allowance equipment and small boats 
for a total cost of $45 million.
    F/A-18 Aircraft Modification (ECP 560) to provide precision 
munitions capability, Qty short--12, Unit Cost $3.5 million.
    F/A-18 Aircraft Modification (Advanced Targeting Forward Looking 
Infrared Kits) to provide precision guided munitions capability, Qty 
short--16, Unit Cost $2.5 million.
    F-5 Aircraft Radar Upgrade to better simulate enemy aircraft. Qty 
short--36, Unit Cost $360,000.
    P-3C Counter Drug Upgrades to provide day and night electro-optic 
capability, Qty short--13, Unit Cost $1.5 million.
    SH-60B Helicopter Forward Looking Infrared Kits to improve 
surveillance capability, Qty short--5, Unit Cost $1.4 million.
    Question. How do these shortfalls impact the Navy Reserve's mission 
in support of the war on terrorism?
    Answer. The Naval Reserve supports the overall mission of the Navy, 
which is, ``Be prepared to conduct prompt and sustained combat 
operations at sea in support of U.S. national interests'', which 
naturally includes any missions in the Global War on Terrorism.
    The following equipment enhancements could all be, at some time, 
used by the Naval Reserve to support Navy Global War on Terrorism 
missions;
    Airlift, C-40A Transport Aircraft, Qty short--8, Unit Cost $65 
million. This aircraft replaces aging C-9 aircraft.
    Individual Protective Equipment, Qty short--30,000, Unit Cost 
$1,000.
    P-3C Aircraft-BMUP Kits to achieve commonality with Active P-3C UD 
III Aircraft, Qty short--13, Unit Cost $9 million.
    P-3C Aircraft-AIP Kits to improve ASW capability, enhance weapons 
suite, improve target sensing, and achieve commonality with Active P-3 
Aircraft; Qty short--12; Unit Cost $14.4 million.
    Naval Coastal Warfare Table of Allowance equipment and small boats 
for a total cost of $45 million.
    F/A-18 Aircraft Modification (ECP 560) to provide precision 
munitions capability, Qty short--12, Unit Cost $3.5 million.
    F/A-18 Aircraft Modification (Advanced Targeting Forward Looking 
Infrared Kits) to provide precision guided munitions capability, Qty 
short--16, Unit Cost $2.5 million.
    F-5 Aircraft Radar Upgrade to better simulate enemy aircraft. Qty 
short--36, Unit Cost $360,000.
    SH-60B Helicopter Forward Looking Infrared Kits to improve 
surveillance capability, Qty short--5, Unit Cost $1.4 million.
    Question. What are the potential future impacts of these equipment 
shortfalls?
    Answer. Naval strategy identifies the need for the integration of 
the Active and Reserve components into a seamless and cohesive Total 
Force capable of meeting all operational requirements in peacetime and 
in war. These shortfalls impact the ability of the Reserves to maintain 
compatibility and relevance with the Active Navy's mission 
accomplishments.

                                 ______
                                 
      Questions Submitted to Lieutenant General Dennis M. McCarthy
          Questions Submitted by Senator Kay Bailey Hutchison

                             TRANSFORMATION

    Question. What are your key transformation programs in the 2004 
budget request?
    Answer. The Marine Corps' transformation is broken down into 
several categories: technological, organizational, operational and 
acquisition policies and procedures. Currently, we are investing 
approximately $1.5 billion per year in transformational initiatives, to 
include our top ground and aviation investment programs--the 
Expeditionary Fighting Vehicle (formerly referred to as the Advanced 
Amphibious Assault Vehicle) and the MV-22.
    Within the above listed categories, three investment areas warrant 
mention as priority and material enablers to transformation. First, Sea 
Viking 2004 (SV04) represents the main experimentation effort designed 
to support decisions and strategies for 2015 transformational goals. 
SV04 will examine Seabasing and Operational Maneuver from the Sea 
(OMFTS) within a joint context and will provide the conceptual 
foundation for Naval transformation. Second, an On the Move Combat 
Operations Center (OTM COC) capability will feature Over the Horizon 
Communications (OTH Comm), an iridium-based voice and data tactical 
communication system, and Position Location Information (PLI) 
imperative for future combat operations. Third, initiation of a 
synergistic land counter-mine capability. This capability will provide 
both near term Marine Expeditionary Unit capability sets, as well as 
science and technology investment in the areas of advanced signature 
duplication, family of tailored explosives systems and light-weight 
mechanical breaching systems. Fourth, our fiscal year 2004 program will 
include the first dedicated funding for Joint High Speed Vessel (JHSV) 
experimentation. JHSV will have a pervasive transformational impact by 
providing exponential capability improvements in support of 
expeditionary maneuver warfare. Finally, in fiscal year 2004, Marine 
Corps Science & Technology resources will be used to validate the 
designs and concepts of the first three categories.
    Both our Active and Reserve forces will benefit from these 
transformation initiatives to confront future conflicts as we have in 
the past, as a Total Force. Our Selected Marine Corps Reserve units are 
structured and trained based on the Marine Air Ground Task Force model 
and are ready to augment the Active component with personnel and 
equipment whenever the need arises.

                  OPERATION IRAQI FREEDOM MOBILIZATION

    Question. How has mobilization for Operation Iraqi Freedom 
influenced next year's budget request?
    Answer. Next year's budget request was already submitted before 
mobilization of forces for Operation Iraqi Freedom. A request for 
funding of mobilization costs was submitted with the request for fiscal 
year 2003 Supplemental Funding. Most of the mobilization cost has been 
covered with funds received from the fiscal year 2003 Supplemental; 
however, because forces are still mobilized, requirements have not been 
fully assessed. It is premature to budget for such costs until they 
have been completely assessed. Our unfunded fiscal year 2004 costs will 
be addressed in a supplemental budget request in fiscal year 2004.

                            LESSONS LEARNED

    Question. What lessons have you learned from the most recent 
mobilization and how can you improve the process for the next time?
    Answer. The Marine Corps Reserve was able to successfully mobilize 
and provide trained war fighters to combatant commanders on a timeline 
that rivals that of active duty units. 24,221 Reserve Marines were 
activated and approximately 74 percent were forward deployed to the 
CENTCOM area of responsibility. Most mobilization plans proved sound 
and were properly executed by all levels of command.
    In addition to the joint lessons learned effort, the Commandant of 
the Marine Corps tasked the Enduring Freedom Combat Assessment Team 
Reserve (EFCAT-R) to perform a detailed study of the Reserve 
experience. The EFCAT-R team surveyed over 4,000 active and reserve 
component Marines to produce a valuable report. Commander of Marine 
Forces Reserve (MARFORRES) established a MARFORRES Mobilization 
Assessment Team (MMAT). Several key areas require early action.

Security Clearances
    Many Reservists reported to the Gaining Force Command (GFC) without 
current security clearances. The primary cause was a shortage of field 
grade Officers with Top Secret (Special Compartmentalized Information) 
clearances throughout the Reserves and especially in the Individual 
Ready Reserve.
    A meaningful improvement will require both organizational changes 
and a significant increase in funding for background investigations.

Program Nine Activation
    The Navy mobilization process for medical and chaplain personnel 
does not fully support Selected Marine Corps Reserve (SMCR) unit 
deployment. Navy personnel in support of SMCR units are mobilized 
separately from the Marine unit and take longer to reach the GFC. For 
Operation Enduring Freedom and Operation Iraqi Freedom, most SMCR units 
took 7-9 days from notification until they reported to the GFC. The 
typical Navy corpsman or chaplain required over 22 days from 
notification to arrival at the GFC.
    The solution is to ``integrate'' Navy personnel into SMCR units for 
mobilization purposes Navy and Marine personnel in each SMCR unit would 
mobilize together and travel jointly to the GFC. We are working 
cooperatively with Commander Naval Reserve Force and may make joint 
requests for support to implement this important initiative.

Table of Equipment/Allowance
    To reduce the maintenance burden, reserve units have only a portion 
of their combat equipment at their Reserve Centers. Upon mobilization, 
the units expect to receive the additional needed equipment from a 
variety of sources including Logistics Command (LOGCOM), Remain Behind 
Equipment (RBE), and the GFC. Obtaining this additional equipment not 
only caused significant confusion but also only a portion of the 
additional equipment was obtained in a timely manner. Similar problems 
were experienced during Desert Shield/Desert Storm.
    To increase the efficiency of equipment sourcing, equipment 
reporting accuracy will be improved and Reserve-specific logistics 
planning will be incorporated into the deliberate planning process. A 
revised Force policy on internal redistribution of equipment by major 
subordinate commands will be published. Although this may increase our 
transportation of things costs, it will better position our equipment 
for future mobilizations. In order to ensure that sufficient amounts of 
communication and other ``high value-low density'' equipment are 
available upon mobilization, the Single Site Storage Facility (SSSF) 
program may be expanded.

Personal Recovery/Mortuary Affairs
    The mission of a mortuary affairs unit is to respectfully recover, 
preserve, tentatively identify, and return all remains to the country 
of origin. Unlike the Army, a Marine mortuary affairs unit functions at 
the tactical level, occasionally performing its duties on the 
battlefield. In addition, this unit provides the necessary link between 
the Marine component and theater agencies responsible for evacuation of 
remains to CONUS. However, Marine Mortuary Affairs currently lack a 
doctrine consistent with its utilization in both Operation Iraqi 
Freedom and Desert Storm. As a result, units are inappropriately 
organized, trained, and equipped to support the Marine combatant 
commander in a joint environment.
    We plan a revision of the unit organization, manning, and the 
acquisition of additional equipment.

Key Volunteer Program
    The information flow from deployed units to Marine families at home 
is greatly enhanced by an active and engaged Key Volunteer Network 
(KVN), an official Marine Corps program. Since the KVN program only has 
a small operating budget, it is very dependent on the enthusiasm of 
individual volunteers. As there are 187 separate Reserve centers 
throughout the United States, Marine Forces Reserve must fight the 
``tyranny of distance'' as it tries to build a close-knit Key Volunteer 
organization. Information flows are further complicated upon 
activation. While a Reserve unit may smoothly join the GFC, it is 
difficult to merge the Reserve and Active Key Volunteer Networks. As a 
result, families of Reservists find it more difficult to obtain 
authoritative answers to questions and concerns.
    Making the successful ``MCCS One Source'' experiment (sponsored by 
Office of the Secretary of Defense) a permanent program will be 
recommended. We anticipate working with the National Guard and other 
Reserve components to develop a system of joint Family Service Centers 
nationwide.

Accountability Protocol
    The active and reserve components of the Marine Corps maintain 
separate computer systems for tracking personnel. In order to bridge 
this difference, MARFORRES units were forced to improvise by creating 
locally generated computer spread sheets. Navy personnel were tracked 
using a third system.
    We will recommend continuing improvements to the current, Manpower 
Management systems.

                       TRICARE BENEFITS EXTENSION

    Question. What are your thoughts on extending TRICARE health care 
coverage to members and families of the Reserve on a cost-share basis? 
Would this provide a needed service to our Reservists? Would employers 
view it as an incentive to hire Reservists?
    Answer. I encourage the continued exploration of TRICARE health 
coverage alternatives for Reserve Marines, and studying the 
effectiveness implementation might have on both the reserve component 
and active component retention. My personal sense is that it would not 
be a disincentive for active duty retention. Providing such coverage is 
not duplicative to private insurance coverage as much as an 
alternative. The challenges associated with implementation--cost, 
administration of the program, (the mechanisms for enrollment, billing, 
premium payment, reimbursements, etc.) are considerable; however, this 
alternative would provide a vital service for our Reserve Marines and 
would be viewed as an employer incentive to hire Reserve Marines.

                  SUPPORT FOR EMPLOYERS OF RESERVISTS

    Question. How can you recommend that we better support the 
employers of our reservists?
    Answer. Thanks to the good work of the Employer Support to the 
Guard and Reserve (ESGR) and our concerted partnership with them in the 
time since Desert Shield/Desert Storm, we have made significant strides 
in better supporting our nation's employers when our Reserve Marines 
are called to active duty. But, there is work yet to do. We should: (1) 
provide employers with tax incentives for supporting Reserve Marines, 
(2) develop business insurance options for small business owners/
employers and self-employed Marines, (3) subsidize companies that 
maintain health care coverage on the family members of activated 
Reserve Marines, and (4) continue to explore avenues through which 
TRICARE could contribute to medical insurance for Reserve Marines, 
including periods of activation and when not activated.

                      RESERVE EQUIPMENT SHORTFALLS

    Question. The Marine Corps Reserve has performed worldwide missions 
in support of the War on Terrorism since September 11th, 2001. I am 
interested in knowing more about the equipment readiness of the Marine 
Reserve and how the deployments might impact that readiness.
    What significant equipment shortfalls exist in the Marine Reserve?
    Answer. I am not aware of any significant legacy equipment 
shortfalls. However, the program manager for infantry weapons has 
projected significant new acquisition system shortfalls. Systems 
impacted are:
    1. AN-PVS-17 B & C.--The AN/PVS-17B night vision device provides 
2.25 system magnification and is designed to be used with the M16A2 
rifle. The AN/PVS-17C provides 4.5 system magnification and is designed 
to be used with the M249 Squad Automatic Weapon and M240G Medium 
Machine Gun. The systems are designed to provide high performance 
observation, quick man sized target acquisition, and aiming 
capabilities during night operations. Projected shortfalls: AN/PVS-17B. 
Qty: 1,037. AN/PVS-17C. Qty: 403.
    2. Thermal Weapon Sight (TWS) AN/PAS-13 (V3) Heavy Thermal Weapon 
Sights (HTWS).--The TWS is a high performance forward looking infrared 
(FLIR) device. The system is virtually unaffected by weather and 
obscurants. Primarily designed for target detection and engagement with 
Marine Corps crew serve weapons [M2 50 Cal Machine Gun & MK19 Grenade 
launcher], it can also be used for all weather surveillance. Projected 
shortfall: AN/PAS-13. Qty: 644.
    Question. How do these shortfalls impact the Marine Reserve's 
mission in support of the war on terrorism?
    Answer. Night capability of reserve units will lag active duty 
units without this equipment and this could affect mission 
effectiveness.
    Question. What are the potential impacts of these equipment 
shortfalls?
    Answer. Reserve units will be required to use alternative or less 
capable types of equipment to accomplish assigned missions and tasks.

                                 ______
                                 
    Questions Submitted to Lieutenant General James E. Sherrard III
          Questions Submitted by Senator Kay Bailey Hutchison

                        TRANSFORMATION PROGRAMS

    Question. What are your key Transformation programs in the 2004 
budget request?
    Answer. The Air Force Reserve Command's (AFRC) key Transformation 
programs in the 2004 budget request involve implementation of the Air 
Force's mobility modernization plan, tanker roadmap and plans to 
alleviate active duty Low Density/High Demand (LD/HD) issues. AFRC will 
retire its C-141 fleet located at Wright Patterson AFB, Ohio, Andrews 
AFB, Maryland, and March ARB, California--converting those units to C-
5A, KC-135R and C-17A missions respectively. The 2004 budget request 
also funds conversion of one each C-5 Associate squadron located at 
Dover AFB, Delaware and Travis AFB, California to C-17 Associate units. 
The Portland IAP, Oregon conversion transfers eight HH-60 and five HC-
130 aircraft to the active duty while standing up a KC-135R unit in its 
place. Additionally, AFRC will transfer two C-130H aircraft to the 
active duty--part of an overall transfer plan of 14 aircraft moving to 
Special Operations Command (SOCOM) to alleviate LD/HD issues. AFRC will 
divest itself of aging KC-135Es at Selfridge Air National Guard Base 
(ANGB), Michigan and Beale AFB, California in exchange for less costly, 
and more reliable KC-135Rs. Lackland AFB, Texas is also programmed to 
take on the role as the AF's sole C-5 Formal Training Unit (FTU) 
replacing Altus AFB, Oklahoma in fiscal year 2007. Manpower savings 
from the C-141 retirements and the active duty retirement of 
Continental United States C-9 at Scott AFB, Illinois allows AFRC to 
increase its KC-135 Unit Equipped crew ratios from 1.27 to 1.5, and C-
130 crews from 1.75 to 2--allowing the Command to better use those 
assets in accordance with increased requirements in recent years. 
Overall, the 2004 budget request realigns and changes over 4,500 
reserve military and civilian positions in fiscal year 2004, matching 
personnel to requirements while divesting AFRC of legacy missions. 
These realignments and changes are primarily driven by AFRC's 
transformation programs.

                        OPERATION IRAQI FREEDOM

    Question. How has mobilization for Operation Iraqi Freedom 
influenced next year's budget request?
    Answer. Mobilization has not influenced our budget request at all. 
AFRC budgets are developed to maintain normal training for the entire 
Air Force Reserve as if there were no mobilization. Because 
mobilization effects are undeterminable at the time budgets are 
developed, mobilization is dealt with as an execution year issue.
    Question. What lessons have you learned from the most recent 
mobilization and how can you improve the process for next time?
    Answer. Our lessons learned from previous mobilizations helped us 
immensely in dealing with Operation Iraqi Freedom. Perhaps one of the 
most important lessons learned is the need for a centralized up-to-date 
handbook for readiness/mobilization policy and procedures for all three 
Air Force components to use. As of this writing, a new version of the 
out-of-date publication (AFH 10-416 Personnel Readiness and 
Mobilization dated December 22, 1994) is being finalized and 
coordinated by the active Air Force.
    Timely submission of mobilization requirements would improve 
coordination with gaining MAJCOMs and AFRC and improve the mobilization 
package for processing and approval by Air Force Manpower and Reserve 
Affairs (SAF/MR).
    Based on a much clearer vision of requirements under this 
operation, we learned that only the most stressed Air Force Specialty 
Codes (AFSCs) needed to be included under Stop Loss. Through the use of 
a Total Force formula for identifying ``stressed'' AFSCs, only those 
that are absolutely needed will be Stop Lossed.
    Finally, we learned that we needed continuous communication and 
coordination with our gaining MAJCOM partners, in emphasizing the 
necessity for rotation of reservists to allow sufficient time prior to 
demobilization to provide for the use of accrued leave, downtime, 
medical assessments and reconstitution if appropriate.

                      TRICARE HEALTH CARE COVERAGE

    Question. What are your thoughts on extending TRICARE health care 
coverage to members and families of the Reserve on a cost-share basis? 
Would this provide a needed service to our Reservists? Would employers 
view it as an incentive to hire Reservists?
    Answer. Reserve component members become eligible for military 
health benefits when they are placed on active duty orders. The family 
members become eligible for TRICARE benefits when the member receives 
orders for greater than 30 days. The recent changes to policy 
permitting reserve component members and their families to enter 
TRICARE Prime at 31 days of active duty orders instead of 179, had a 
positive impact on members of the reserve in general. It brought a 
significant benefit in reach to members that required low cost quality 
health insurance. The proposed legislation of Senate Bill 852 extending 
health care coverage on a cost share basis to reserve members and their 
families will complement, complete and make comprehensive the medical 
benefits we offer Reservists.
    GAO report dated September 2002 on Defense Health Care, ``Most 
Reservists Have Civilian Health Coverage, but More Assistance is Needed 
When TRICARE is Used'' identified that 20 percent of Americas are 
without health insurance and the reserve forces are a microcosm of 
American society. Therefore at a estimated minimum 20 percent of our 
reserve component population is without health insurance for themselves 
and their families. The GAO in their report also indicated that a 
government purchased/cost share plan would be well received. Offering 
medical benefits through TRICARE on a cost shared basis, like the 
TRICARE Dental Program would be a welcomed benefit. There also exist 
advantages for both the DOD and the member and their family to 
participate. Below is a short examination of those advantages:
    1. Offering a low cost insurance plan will offer greater incentive 
for individuals to join and/or remain in the reserve. This is 
especially true for the self-employed.
    2. TRICARE as a health plan offers equal to or better benefits than 
many smaller employers can offer.
    3. Keeping the same health insurance and the same physicians even 
when the member moves from one employer to the next (and mobilization), 
providing the ultimate experience in health insurance portability and 
continuity of care. This too serves as an incentive to remain in the 
reserve and make it a career.
    Many small companies/employers may not be able to offer health 
insurance to their work force so this provides the reserve member the 
option to look for work in these areas. It frees the member from 
linking employers to the type of job they must look for.
    Advantage to the DOD will be seen in fewer members having problems 
using TRICARE benefits when activated, since more members will know the 
TRICARE system better.
    Transitioning from active duty status to Transitional Health Care 
Benefits to a Reserve TRICARE Health Benefits plan would make it 
seamless, and offers reserve members that don't have jobs to return to 
more flexibility and make their reserve duty experience less stressful.
    4. It may serve as an incentive to hire the reservist. Health 
insurance, next to salaries, is the most expensive benefit an employer 
may pay. Ranging any where between $6600.00 to $7,500.00 annually, an 
employer may even offer to reimburse the reservist a portion of their 
premiums if they use their TRICARE benefit. The member themselves may 
be in a position to negotiate a higher salary or wage based upon lower 
cost. Many employers will translate this as a ``real savings'' and 
bottom line issue.
    5. Since this offers real saving to the employer, the government 
controversy to offer tax saving/incentives to employers who have 
reservists, the availability of TRICARE health coverage may be seen as 
benefit without offering additional tax credits.
    6. Benefit to the government may be seen in the shape of fewer 
problems with members and their families transitioning from one health 
plan to another when brought on active duty or mobilized.
    7. Identifying family members that have special medical needs may 
be easier and reduces the burden/stress on the Military Healthcare 
System, TRICARE Management Activity (TMA) and the member on how to get 
care when the member is activated.
    Other Recommendations:
    1. Law should include that all aspects of TRICARE benefits be 
extended. Many members live in remote areas and TRICARE Prime Remote/
TRICARE Prime Remote for Active Duty Family Members' equivalent must be 
offered to make this plan relevant to all reservists.
    2. Law should direct TMA to expand provider networks and update 
their participating provider listings annually to keep them current. 
Many listings are currently long out of date.
    3. Cost share premiums must be low enough to serve as incentive to 
join the plan. Since many employers cost share their plans with their 
employees, the average coat share (employee cost) ranges from $150 to 
$300 monthly.

                               RESERVISTS

    Question. How can you recommend we better support the employers of 
our Reservists?
    Answer. Employers of reservists are key enablers for maintaining 
the readiness of our reserve service members and their support is vital 
to the Total Force. Employers give up key personnel from their 
workforce to provide support for national defense for extended duration 
periods. Beyond that, many employers have stepped forward to assure 
their employee-reservists do not take a substantial cut in pay when 
called to active duty by making up the difference between their active 
duty pay and their civilian pay. Other employers have provided 
continuing health care premium payments to assure ongoing health care 
coverage for family members of reservists. While these efforts are 
laudable, it is unreasonable to expect such generosity to continue for 
an extended period as reservists enter the second year of, or 
subsequent mobilizations. Moreover, it is also the case that employers 
should not be faced with a financial disincentive to hire reservists, 
nor bear an unreasonable proportion of the financial costs of 
mobilization.
    In recognizing employer support of reservists, Congressional 
leaders have introduced several bills tailored to recognizing the 
contributions of employers of reservists that would go far in 
supporting employers. Among these bills are proposed tax relief in the 
form of tax deductions and credits for employers of reservists, health 
care initiatives that would address care ``gaps'' and ``continuity of 
care'' issues reported by some reservists. In particular, allowing 
reservists to participate in a proposed group TRICARE cost-share 
program would benefit employers, and encourage hiring of reservists at 
a time when anecdotal reports indicate a less than enthusiastic 
propensity by some employers to hire reservists. As a major benefit 
cost for employers would be eliminated, this would provide a strong 
incentive for civilian employers to hire Reserve Component members. 
Also, civilian employers would not incur the expense of paying premiums 
for employees who are mobilized if the member elected to have TRICARE 
benefits only. Furthermore, TRICARE would be the sole payee for any 
valid insurance claims.
    We must also continue supporting employers and enhance assistance 
through support-organizations such as Employer Support of the Guard and 
Reserve (ESGR). Ongoing communication between Reserve Component 
leadership, individual service members, support organizations and 
employers will strengthen relationships among these groups, minimize 
problems that arise, and facilitate swift resolution to problems as 
they occur.

                          EQUIPMENT READINESS

    Question. The Air Force Reserve has performed world-wide missions 
in support of the War on Terrorism since September 12, 2001. I am 
interested in knowing more about the equipment readiness of the Air 
Force Reserve and how the deployments might impact that readiness. 
Specifically, please tell me:
    What significant equipment shortfalls exist in the Air Force 
Reserve?
    Answer. With regard to equipment shortfalls as it relates to the 
War on Terrorism, and the readiness of the Air Force Reserve to support 
the War on Terrorism, the following list of items is submitted.
    The WC-130J radar modification.
    F-16 color display processor.
    F-16 Litening II pod upgrade.
    F-16 Litening AT pod procurement.
    Security Forces UTC/LOGDET mobility equipment.
    A-10 Litening AT procurement.
    B-52 Litening AT procurement.
    Deployable secure tactical radios.
    C-5 Airlift Defensive Systems.
    APN-241 radar replacement for C-130E/H.
    Question. How do these shortfalls impact the Air Force Reserve's 
mission in support of the war on terrorism?
    Answer. The lack of equipment effectively prevents the Air Force 
Reserve from achieving its maxim combat capability.
    WC-130J radar modification is required to correct display 
inconsistencies and boost detection range of weather hazards through 
software and hardware changes for the 10 Hurricane Hunter aircraft. 
Without these radar modifications the WC-130 J-model is not currently 
capable of penetrating hurricanes.
    F-16 Color Display Processor replaces the overloaded and 
logistically unsupportable data display processor and provides color 
multi-functional display for weapons, navigation, and aircraft systems 
information. The upgraded display will enhance pilot situational 
awareness in combat and increase overall combat capability of the 69 F-
16 aircraft fleet in the Air Force Reserve.
    F-16 Litening II pod upgrade enhances target detection range and 
target tracking accuracy. Pilots will have greater flexibility with 
increased safety while attacking targets with greater precision and 
minimizing collateral damage. This upgrade will bring the existing pods 
up to the capability of the enhanced Litening AT version.
    F-16 Litening AT pod is the most capable multi-sensor targeting 
pod, which provides enhanced precision strike capability while 
minimizing collateral damage. The Litening II pod was used with great 
success during the War in Afghanistan and during Operation Iraqi 
Freedom. Currently, there are 30 Litening II pods shared between 132 
aircraft F-16, A-10 and B-52's.
    Security Forces UTC/LOGDET mobility equipment funds are required to 
replace assets such as field telecommunication equipment, tactical 
radios, night vision devices, pallets and cargo nets. These assets were 
deployed in direct support of Operations Enduring Freedom and Iraqi 
Freedom and left in country in support of commander's request. Funds 
are also required to acquire equipment for newly assigned Security 
Forces, which have already started deploying without all required 
equipment due to short notice taskings and previously deployed 
equipment.
    A-10 Litening AT pod is the most capable multi-sensor targeting 
pod, which provides enhanced precision strike capability while 
minimizing collateral damage. The Litening II pod was first used by the 
A-10 in combat with great success during the Operation Iraqi Freedom. 
Currently, there are 30 Litening II pods shared between 132 aircraft F-
16, A-10 and B-52's.
    B-52 Litening AT pod is the most capable multi-sensor targeting 
pod, which provides enhanced precision strike capability while 
minimizing collateral damage. The Litening II pod was first used by the 
B-52 in combat with great success during the Operation Iraqi Freedom. 
Currently, there are 30 Litening II pods shared between 132 aircraft F-
16, A-10 and B-52's.
    The Deployable secure tactical radios are needed to replace the 
Scope Shield I and II tactical field radios which are unsupportable and 
must be replaced. They are no longer depot repairable and are 
technically unsupportable. Secure tactical radios are the Air Force's 
primary means of communication for force protection operations.
    The C-5 Airlift Defensive System is intended to provide protection 
against infrared (IR)-guided surface-to-air missile threats in low-
threat and some medium-threat environments. The system is designed to 
detect the threat, alert the crew, and automatically expend IR 
countermeasure decoys.
    The APN-241 Radar replacement for C-130 E/H is the AMC standard 
radar to replace the APN-59 for combat delivery aircraft. The current 
APN-59 radar system does not meet mission reliability, maintainability, 
and supportability requirements. Cost to maintain an antiquated APN-59 
system is becoming prohibitive. HQ AMC is working a program to replace 
the APN-59 radar on the entire C-130 fleet with new generation low-
power color radars under the Avionics Modernization Program (AMP); 
however, the AMP Program has taken several budget cuts and is being 
extended into the future.
    Question. What are the potential future impacts of these equipment 
shortfalls?
    Answer. The potential future impact of these equipment shortfalls 
will prevent the Air Force Reserve from maintaining interoperability 
not only within the total force construct, but the entire battle space 
shared by our sister services and allies. In order to maintain 
relevance and provide the combat capability required by the Combatant 
Commanders, the Air Force Reserve must modernize.

                          SUBCOMMITTEE RECESS

    Senator Stevens. We appreciate your service and your 
willingness to be with us today. We're going to reconvene on 
May 14 to hear from the Secretary of Defense.
    Thank you very much.
    [Whereupon, at 12:25 a.m., Wednesday, May 7, the 
subcommittee was recessed, to reconvene at 10:30 a.m., 
Wednesday, May 14.]

</pre></body></html>
